App. 1
EXHIBIT A
IN THE SUPREME COURT OF
CALIFORNIA
THE PEOPLE,
Plaintiff and Respondent,
v.
JAMES MICHAEL FAYED,
Defendant and Appellant.
No. S198132
Los Angeles County Superior Court
BA346352
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Filed April 2, 2020.
Justice Chin authored the opinion of the Court, in
which Chief Justice Cantil-Sakauye and Justices Corrigan, Liu, Cuéllar, Kruger, and Groban concurred.
------------------------------------------------------------------------------------------------------------------------------------------------------------------------------------

Opinion of the Court by CHIN, J.
A Los Angeles County jury found defendant James
Michael Fayed guilty of the first degree murder of his
estranged wife, Pamela Fayed, (Pen. Code,1 § 187, subd.
(a)) and of conspiracy to commit murder (§ 182, subd.
(a)(1)). (As discussed further below, defendant was not
the actual killer but arranged for someone to kill Pamela.) The jury further found true the special
1

Unless otherwise noted, all further statutory references are
to the Penal Code.

App. 2
circumstance allegations of financial gain (§ 190.2,
subd. (a)(1)) and lying in wait (§ 190.2, subd. (a)(15)).
Following the penalty phase, the jury returned a verdict of death. The trial court denied defendant’s automatic application for modification of the verdict
(§ 190.4, subd. (e)) and sentenced defendant to death.
This appeal is automatic. (§ 1239.) For reasons
that follow, we affirm the judgment in its entirety.
FACTUAL AND PROCEDURAL BACKGROUND
A. Guilt Phase
1. Overview
Shortly after initiating divorce proceedings in October 2007, defendant arranged for Pamela Fayed’s2
murder by paying the couple’s employee, Jose “Joey”
Moya, $25,000 to kill her. Moya, in turn, enlisted Gabriel Jay Marquez, the boyfriend of his niece, and Steven Simmons, Marquez’s nephew. On July 28, 2008,
Pamela was stabbed to death in a Century City parking garage, moments after she had left a meeting with
defendant and their respective attorneys. At the time
of her murder, defendant and Pamela were under federal investigation for allegedly laundering money for
Ponzi schemes through their e-currency business.
Defendant and Pamela were married in 1999, and
had one young daughter, J.F. Pamela’s older daughter
2

To minimize confusion and for the sake of simplicity, we
have used first names when necessary. (People v. Trujeque (2015)
61 Cal.4th 227, 236, fn. 2.)

App. 3
from a previous marriage, Desiree G., also lived with
the family. In or around 2002, the Fayeds started a
business, Goldfinger Coin & Bullion (Goldfinger), in
Camarillo. Goldfinger was an Internet company that
provided money and precious metal transfer services
for a fee. They also had an associated company, E-Bullion Company (E-Bullion), which was incorporated in
the country of Panama with its business offices in California.
After the financial success of Goldfinger, the family bought a home in Camarillo and a second home on
an over 200-acre ranch in Moorpark, which they called
“Happy Camp Ranch.” Joey Moya, who was hired to assist defendant and to help on the ranch, moved into a
second house on the ranch.
In or around April 2007, Pamela spoke with her
good friend, Carol Neve, who had a similar e-currency
business. After Neve advised Pamela that Goldfinger
needed a money transmitting license to comply with
federal regulations, Pamela wrote a check for $400,000
on October 6, 2007 to secure a license. Defendant had
told Pamela that a license was not required. Defendant
filed for divorce in October 2007. He banned Pamela
from Goldfinger offices and fired Desiree, who had
worked there for two years. In divorce filings, defendant alleged that Pamela had embezzled $800,000 from
Goldfinger.

App. 4
2. Unrelated Federal Investigation of Goldfinger
In or around early 2008, before Pamela’s murder,
the United States Attorney’s Office led by Assistant
United States Attorney (AUSA) Mark Aveis began a
formal investigation into Goldfinger for its involvement in a money laundering scheme. In their joint investigation of two Ponzi schemes, the FBI and the IRS
discovered that money from these two schemes “was
flowing through Goldfinger” and that Goldfinger had
made over $9 million in 2002 and upwards of $160 million in 2007. Though defendant and Goldfinger were
not directly involved in the Ponzi schemes, the federal
government sought an indictment against them “to obtain leverage” with defendant, i.e., to allow the FBI to
“monitor the flow of money to his business to ferret out
and uncover illegal money transmitting activity.”
On February 26, 2008, five months before Pamela’s
murder, defendant and Goldfinger were indicted on
federal charges of operating an unlicensed money
transmitting business (18 U.S.C. § 1860). Pamela was
not named in the indictment, which was sealed and not
made public. However, in June 2008, after the United
States Attorney’s Office subpoenaed the accountants
involved in auditing the divorce, Pamela learned that
Goldfinger and defendant were being investigated by
the FBI and IRS.
About a month later, Pamela’s first criminal defense attorney, David Willingham, contacted AUSA
Aveis and told him that “Pamela wants to come in.”
Aveis took that comment to mean that Pamela wanted

App. 5
to cooperate in the criminal investigation against defendant and Goldfinger, though there was no understanding, arrangement, or agreement that Pamela
would do so. Before Aveis could meet with Pamela, she
was killed. At that time, there was no indication defendant knew about the sealed indictment against
him; Aveis admitted that the government never got
around to putting pressure on defendant to cooperate.
3. Murder of Pamela Fayed
On July 28, 2008, the day of the murder, defendant
and Pamela met with their respective attorneys to discuss the ongoing federal investigation into their Goldfinger business. The prearranged meeting, which took
place at the Century City offices of defendant’s former
attorney, lasted from 3:30 p.m. until approximately
6:30 p.m. that evening. After the meeting, Pamela returned alone to her car, which was parked on the third
floor in the adjacent parking structure. She was
stabbed multiple times in the head, neck, and chest
and had defensive wounds on her arms. The fatal stab
wound was a deep cut to the front of her neck.
Witness Edwin Rivera described the assailant as
a tall and skinny male, wearing a black hooded sweatshirt and jeans. Rivera, however, could not see the assailant’s face.

App. 6
4. Crime Scene and Murder Investigation
Los Angeles Police Department (LAPD) Detective
Eric Spear arrived shortly after Pamela’s body was removed from the crime scene. Detective Spear identified
a red SUV as a suspect vehicle and obtained an image
of the SUV’s license plate from one of the parking lot
cameras. The SUV was rented from Avis Rent A Car
company in Camarillo on behalf of Goldfinger and defendant. Pamela’s blood was found in the interior of the
SUV, which had been steam cleaned before being returned to the rental company. A fingerprint found on
the parking garage ticket matched that of Simmons.
Telephone records showed that cell phones registered to Marquez and Simmons made contact with a
cell tower located close to the murder scene at almost
the same time as the murder. Records also showed that
defendant and Moya exchanged multiple text messages shortly before and after the murder, though the
messages were deleted from defendant’s phone.
On August 1, several days after Pamela’s murder,
the federal indictment was unsealed, and defendant
was arrested by federal agents. At the time, the other
suspects under investigation for the murder (Moya,
Marquez, and Simmons) had not yet been arrested.
5. Recorded Jailhouse Conversation with Shawn
Smith
LAPD Detective Salaam Abdul was assigned to investigate Pamela’s murder. On September 9, 2008, Detective Abdul received word from federal authorities

App. 7
that Shawn Smith, who was sharing a cell with defendant at the men’s federal detention center, wanted to
speak to police. After meeting with Smith, Detective
Abdul arranged for Smith to wear a wire when he returned to the cell he shared with defendant.
In their secretly recorded conversation, defendant
told Smith that he had paid Moya to murder Pamela
and asked Smith to solicit Smith’s fictional hitman
“Tony” to kill Moya to eliminate him as a witness. The
jury heard the recorded conversation between defendant and Smith in its entirety and also received a written transcript of the conversation. The substance of the
conversation is discussed in greater detail below as relevant to the issue defendant raises. (See post, at pp. 1820.)
6. Procedural Background
On or about September 15, 2008, a complaint
charged defendant and codefendant Moya with the
first degree murder of Pamela. (§ 187, subd. (a).) It alleged the special circumstance allegations of murder
for financial gain (§ 190.2, subd. (a)(1)) and murder by
means of lying in wait (id., subd. (a)(15)). Count 2 also
charged defendant with one count of conspiracy. (§ 182,
subd. (a)(1).) That same day, the United States Attorney for the Central District of California moved to dismiss the federal indictment against defendant.
On August 13, 2010, nearly two years after defendant and Moya were charged with Pamela’s murder, the
prosecution filed an indictment against coconspirators

App. 8
Marquez and Simmons and filed a notice of joinder of
all four defendants a month after. On February 11,
2011, the prosecution filed a notice seeking the death
penalty against defendant only. Although the cases
were initially consolidated, the trial court granted defendant’s severance motion after the prosecution
sought the death penalty against defendant only.3
Guilt phase jury deliberations began on May 17,
2011. After deliberating for two days, the jury found
defendant guilty of first degree murder and one count
of conspiracy to commit murder. It also found true the
special circumstance allegations of murder for financial gain and murder by means of lying in wait. After
penalty phase deliberations, the jury fixed the penalty
at death. Defendant moved to modify the verdict under
section 190.4, subdivision (e), which motion the trial
court denied. The trial court fixed the penalty at death.

3

In a separate trial before the same trial judge, a jury convicted Moya, Marquez, and Simmons of the first degree murder of
Pamela, and of conspiracy to commit murder. The jury also found
true the special circumstance allegation of murder by means of
lying in wait as to all three defendants (§ 190.2, subd. (a)(15)) and
the special circumstance allegation of murder for financial gain
with respect to Moya only (id., subd. (a)(1)). The trial court sentenced all three defendants to life imprisonment without the possibility of parole for the first degree murder conviction and
imposed and stayed a sentence of 25 years to life on the conviction
for conspiracy to commit murder. Each defendant appealed. The
Court of Appeal affirmed all three judgments in an unpublished
opinion.

App. 9
B. Penalty Phase
1. Prosecution Evidence
The prosecution presented victim impact evidence
through the testimony of Pamela’s two sisters, her
brother and his wife, and Pamela’s adult daughter, Desiree. Pamela’s friends also testified.
Pamela’s sister testified that while hearing news
of Pamela’s death was very difficult, hearing details
about how she died from witness Edwin Rivera “was
by far the hardest thing.” Pamela’s brother, who became J.F.’s legal guardian, testified that while J.F.
knows that her mother was murdered, he did not tell
her that her father did it because she still loved her
father; Pamela’s brother believed J.F. “is the biggest
victim of all this.”
Over defense objection, the prosecution presented
photographs of Pamela and her family, including one of
Desiree kneeling over her casket and kissing it. Desiree also read a personal letter that Pamela had left
to her and J.F. in the event of her death.
2. Defense Evidence
The defense called defendant’s friend and a former
coworker to each testify. His friend described defendant as a hardworking man, a great friend, and a “good
person.” His former coworker, who had worked with defendant at the Marine Corps Air Station in El Toro, described defendant as “quiet spoken” and “mellow.” The
defense also called defendant’s high school friend,

App. 10
Melanie Jackman, who considered defendant one of
her best friends. She testified that sometime before defendant started divorce proceedings, defendant had
called Jackman for advice on how to make Pamela
happy. Defense counsel attempted to elicit this testimony to show how defendant at one point in time cared
for Pamela.
DISCUSSION
A. Guilt Phase
1. Admission of Defendant’s Recorded Jailhouse
Statement with Shawn Smith
On appeal, defendant raises numerous claims
based on the admission of defendant’s surreptitiously
recorded jailhouse statement, asserting that its admission constituted error of constitutional dimensions.
Specifically, he raises claims based on his Sixth
Amendment right to counsel (see Massiah v. United
States (1964) 377 U.S. 201 (Massiah)), his Fifth
Amendment right to counsel and privilege against selfincrimination, his Fourth Amendment right to be free
from unreasonable detention, his rights under the
Sixth Amendment’s confrontation clause (see Crawford v. Washington (2004) 541 U.S. 36 (Crawford)), as
well as attendant protections under Evidence Code
sections 352 and 1101.
We discuss each challenge in turn.

App. 11
a. Factual and Procedural Background
On July 29, 2008, the day after Pamela was killed,
defendant was arrested for her murder. After invoking
his right to remain silent, defendant refused to speak
to investigators and was released two hours later. On
August 1, 2008, the federal indictment was unsealed,
and defendant was arrested on the federal money licensing violation. Defendant was remanded into federal custody. On September 10, 2008, while in custody,
defendant made incriminating statements about Pamela’s murder to his cellmate, Shawn Smith.4 Smith was
wearing a wire and recorded his conversation with defendant.
Shortly before their conversation was recorded,
Smith had told authorities that he was sharing a cell
with defendant and that defendant had told Smith
that he was involved in murdering his wife. Detective
Abdul met with Smith and determined that additional
investigation was necessary. Smith was outfitted with
a “wire,” a recording device placed in the inside zipper
on the crotch area of Smith’s pants. Detective Abdul
instructed Smith to avoid the appearance of trying to
elicit information from defendant and instead to have
4

At the time, Smith was in custody awaiting sentencing for
a conviction of possession with intent to sell cocaine. Smith had
previously been convicted of: (1) conspiracy to distribute cocaine
in 1987 and served 18 months in prison; (2) transporting and possession for sale a controlled substance in 1990; (3) possession of a
controlled substance with the intent to sell in 2003; (4) driving
under the influence and hit and run in 2003; and (5) hit and run
in 2006. These convictions were introduced into evidence to impeach Smith’s credibility.

App. 12
a regular conversation with him to see if defendant
would “go ahead and reveal information that [defendant] had revealed before.” Though Detective Abdul
could not recall “exactly what [he] said to Mr. Smith,”
he testified he did not “counsel him on what to say.” He
did, however, refer to a “previous conversation” with
Smith, based on which Detective Abdul determined
there was “no reason” to discuss with Smith what he
should say to defendant.
On September 15, 2008, the same day defendant
was charged with Pamela’s murder, the federal government dismissed its indictment against defendant to
avoid interfering with the state’s murder investigation
of defendant. Around the same time, although Smith
was “facing a fairly substantial prison term,” he was
released on unsecured bond and was later released
early from custody. Detective Abdul, however, later testified that Smith’s release “had nothing to do with the
state crime that [defendant] was charged with.”
Before and during his trial, defendant made several unsuccessful challenges to the admission of his
recorded jailhouse statement. The prosecution played
the entire tape-recorded statement to the jury. On September 12, 2011, after the jury returned a guilty verdict, defendant filed a motion for a new trial, in which
he argued that the prosecution’s decision to rely on the
recorded statement and not to call Smith to testify violated defendant’s rights under Crawford. The trial
court denied the motion.

App. 13
b. Defendant’s Sixth Amendment Right to
Counsel; Massiah Error
On appeal, defendant argues that even though he
had not yet been charged for Pamela’s murder, his
Sixth Amendment right to counsel had attached when
he was in federal custody for the money licensing violation. On that point, he asserts the federal and state
prosecutions were “inextricably intertwined” and that
the federal prosecution was a “sham” to hold defendant
in custody while state authorities investigated the
murder case against defendant. Defendant maintains
that because Smith was acting as an agent for the government, any statements Smith elicited from defendant were inadmissible under Massiah. For reasons
that follow, we deny this claim.
The Sixth Amendment provides that “[i]n all criminal prosecutions, the accused shall enjoy the right . . .
to have the assistance of counsel for his defense.” (U.S.
Const., 6th Amend.; see Massiah, supra, 377 U.S. at p.
206.) This constitutional protection “guarantees the accused, at least after the initiation of formal charges,
the right to rely on counsel as a `medium’ between him
and the State.” (Maine v. Moulton (1985) 474 U.S. 159,
176; see Massiah, supra, 377 U.S. at p. 206.) The “clear
rule of Massiah is that once adversary proceedings
have commenced against an individual, he has a right
to legal representation when the government interrogates him.” (Brewer v. Williams (1977) 430 U.S. 387,
401.)

App. 14
The high court has “pegged commencement to
‘ “the initiation of adversary judicial criminal proceedings—whether by way of formal charge, preliminary
hearing, indictment, information, or arraignment.” ’ ”
(Rothgery v. Gillespie County (2008) 554 U.S. 191, 198
(Rothgery); see Kirby v. Illinois (1972) 406 U.S. 682,
689-690.) Likewise, we have held that the Sixth
Amendment right to counsel “does not exist until the
state initiates adversary judicial criminal proceedings,
such as by formal charge or indictment.” (People v. DePriest (2007) 42 Cal.4th 1, 33 (DePriest); see People v.
Viray (2005) 134 Cal.App.4th 1186, 1194.)
By its terms, the Sixth Amendment right to counsel is “offense specific. It cannot be invoked once for all
future prosecutions, for it does not attach until a prosecution is commenced. . . . ” (McNeil v. Wisconsin
(1991) 501 U.S. 171, 175 (McNeil); see Rothgery, supra,
554 U.S. at p. 198; People v. Cunningham (2015) 61
Cal.4th 609, 648; Maine v. Moulton (1985) 474 U.S. 159,
180.) The high court has made clear that there is no
exception to this offense-specific requirement for uncharged offenses that are “ ‘ “closely related” ’ ” to or
“ ‘ “inextricably intertwined” ’ ” with the charged offense. (Texas v. Cobb (2001) 532 U.S. 162, 173; see People v. Slayton (2001) 26 Cal.4th 1076, 1082-1083.) That
said, “when the Sixth Amendment right to counsel attaches, it does encompass offenses that, even if not formally charged, would be considered the same offense

App. 15
under the Blockburger test.”5 (Texas v. Cobb, supra, 532
U.S. at p. 173, italics added.)
Here, the state prosecution for Pamela’s murder
had not yet commenced when defendant, who was in
federal custody for the unrelated money licensing
charge, made the incriminating remarks to Smith.
Contrary to defendant’s suggestion, we have expressly
endorsed, in recognition of the offense specific requirement, a “bright-line precharging rule against attachment of a Sixth Amendment right.” (DePriest, supra, 42
Cal.4th at p. 34.) Thus, “[a] defendant’s incriminating
statements about offenses for which he has not been
charged may be admitted consistently with his Sixth
Amendment counsel guarantee notwithstanding its attachment on other charged offenses at the time.” (Id.
at p. 33.) Defendant fails to persuade why the “brightline precharging rule against attachment of a Sixth
Amendment right” (DePriest, supra, 42 Cal.4th at p.
34), should not apply here.
For instance, notwithstanding the Sixth Amendment’s “offense specific” requirement (McNeil, supra,
501 U.S. at p. 175), defendant insists that state and
5

Under Blockburger v. United States (1932) 284 U.S. 299,
“ ‘the test to be applied to determine whether there are two offenses or only one, is whether each provision requires proof of a
fact which the other does not.’ ” (Texas v. Cobb, supra, 532 U.S. at
p. 173, quoting Blockburger, supra, 284 U.S. at p. 304.) As such,
the high court also described the “Sixth Amendment as `prosecution specific,’ insofar as it prevents discussion of charged offenses
as well as offenses that, under Blockburger could not be the subject of a later prosecution.” (Texas v. Cobb, supra, 532 U.S. at p.
173, fn. 3, italics added.)

App. 16
federal authorities had “worked collectively” to ensure
that defendant was detained without bail in the federal case, thus making the federal licensing charge “inextricably intertwined” with the state murder charge.
In support, defendant relies on principles underlying
the dual sovereignty doctrine in the Fifth Amendment
double jeopardy context. (See Gamble v. United States
(2019) ___ U.S. ___, ___ [139 S.Ct. 1960, 1964] (Gamble)
[“Under this ‘dual-sovereignty’ doctrine, a State may
prosecute a defendant under state law even if the Federal Government has prosecuted him for the same conduct under a federal statute”].) Specifically, defendant
emphasizes that the high court left open the possibility
that double jeopardy principles may ban a successive
state prosecution that serves as a “sham and a cover”
for the federal prosecution. (Bartkus v. Illinois (1959)
359 U.S. 121, 124 (Bartkus).)
By analogy, defendant argues that the federal
prosecution for the licensing violation was in fact a
“sham” used to detain defendant while the state investigated Pamela’s murder. He maintains, therefore, that
his arrest and federal detention prohibited any questioning on the state murder case. Even assuming that
the dual sovereignty doctrine applies in the Sixth
Amendment context (see U.S. v. Coker (1st Cir. 2005)
433 F.3d 39, 45), and further, that the sham prosecution serves as a “potential exception” to this doctrine
(Gamble, supra, 139 S.Ct. at p. 1994, fn. 3 (dis. opn. of
Ginsburg, J.)), we conclude defendant’s claim lacks
merit.

App. 17
As noted, the sham prosecution theory only applies to provide defendant relief if there were successive prosecutions by two sovereigns for the same
offense. (See Gamble, supra, 139 S.Ct. at p. 1964 [affirming dual sovereignty doctrine].) Here, the offenses—Pamela’s murder and the federal licensing
charge—were clearly not the same. In fact, at his federal detention proceedings, defendant argued that the
federal licensing charge and the as-yet charged murder were “unrelated” and “disconnected.”
Nevertheless, we agree with defendant that both
federal detention hearings focused heavily on facts
surrounding Pamela’s murder and defendant’s possible involvement. To the extent defendant argues that
federal and state authorities “worked collectively” to
have him detained in federal custody, i.e., through
sharing information about the murder and providing a
“detention script” prepared by the LAPD, this level of
cooperation and collaboration simply represents the
“conventional practice between the two sets of prosecutors throughout the country” (Bartkus, supra, 359
U.S. at p. 123).
“As Bartkus makes plain, there may be very close
coordination in the prosecutions, in the employment of
agents of one sovereign to help the other sovereign in
its prosecution, and in the timing of the court proceedings so that the maximum assistance is mutually rendered by the sovereigns. None of this close
collaboration amounts to one government being the
other’s ‘tool’ or providing a ‘sham’ or ‘cover.’ ” (U.S. v.
Figueroa-Soto (9th Cir. 1991) 938 F.2d 1015, 1020.)

App. 18
Further, even if state authorities deliberately delayed
arresting defendant for Pamela’s murder, which purportedly gave them more time in which to elicit defendant’s incriminatory statements in federal custody, this
“conscious delay” does not violate his Sixth Amendment right to counsel. (People v. Webb (1993) 6 Cal.4th
494, 527 [no Massiah violation where investigators
told wife to “intensify her questioning” of defendant
about capital crimes while defendant was incarcerated
on unrelated charges].)6
Finally, defendant relies on Elkins v. United States
(1960) 364 U.S. 206, to argue specifically that concepts
of due process and fundamental fairness dictate that
his Sixth Amendment right to counsel had attached.
Not so. Elkins’s abrogation of the “silver platter” doctrine—which previously allowed evidence obtained by
a state agent’s unreasonable searches or seizures to be
used in a federal trial—does not have any application
here. (Elkins, supra, 364 U.S. at p. 222.) As discussed
above, we reject defendant’s assertion that federal authorities acted improperly in detaining defendant;
thus, the high court’s concerns of “subterfuge and
6

Because it is clear that defendant’s Sixth Amendment right
had not attached when he made the incriminating statements to
Smith, it is unnecessary to address, for purposes of defendant’s
Massiah claim, whether Smith “(1) was acting as a government
agent, i.e., under the direction of the government pursuant to a
preexisting arrangement, with the expectation of some resulting
benefit or advantage, and (2) deliberately elicited incriminating
statements.” (In re Neely (1993) 6 Cal.4th 901, 915.) Whether
Smith’s allegedly coercive actions rendered defendant’s statements involuntary, however, is an issue we discuss below. (See
post, at pp. 18-20.)

App. 19
evasion with respect to federal-state cooperation in
criminal investigation” are not realized in this case.
(Ibid.)
Based on these reasons, we reject defendant’s
claim that his Sixth Amendment right to counsel had
attached to the uncharged murder when he made the
incriminating statements in federal custody. (See
Texas v. Cobb, supra, 532 U.S. at p. 173.)
c. Defendant’s Fifth Amendment
Against Self-incrimination

Right

Defendant also claims that when authorities
placed Smith in defendant’s cell to ask him pointed
questions about Pamela’s murder, this violated his
Fifth Amendment right to remain silent. (U.S. Const.,
5th Amend. [“nor shall [any person] be compelled in
any criminal case to be a witness against himself ”];
Cal. Const., art. I, § 15; see Miranda v. Arizona (1966)
384 U.S. 436; Edwards v. Arizona (1981) 451 U.S. 477,
484-485.) Specifically, defendant maintains that he invoked his Fifth Amendment right to counsel when
taken into federal custody for the money licensing violation and that he thereby invoked his Fifth Amendment right as to this murder case.
We agree with defendant that unlike the Sixth
Amendment right to counsel, his Fifth Amendment
right is not offense specific. (Arizona v. Roberson (1988)
486 U.S. 675, 685.) That said, even if defendant
properly invoked his Fifth Amendment right to counsel
on July 29 when first arrested for Pamela’s murder the

App. 20
intervening passage of time along with defendant’s release and break in custody meant that his invocation
did not remain in force on September 10 when he made
the incriminating statements to Smith. Further, the
high court has held that at least where no prior invocation is in effect, “ ‘[c]onversations between suspects
and undercover agents do not implicate the concerns
underlying Miranda. The essential ingredients of a ‘police-dominated atmosphere’ and compulsion are not
present when an incarcerated person speaks freely to
someone whom he believes is a fellow inmate. Coercion
is determined from the perspective of the suspect.” (Illinois v. Perkins (1990) 496 U.S. 292, 296.) In other
words, “Miranda forbids coercion, not mere strategic
deception by taking advantage of a suspect’s misplaced
trust in one he supposes to be a fellow prisoner. . . . [¶]
Miranda was not meant to protect suspects from boasting about their criminal activities in front of people
whom they believe to be their cellmates.” (Id. at pp.
297-298 [defendant showed “no hint of being intimidated by the atmosphere of the jail” and “was motivated solely by the desire to impress his fellow
inmates”]; see People v. Tate (2010) 49 Cal.4th 635, 685686.)
Defendant briefly asserts that Smith was a government agent who used coercive, deceptive, and overreaching tactics to elicit defendant’s incriminating
statements in violation of due process. (See Miller v.
Fenton (1985) 474 U.S. 104, 110 [notwithstanding
Miranda’s prophylactic protections, “the Court has
continued to measure confessions against the

App. 21
requirements of due process”]; see also Arizona v. Fulminante (1991) 499 U.S. 279, 288 [“fear of physical violence, absent protection from his friend (and
Government agent) . . . motivated Fulminante to confess”].) “The use of deceptive statements during an investigation does not invalidate a confession as
involuntary unless the deception is the type likely to
procure an untrue statement.” (People v. McCurdy
(2014) 59 Cal.4th 1063, 1088; see People v. Mickey
(1991) 54 Cal.3d 612, 649-650.) “ ‘A statement is involuntary if it is not the product of “ ‘a rational intellect
and free will.’ ” [Citation.] The test for determining
whether a confession is voluntary is whether the defendant’s “will was overborne at the time he confessed.” ’ ” (People v. McWhorter (2009) 47 Cal.4th 318,
346-347.)
Though the details of their conversation prior to
Smith wearing a wire are unknown, it is clear that defendant and Smith had already talked about enlisting
Smith’s made up hitman, “Tony,” to kill Moya. While
Smith may have prodded defendant to speak at times,
the record does not support that defendant’s will was
overborne when he expressed he wanted Moya killed.
For instance, defendant told Smith he did not
“want to be worrying about this every fuckin’ minute
of the day when I’m out there” and that he did not want
to “sit around here for the rest of my life and worry
about whether one of them is gonna fuckin’ finally decide to fess up.” Defendant purportedly drew Smith a
detailed layout of his ranch to ensure the hitman went
to the right house to kill Moya. Further, when an officer

App. 22
passed their cell as defendant and Smith were discussing these plans, defendant remarked: “We’re planning
a fucking multiple homicide bitch. Leave us alone.”
Our review of the recorded conversation reveals
several instances where Smith asked defendant specific, and arguably leading, questions about Pamela’s
killing, including probing whether it was defendant’s
idea to take the company’s rented car which was used
in the killing. Smith also appeared to ingratiate himself by expressing sympathy for defendant and commiserating with defendant on how Moya and his
cohorts bungled Pamela’s murder. As the conversation
went on, however, defendant confessed he wanted to
kill Pamela himself, but “knew I’d never fuckin’ be able
to get away with it. Never.”
Certainly, Smith was much more than a passive
listener. That said, we cannot conclude that Smith’s
questions or tactics were likely to procure an untrue
statement or were otherwise improper. (See Arizona v.
Fulminante, supra, 499 U.S. at p. 287 [coercion due to
“credible threat of physical violence” if defendant did
not confess].) Though at times Smith coaxed and prodded defendant when he hesitated to speak, it is clear
from the record as a whole that defendant was neither
compelled into revealing his role in Pamela’s murder,
nor was he coerced into hiring a hitman to kill Moya.
If the “ ‘decision is a product of the suspect’s own balancing of competing considerations, the confession is
voluntary.’ ” (U.S. v. Miller (9th Cir. 1993) 984 F.2d
1028, 1031.)

App. 23
d. Defendant’s Fourth Amendment Right
Against Unlawful Search and Seizure
Defendant argues that pursuant to the Bail Reform Act of 1984 (18 U.S.C. § 3142(f )), he should have
been released on bail after his arrest on the federal licensing charge. Instead, because he was denied bail
and remained in custody, that detention was unlawful,
and any statements he made to Smith during that detention should be suppressed under the Fourth
Amendment. Even assuming defendant was erroneously denied bail, he fails to demonstrate that the remedy for any violation of the Bail Reform Act of 1984 is
to suppress the subsequent confession of the defendant. (See United States v. Leon (1984) 468 U.S. 897, 916
[“exclusionary rule is designed to deter police misconduct rather than to punish the errors of judges and
magistrates”]; see also Hudson v. Michigan (2006) 547
U.S. 586, 591 [“Suppression of evidence, however, has
always been our last resort, not our first impulse”].) As
such, we deny this claim.
e. Defendant’s Right to Confrontation
On May 11, 2011, with one remaining witness left
to testify at the guilt phase, the prosecution informed
the trial court that they would not be calling Smith to
the stand. The trial court permitted the prosecution to
lay the foundation for the recorded conversation between Smith and defendant through Detective Abdul’s
testimony. Detective Abdul testified that he placed a
recording device on Smith’s person. After defense counsel recounted Smith’s criminal history, Detective Abdul

App. 24
replied he did not know “how extensive his criminal
history was.” Detective Abdul denied offering Smith
any advantage or reward for cooperating with authorities and also denied counseling Smith on what to say
to defendant. However, the detective admitted he knew
that at the time of the recorded conversation, Smith
was awaiting sentencing and “facing a fairly substantial federal prison term” after pleading guilty to selling
cocaine to an undercover agent.
After Detective Abdul testified, the jury heard
(and later received a transcript of ) the entirety of the
recorded conversation. In admitting the transcript and
tape of the recorded conversation into evidence, the
trial court concluded Smith’s statements were not being offered for the truth of the matter asserted and
were, therefore, admissible as nonhearsay. As to defendant’s recorded statements, the trial court found
that while the statements constituted hearsay, they
were admissible under the exception for an admission
against penal interest.
Outside the presence of the jury, defense counsel
raised a “standing objection”—i.e., referring to previously raised objections based on the Fourth, Fifth,
Sixth, and Fourteenth Amendments to the Constitution—to the admission of the recorded conversation between Smith and defendant. Defense counsel also
specifically raised a hearsay objection based on Crawford, supra, 541 U.S. 36 and requested that the court
give a clarifying instruction on the jury’s permitted use
of Smith’s statements. The trial court told defense

App. 25
counsel to draft an appropriate instruction, which the
court said it would take up later.
On appeal, defendant focuses on Smith’s statements, the admission of which he claims violated his
Sixth Amendment right of confrontation and the restrictions against testimonial statements. (Crawford,
supra, 541 U.S. at p. 59; U.S. Const., 6th Amend. [“In
all criminal prosecutions, the accused shall enjoy the
right . . . to be confronted with the witnesses against
him”]; see Cal. Const., art. I, §§ 7, 14 & 15.) Claiming
prejudice, defendant asserts Smith’s statements were
the “force majeure” of the prosecution’s case, without
which there would be little evidence against defendant.
Generally speaking, a declarant’s hearsay statement is testimonial if made “with a primary purpose of
creating an out-of-court substitute for trial testimony.”
(Michigan v. Bryant (2011) 562 U.S. 344, 358.) Notwithstanding the lack of a comprehensive definition of “testimonial” (Ohio v. Clark (2015) ___ U.S. ___, ___ [135
S.Ct. 2173, 2179]), the high court has nonetheless emphasized that only hearsay statements that are “testimonial” are subject to the confrontation clause. (Davis
v. Washington (2006) 547 U.S. 813, 821; Crawford, supra, 541 U.S. at p. 53 [“even if the Sixth Amendment is
not solely concerned with testimonial hearsay, that is
its primary object”].) “It is the testimonial character of
the statement that separates it from other hearsay
that, while subject to traditional limitations upon
hearsay evidence, is not subject to the Confrontation
Clause.” (Davis v. Washington, supra, 547 U.S. at p. 821;

App. 26
see People v. Cage (2007) 40 Cal.4th 965, 984.) The admission of nonhearsay statements, it follows, “raises no
Confrontation Clause concerns.” (Tennessee v. Street
(1985) 471 U.S. 409, 414; see Crawford, supra, 541 U.S.
at p. 59, fn. 9; People v. Cage, supra, 40 Cal.4th at p.
975, fn. 6; Evid. Code, § 1200.)
With this legal backdrop, we have set out a twostep inquiry to determine the admissibility of out-ofcourt statements in criminal cases: “The first step is a
traditional hearsay inquiry: Is the statement one made
out of court; is it offered to prove the truth of the facts
it asserts; and does it fall under a hearsay exception?
If a hearsay statement is being offered by the prosecution in a criminal case, and the Crawford limitations
of unavailability, as well as cross-examination or forfeiture, are not satisfied, a second analytical step is required. Admission of such a statement violates the
right to confrontation if the statement is testimonial
hearsay, as the high court defines that term.” (People v.
Sanchez (2016) 63 Cal.4th 665, 680; see People v. Blacksher (2011) 52 Cal.4th 769, 811 (Blacksher).)
In the context of an interrogation, as used in the
colloquial and not legal sense, “`it is in the final analysis the declarant’s statements, not the interrogator’s
questions, that the Confrontation Clause requires us
to evaluate.’ . . . An interrogator’s questions, unlike a
declarant’s answers, do not assert the truth of any matter.” (Michigan v. Bryant, supra, 562 U.S. at p. 367, fn.
11, quoting Davis v. Washington, supra, 547 U.S. at p.
822, fn. 1.) In that regard, the high court has also noted
that statements made unknowingly to an informant or

App. 27
statements between fellow prisoners are “clearly nontestimonial.” (Davis v. Washington, at p. 825, citing
Bourjaily v. United States (1987) 483 U.S. 171, 181-184,
Dutton v. Evans (1970) 400 U.S. 74, 87-89 (plur. opn. of
Stewart, J).)
In this case, the prosecution maintained that
statements by Smith, an undercover informant who
befriended defendant in federal detention and
prompted him to confess to Pamela’s murder, were not
hearsay in the first place because Smith’s statements
were not offered for the truth of the matter asserted.
For example, in response to defense counsel’s argument that it was Smith who “leads and cons, and . . .
directs” defendant to confess, the prosecution relied on
Smith’s statements to show that Smith did not
threaten or intimidate defendant into making incriminating statements. Smith’s statements were nonhearsay and admissible to put defendant’s “admissions on
the tapes into context, making the admissions intelligible for the jury. Statements providing context for
other admissible statements are not hearsay because
they are not offered for their truth.” (U.S. v. Tolliver
(7th Cir. 2006) 454 F.3d 660, 666, fn. omitted.)
Though conceding that the statements were originally admitted for this nonhearsay purpose, defendant
claims that the prosecution “repeatedly used Smith’s
statements for the truth of the matter by arguing that
the jury should find Smith’s taped statements to be
credible.” We reject this claim. Contrary to defendant’s
contention, by telling the jury, “[I]s there anything that
makes you suspect that Shawn Smith is not being

App. 28
truthful? No because you can hear every syllable that
comes out of his mouth,” the prosecution was not
vouching for Smith’s credibility. Impermissible vouching “ ‘ “involves an attempt to bolster a witness by reference to facts outside the record.” ’ ” (People v. Huggins
(2006) 38 Cal.4th 175, 206, italics added.)
Here, the prosecution urged the jury to focus on
the admissible evidence: “I am not asking you to take
Shawn Smith’s word for anything. I am not saying,
yeah, Shawn Smith says that James Fayed said this.
You can hear for yourself on the DVD, on the tape.”
Moreover, the issue was not the truth or falsity of
Smith’s statements—for instance, whether Smith actually knew a hitman named “Tony” who would kill
Moya if defendant wanted—but whether Smith had
made the statements. Out-of-court statements are inadmissible hearsay “only when they are offered for the
same purpose as testimony of a witness on the stand
and therefore depend for probative value on the credibility of the declarant.” (1 Witkin, Cal. Evidence (5th
ed. 2012) Hearsay, § 5, p. 788, italics added.) In the
strictest sense, Smith’s credibility was not at issue because his out-of-court statements were not offered for
their truth.
It bears emphasis that both sides thoroughly discussed Smith’s credibility (or lack thereof ) at trial.
When cross-examining Detective Abdul, defense counsel underscored Smith’s “extensive criminal history,”
and recounted each of Smith’s convictions. In closing
argument, defense counsel called Smith: “Drug addict.
Convicted. Felon in possession of firearms. Drunk

App. 29
driver. Hit and run driver.” In conclusion, defense counsel submitted: “[T]his man is no good. This man is evil.
And no good comes from evil.”
For its part, the prosecution was not “hiding” the
fact that Smith was a convicted drug dealer. Far from
vouching for Smith’s credibility, the prosecution conceded that Smith was not a trustworthy individual but
was instead, in the prosecution’s words, “a crook and a
criminal.” Nevertheless, as the prosecution emphasized, the recorded conversation spoke for itself: “It
wouldn’t matter who was in the cell next to [defendant]. Mr. Fayed, it is his words that are being used
against him.” Moreover, regarding any motive for
Smith to lie, the jury heard that while Detective Abdul
denied that he offered Smith any benefit in exchange
for recording his conversation with defendant, Detective Abdul admitted he was aware that Smith was released early after cooperating with authorities.
f.

Failure To Redact Recorded Conversation

In his pretrial motion in limine to exclude the entire recorded conversation with Smith, defendant alternatively requested that the trial court redact the
statement if admitted. He challenged the conversation’s references to hiring a hitman to kill Moya, certain “inflammatory” remarks Smith made, and
statements defendant made on other “extraneous matters,” such as defendant’s sex life, his meetings with
the National Security Agency, and his admitted forgeries of Pamela’s will and counterfeit $100 bills. The trial

App. 30
court rejected defendant’s request, noting that the entire recorded conversation had probative value: “Now
you can make your argument that it is an Oscar
award-winning performance and it was not worth anything, but I think the People are entitled to bring that,
in all of its glory, in front of the jury.”
On appeal, defendant argues that the trial court’s
ruling was erroneous and that the admitted evidence
was extraneous, inflammatory, and ultimately prejudicial to him. “A trial court’s decision to admit or exclude
evidence is reviewable for abuse of discretion.” (People
v. Vieira (2005) 35 Cal.4th 264, 292.)
As their recorded conversation revealed, defendant and Smith spent much time talking about defendant hiring a purported hitman Smith knew named
“Tony” to kill Moya. (See ante, at pp. 19-20.) Defendant
argues that the evidence of the uncharged conduct
about hiring a hitman to kill Moya was inadmissible
because he was never charged with a postoffense crime
against Moya. (See People v. Ewoldt (1994) 7 Cal.4th
380, 404-405.) Even if admitted for a proper purpose to
show defendant’s consciousness of guilt, he maintains
that the evidence was unduly prejudicial under Evidence Code section 352. The evidence, defendant adds,
was also “insubstantial and undependable” because it
was Smith who “encouraged and prodded” defendant
to hire a hitman Smith knew to kill Moya. Finally, this
evidence purportedly showing defendant’s consciousness of guilt as to Pamela’s murder was cumulative because the conversation already included defendant’s

App. 31
statements about killing Pamela. We reject this claim
on all points.
Here, the prosecution’s theory was that defendant
perpetrated Pamela’s murder by soliciting Moya (who
in turn enlisted Marquez and Simmons) to kill Pamela.
Thereafter, because of fears that Moya could turn on
defendant and become a witness against him, defendant sought to hire another hitman, Smith’s fictional
friend, “Tony,” to kill Moya; in that regard, Smith took
care to portray Tony as dying of cancer and therefore
not a risk to defendant after killing Moya. This evidence of defendant soliciting the murder of a potential
witness is highly probative of defendant’s guilt of Pamela’s murder. Contrary to defendant’s contention, this
evidence was not cumulative. Rather, it showed a common plan in that defendant sought to kill whoever
threatened him or his livelihood. (See People v. Ewoldt,
supra, 7 Cal.4th at p. 402.)
Though the record does not disclose how the two
first discussed the idea of defendant hiring a hitman
(see ante, at p. 18) and defendant appeared reluctant
at times when discussing the plans, defendant’s assertion that the evidence, therefore, was insubstantial or
undependable lacks merit. Although Smith may have
prodded or coaxed defendant to talk at certain points,
defendant’s initial hesitation gave way to extended diatribes of how Moya and others bungled previous attempts to kill Pamela and how defendant did not want
to be worried that Moya would turn on him. Moreover,
any hesitation could be attributed to defendant seeking Smith’s assurances that Tony would be more

App. 32
competent and effective than Moya. Defendant also admitted he would have killed Pamela himself but that
he would never “get away with it. Never.”
We also reject defendant’s challenge to the other
admitted evidence. Smith’s pejorative references to
Mexicans and women were brief and were not inflammatory; in any event, defendant fails to show how
Smith’s offensive statements—to which defendant
showed little reaction—would prejudice defendant.
Likewise, defendant fails to show how Smith’s bravado
and graphic details about hiring hitmen to commit various murders would prejudice defendant. Finally, any
extraneous details, such as the forging of the will, lent
credibility to defendant’s admissions because he
trusted Smith enough to reveal this information.
In sum, we conclude the trial court did not abuse
its discretion in denying defendant’s motion to redact
the statement and admitting it in its entirety.
2. Jury Misconduct
Before the close of the guilt phase and in the span
of one week, the trial court received several anonymous e-mails and voicemail messages alleging various
instances of jury misconduct. The trial judge later remarked she had “never experienced anything like this”
in her over 22 years’ experience on the bench.
The events were as follows: On May 9, 2011, after
getting a voicemail on the court’s telephone from an
unnamed juror about possible juror misconduct, the

App. 33
trial court questioned all jurors and alternate jurors,
but no one acknowledged leaving the voicemail. Two
days later, the court received a note from Juror No. 5
admitting that he left the voicemail. The note explained that he had observed Juror No. 11 and Alternate Jurors No. 1 and 4 discussing “at length” the
testimony of witness Edwin Rivera, who gave aid to
Pamela after she was stabbed. When questioned alone
by the court, Juror No. 5 explained he heard the three
talk about the graphic photos the prosecution showed
to witness Rivera and described how brave Rivera was,
but remarked how cruel defendant was and how his
actions led to his wife’s death. Juror No. 5 said that
what he heard would not affect his ability to be fair
and impartial.
When the trial court questioned Juror No. 11 and
Alternate Jurors No. 1 and 4 separately about this, all
three steadfastly denied discussing the case with other
jurors. The court subsequently questioned all jurors
and alternate jurors about whether they (or anyone
else) had formed any opinion about defendant’s guilt
or innocence. Alternate Juror No. 3 stated she heard
Juror No. 11 tell another juror, “Once I make up my
mind, I don’t change it”; according to Alternate Juror
No. 3, she thought that Juror No. 11 had “made up her
mind that the defendant is guilty.” The trial court excused Juror No. 11 and Alternate Juror No. 1; the court
refused to excuse Alternate Juror No. 4. The court
opined that Juror No. 5 was likely referring to Alternate Juror No. 3 and not Alternate Juror No. 4 as having the conversation with Juror No. 11. After a random

App. 34
drawing of the remaining alternate jurors, Alternate
Juror No. 4 was chosen to replace excused Juror No.
11.
Next, on May 12, 2011, defense counsel informed
the court he received an anonymous e-mail sent to his
law firm e-mail address the night before. The e-mail
expressed concern that defendant get a fair trial and
urged the court to remind jurors not to express opinions or search the Internet about the case. The trial
court told the jurors that whoever had sent the e-mail
should contact the bailiff; however, no juror approached the bailiff. That same day, the court learned
of a voicemail left by an anonymous female caller who
explained that jurors, specifically mentioning Juror
No. 6 and Juror No. 9, were continuing to look things
up on the Internet. Also, Juror No. 3 later wrote a note
to the court explaining there was an “air of suspicion
and doubt among the jurors as we near deliberations”
because of the anonymous e-mail. Because the
voicemail appeared to be from a female, the trial court
first questioned separately the remaining female jurors on the panel whether anyone had left the
voicemail or had sent the e-mail to counsel. The court
next questioned the male jurors only if they had sent
the e-mail to defense counsel.
The trial court summarized the state of the record:
“[E]very single juror and alternate juror has denied
sending the e-mail to Mr. Werksman’s office, has denied leaving the voicemail on the court’s telephone.” It
further noted that every juror and alternate juror indicated they had not heard any juror forming or

App. 35
expressing opinions regarding the case. The court concluded there was not sufficient evidence to conclude
that any of the jurors or alternate jurors has engaged
in misconduct. The court added it was “satisfied that
these jurors are prepared to live up to the oath that
they all took initially and that they’ve reacknowledged
today and that we’re going to move forward.”
Finally, on May 17, 2011, defense counsel brought
in a letter he received, which enclosed a campaign brochure and cover letter from Prosecutor Alan Jackson,
running for Los Angeles County District Attorney. The
letter raised the concern that several jurors had received these materials. After first requesting the court
ask the sheriff ’s department to launch a formal investigation into these attempts to undermine the judicial
process, Jackson agreed with defense counsel that the
trial court should ask the jury about the mailer. After
no juror replied that they had seen the mailer, the trial
court explained that “there is someone out there that’s
trying to cause trouble” and admonished the jury to be
“extremely vigilant” and to let the court know if they
receive any information or correspondence.
In summary, after its investigation, the trial court
concluded there was one instance of jury misconduct,
i.e., the reported conversation between Juror No. 11
and Alternate Juror No. 1 (and presumably Alternate
Juror No. 3), in which Juror No. 11 expressed her opinion of defendant’s guilt. The trial court excused Juror
No. 11 and Alternate Juror No. 1, and defendant does
not challenge the trial court’s discharge of either juror.
Nor does he repeat his claim that the court should have

App. 36
also excused Alternate Juror No. 4. Rather, defendant
asserts that the misconduct raised the presumption of
prejudice and that the trial court’s investigation into
the misconduct was “incomplete.” He suggests the inadequate investigation “is, itself, enough to warrant reversal.” His claim in essence is that the presumption of
prejudice was not rebutted. We reject defendant’s
claims as contrary to the facts and relevant law.
A criminal defendant is constitutionally entitled
to an unbiased, impartial jury. (People v. Weatherton
(2014) 59 Cal.4th 589, 598.) “Jurors must be admonished not to `form or express any opinion about the
case until the cause is finally submitted to them.’
(§ 1122, subd. (b).) Prejudgment ‘constitute[s] serious
misconduct’ [citation], raising a presumption of prejudice. The presumption is rebutted ‘if the entire record
. . . indicates there is no reasonable probability of prejudice, i.e., no substantial likelihood that one or more
jurors were actually biased against the defendant.’ ”
(Ibid.)
“Whether and how to investigate an allegation of
juror misconduct falls within the court’s discretion.
[Citation.] Although a court should exercise caution to
avoid threatening the sanctity of jury deliberations, it
must hold a hearing when it learns of allegations
which, if true, would constitute good cause for a juror’s
discharge. [Citation.] Failure to do so may be an abuse
of discretion.” (People v. Allen and Johnson (2011) 53
Cal.4th 60, 69-70; see People v. Espinoza (1992) 3
Cal.4th 806, 822 [inquiry should be sufficient “ ‘ “to determine if the juror should be discharged and whether

App. 37
the impartiality of other jurors had been affected” ’ ”].)
Grounds for investigating or discharging a juror may
be based on the juror’s statements or conduct, including events which occur during jury deliberations and
are reported by fellow jurors. (People v. Lomax (2010)
49 Cal.4th 530, 588.)
In this case, the alleged conversation took place
before the jury deliberations began in the guilt phase.
Rather than immediately question all the jurors about
the voicemail, the trial court preferred to take what it
described as a “conservative” approach to see if someone would acknowledge the call. Notwithstanding the
court’s initial reticence, once Juror No. 5 revealed he
had left the voicemail message, the trial court
promptly investigated the allegations of juror misconduct. Far from perfunctory, the trial court’s questioning
was thorough and careful, focusing on the nature and
scope of the reported misconduct.
We conclude that any presumption of prejudice
was rebutted; in other words, there was no substantial
likelihood that any sitting or alternate jurors were actually biased against defendant. (People v. Weatherton,
supra, 59 Cal.4th at p. 598.) In addition to excusing the
two jurors, the trial court questioned the remaining jurors and alternate jurors, who all replied they were
able to fulfill their duties as jurors and agreed not to
form or express any opinion about the case until the
matter was submitted.
Nevertheless, defendant asserts that Juror No. 5
“lied” about leaving the voicemail or observing

App. 38
misconduct when questioned with the jury as a whole.
Juror No. 5 later explained he felt embarrassed about
raising his hand in front of everyone; he instead wrote
a note and handed it to the bailiff on his way out of the
courtroom. Except for his initial hesitation, Juror No.
5 was forthcoming and detailed in his account. Alternate Juror No. 3 presumably felt the same feelings of
embarrassment when questioned in a group, but also
gave a detailed account of the conversation when questioned individually. Indeed, after the questioning
ended, defense counsel concluded that Juror No. 5 was
“credible and honest” and likewise characterized Alternate Juror No. 3 as “honest.”
With respect to the remaining alleged incidents of
juror misconduct—as reported in the anonymous
voicemail from a female juror left on the court’s telephone, the anonymous e-mail sent to defense counsel,
and the letter with the campaign mailer of prosecutor
Jackson sent to defense counsel’s law firm—we conclude the trial court’s inquiry was sufficient and agree
with its conclusion that these allegations of juror misconduct were not credible. For the same reasons, we
reject defendant’s claim that the trial court abused its
discretion in denying defendant’s motion for a new
trial based on jury misconduct (§ 1181, subd. 3). (See
People v. Williams (1988) 45 Cal.3d 1268, 1318 [“`The
determination of a motion for a new trial rests so completely within the court’s discretion that its action will
not be disturbed unless a manifest and unmistakable
abuse of discretion clearly appears’ ”]; see also People v.
Dykes (2009) 46 Cal.4th 731, 809 [regarding motion for

App. 39
new trial based on jury misconduct “reviewing court
should accept the trial court’s factual findings and
credibility determinations if they are supported by
substantial evidence”].)
On appeal, defendant raises no new arguments regarding any alleged misconduct, except to note that
the court’s assumption that defendant was responsible
for the misconduct was “sheer speculation.” Because
the trial court found no such misconduct, it is, of
course, unnecessary for us to dispel whether defendant
was the source.
3. Instructional Errors
a. Third Party Culpability
Before trial, defendant indicated he intended to
call his sister, Mary Mercedes, as a witness to question
her if she had attempted to solicit their sister Patty
Taboga’s husband, Kurt, to kill Pamela. Defendant’s
theory was that it was Mercedes and not defendant
who solicited Pamela’s murder. Outside the presence of
the jury, Mercedes invoked her Fifth Amendment right
not to incriminate herself, after which the court declared her unavailable as a witness. Based on Mercedes’s unavailability, the trial court permitted
defendant to question Taboga about her conversation
with Mercedes.
Appearing under a defense subpoena, Taboga testified that Mercedes had called her sometime around
May 2008, several months before Pamela was killed.

App. 40
Mercedes asked Taboga if Taboga’s husband, a police
officer in Wyoming, would kill Pamela because “`money
was running out’“ due to defendant and Pamela’s divorce. Taboga was shocked and told Mercedes that she
had “lost her mind” and asked how Mercedes could call
her with such a “horrible request.” Taboga testified
that after speaking for some time, Mercedes said she
had a “temporary loss of sanity” and asked that Taboga
not tell anyone. Taboga did not immediately tell defendant, Kurt Taboga, or anyone else, about the telephone conversation.
Several years later, on or about March 9, 2011,
while defendant was in custody awaiting trial for Pamela’s murder, Taboga wrote him a letter describing her
conversation with Mercedes. Only then did defense
counsel purportedly first become aware of this information. In explaining why she came forward just 32
days before testifying, Taboga said it was “the first time
anyone’s asked me anything.” Taboga did not believe
she had important information that “could free” defendant but felt “all the facts need to get out.” On crossexamination, Taboga explained that after her conversation with Mercedes, she did not tell Pamela she was
in grave danger because she believed Mercedes “wasn’t
going to do anything and she just lost her mind temporarily.” She also revealed she had not spoken to Mercedes since 2010 after they had a heated argument.
After Taboga testified, defendant requested the
court give a special instruction on third party culpability to highlight evidence suggesting that “other persons, among them Mary Mercedes, committed the

App. 41
crimes charged” and that defendant “is entitled to an
acquittal if the evidence raises a reasonable doubt in
your mind as to the defendant’s guilt.” Although the
prosecution agreed that Taboga’s testimony was admissible, it argued the proposed instruction was improper because it not only highlighted the significance
of the evidence for the jury, but the instruction also
suggested that if the jury believed Taboga, there is reasonable doubt as to defendant’s guilt; in short, the instruction “almost directs the verdict to not guilty or an
acquittal.” After defense counsel orally suggested possible revisions to their special instruction, the prosecution countered that no such instruction was required
because CALJIC No. 2.90 already explains that the
prosecution has the burden of proof and that it was up
to the jury to determine what significance and weight
to give to any evidence.
The trial court agreed with the prosecution and refused to give the jury an instruction on third party culpability in any form. In doing so, the court noted that
there was no such standard instruction in either
CALCRIM or CALJIC. Though the court made clear
that defendant could make the argument that Mercedes and not defendant solicited Pamela’s murder, it
pointed out that the jury “didn’t hear any evidence that
Mary Mercedes induced Jose Moya at all to commit
this crime. There was no evidence of that.” Defendant,
however, countered that records showed that Mercedes
had called Moya shortly before Pamela was killed and
that the rental car used by Moya, Simmons, and

App. 42
Marques to allegedly commit the murder was rented
for and used by Mercedes’s son.
On appeal, defendant argues there was sufficient
evidence to support a third party culpability instruction. He maintains that the trial court erroneously refused to give the instruction because it was not
enumerated in CALJIC or CALCRIM. Defendant
points out that the parties had stipulated that third
party culpability evidence was admissible.
As noted, the trial court did admit defendant’s evidence of third party culpability. Based on this evidence, defense counsel in closing argument
emphasized Patty Taboga’s “credible” testimony that
Mercedes had asked if Taboga’s husband would kill
Pamela. Counsel told the jury: “Now you heard Mary
had motive. Mary had opportunity. Mary had intent.”
She was “totally embedded and totally vested in the
success or failure of Goldfinger.”
Even though the trial court ruled the evidence was
admissible, it was not required to give defendant’s proposed special instruction on third party culpability.
(See People v. Hartsch (2010) 49 Cal.4th 472, 500 [pinpoint instruction not required if argumentative, duplicative, or not supported by substantial evidence].) As
the trial court concluded, defendant’s special instruction as originally drafted was argumentative and improper. (People v. Wright (1988) 45 Cal.3d 1126, 1135
[argumentative instruction invited jury to draw inferences favorable to defendant from specified evidence
on disputed question of fact].) The court’s reasoning for

App. 43
refusing the instruction, contrary to defendant’s suggestion, was not based primarily on the lack of a standard instruction in CALJIC or CALCRIM. Finally,
“because the reasonable doubt instructions give defendants ample opportunity to impress upon the jury
that evidence of another party’s liability must be considered in weighing whether the prosecution has met
its burden of proof,” the failure to instruct on third
party culpability was not prejudicial. (People v.
Hartsch, supra, 49 Cal.4th at p. 504)
b. Termination of Liability of Aider and Abettor
At defendant’s request and over the prosecution’s
objection, the trial court instructed the jury on CALJIC
No. 3.03 (“Termination of Liability of Aider and Abettor”). The instruction provided, in part, that to withdraw from participation of a crime and avoid liability
as an aider and abettor, a defendant “must do everything in his power to prevent” the crime’s commission.
In closing argument, defense counsel pointed out
that before Pamela was murdered, defendant had repeatedly demanded Moya give back the $25,000 defendant had already paid him after Moya missed four
previous opportunities to kill Pamela, i.e., “four clean
hits” defendant admitted that he had “set up.” The
prosecution countered that under CALJIC No. 3.03, defendant “has to do everything in his power, everything
in his power, everything in his power to prevent the
commission of the murder. So let’s look at what Mr.

App. 44
Fayed did to prevent the murder. Nothing. He didn’t do
anything. Not a darn thing.”
On appeal, defendant argues that CALJIC No.
3.03 erroneously stated that a defendant must do “everything in his power” to withdraw as an aider and abettor in the crime, rather than requiring a defendant to
do what was “practicable” or “reasonable,” as suggested
in the corresponding CALCRIM instruction. (See
CALCRIM No. 401 [defendant must do “everything
reasonably within his or her power to prevent the crime
from being committed” (italics added)].) Defendant
points out that in 2005, the Judicial Council endorsed
CALCRIM and urged courts to use CALCRIM instead
of CALJIC. The Attorney General counters that defendant forfeited the argument by failing to object that
CALJIC No. 3.03 misstated the law.
Even assuming that defendant did not forfeit the
claim that CALJIC No. 3.03 misstates the law, his
claim lacks merit. In 2008, three years after the Judicial Council’s adoption and endorsement of CALCRIM,
this court explained that CALJIC No. 3.03 “is a correct
statement of the law.” (People v. Richardson (2008) 43
Cal.4th 959, 1022; see People v. Lucas (2014) 60 Cal.4th
153, 294.) Further, even under CALCRIM No. 401 (defendant must do “everything reasonably within his . . .
power”), defendant does not assert, nor is there anything in the record to suggest, that defendant did anything—apart from demanding his money back from
Moya—to stop the commission of Pamela’s murder.
Thus, his withdrawal claim would fail under either
standard. Even assuming instructional error,

App. 45
defendant fails to show prejudice. (People v. Mora and
Rangel (2018) 5 Cal.5th 442, 495 [instructional error is
harmless when, beyond a reasonable doubt, it did not
contribute to the verdict].)
On a related point, defendant underscores that
while the trial court used this CALJIC instruction for
aiding and abetting, it used CALCRIM No. 521 for first
degree murder. He argues that the intermingling of
CALJIC and CALCRIM instructions on this issue was
improper. We conclude defendant forfeited this claim
by failing to object on this ground and that the claim
in any event lacks merit. (People v. Beltran (2013) 56
Cal.4th 935, 944, fn. 6 [“trial court may modify any proposed instruction to meet the needs of a specific trial,
so long as the instruction given properly states the law
and does not create confusion”].)
c. Withdrawal from Conspiracy
On the charge of conspiracy to commit murder, the
trial court instructed the jury on seven overt acts allegedly committed for the purpose of furthering the object of Pamela’s murder, including defendant’s act of
paying Moya $25,000 to arrange the murder of Pamela.
At defendant’s request, the court instructed the jury on
CALJIC No. 6.20 (Withdrawal from Conspiracy), which
provides in pertinent part: “In order to effectively withdraw from a conspiracy, there must be an affirmative
and good-faith rejection or repudiation of the conspiracy which must be communicated to the other conspirators of whom he has knowledge. [¶] If a member

App. 46
of a conspiracy has effectively withdrawn from the conspiracy, he is not thereafter liable for any act of the coconspirators committed after his withdrawal from the
conspiracy, but he is not relieved of responsibility for
the acts of his co-conspirators committed while he was
a member.”
On appeal, relying on People v. Russo (2001) 25
Cal.4th 1124 (Russo), defendant argues that the trial
court erroneously failed to instruct the jury that it had
to unanimously decide which specific overt act was
committed before defendant could no longer withdraw
from the conspiracy.
As relevant here, a “jury need not agree on a specific overt act as long as it unanimously finds beyond a
reasonable doubt that some conspirator committed an
overt act in furtherance of the conspiracy.” (Russo, supra, 25 Cal.4th at p. 1128.) In Russo, we raised the possibility that “some form of a unanimity instruction”
may be necessary if there was evidence that a defendant had withdrawn from the conspiracy. (Id. at p. 1136,
fn. 2.) In that instance, “the court might have to require
the jury to agree an overt act was committed before the
withdrawal.” (Ibid.) We declined to address the question because no such circumstance existed in the case.
(Ibid.)
Defendant’s reliance on Russo is misplaced. There
is no dispute that defendant’s alleged withdrawal from
the conspiracy occurred after the first overt act took
place. By demanding that Moya return the $25,000 defendant had already paid him to kill Pamela—which

App. 47
defendant asserts supports his claim that he withdrew
from the conspiracy—defendant effectively concedes
that he committed the first overt act, i.e., payment to
Moya in furtherance of the conspiracy to commit murder. “[O]nce an overt act has been committed in furtherance of the conspiracy the crime of conspiracy has
been completed and no subsequent action by the conspirator can change that.” (People v. Sconce (1991) 228
Cal.App.3d 693, 702.);
d. CALJIC No. 2.23
After the jury heard the recorded conversation between defendant and Smith, defendant asked the trial
court to instruct the jury on CALJIC No. 2.23 with respect to Smith. This instruction, which concerns the
believability of a witness convicted of a felony, provides
in part that the jury may consider “[t]he fact that a
witness has been convicted of a felony” as “one of the
circumstances . . . in weighing the testimony of that
witness.” The trial court told defense counsel he could
still make his argument but refused to give CALJIC
No. 2.23 because Smith “did not testify as a witness.”
Defendant requested the same instruction at the penalty phase, and the court again refused. On appeal, defendant argues that the trial court applied an unduly
narrow definition of “witness” and that the prosecution
effectively treated Smith as a witness because it purportedly sought to bolster and vouch for Smith’s credibility.

App. 48
As previously discussed (see ante, at p. 24), the
prosecution did not improperly vouch for Smith’s credibility, and we reject defendant’s claim in this regard.
Resolution of this issue, however, does not depend on
the meaning of a “witness” and whether that term refers only to individuals who testify at trial. As a general matter, declarants whose hearsay statements are
admitted but do not testify at trial may be subject to
impeachment. (See Evid. Code, § 1202 [“Any other evidence offered to attack or support the credibility of the
declarant is admissible if it would have been admissible had the declarant been a witness at the hearing”].)
Though this court has not addressed whether Evidence
Code section 1202 permits admission of prior felony
convictions to impeach the hearsay statements of a
nontestifying declarant, we noted that lower courts
have held that such evidence “falls within the purview
of that provision.” (People v. Brooks (2017) 3 Cal.5th 1,
52 [citing cases].)
This line of cases does not help defendant, in any
event. A declarant’s credibility is “ ‘important only if
the prosecution was using his statement to prove the
truth of its contents—in other words, his credibility
mattered only if his statement was in fact inadmissible
hearsay.’ ” (People v. Hopson (2017) 3 Cal.5th 424, 434;
see People v. Curl (2009) 46 Cal.4th 339, 361-362.) As
we have explained, Smith’s statements were clearly
nonhearsay; they were not offered for the truth of the
matter stated. Moreover, we cannot see how defendant
could have been prejudiced without this jury instruction—both defense counsel and the prosecution told

App. 49
the jury that Smith was a convicted felon. (See People
v. Smith (2018) 4 Cal.5th 1134, 1171.)
e. CALJIC No. 2.06
Over defense counsel’s objection, the trial court instructed the jury with CALJIC No. 2.06, which permitted the jury to consider whether defendant attempted
to suppress evidence, i.e., wanting to kill Moya as a witness, as “a circumstance tending to show consciousness
of guilt.” In closing argument, the prosecution argued
that defendant wanted to kill Moya to “tie up those
loose ends” and “to avoid sitting in this chair for the
murder of his wife.” On appeal, defendant argues that
CALJIC No. 2.06 was unnecessary and prejudicial to
the defense because the trial court already instructed
the jury on circumstantial evidence. (CALJIC Nos.
2.00, 2.02.) We have repeatedly rejected the claim that
CALJIC No. 2.06 is repetitive of other jury instructions
on circumstantial evidence. (People v. Friend (2009) 47
Cal.4th 1, 52-53.) We do so again here.
4. Violations of Defendant’s Fourth Amendment
Right To Be Free from Search and Seizure
Defendant made various pretrial motions to suppress evidence seized during several searches. He unsuccessfully argued that his Fourth Amendment right
was violated based on (1) the warrantless search and
seizure of his cell phone, (2) the issuance of a search
warrant based on an intercepted telephone conversation between defendant’s investigator and Moya, and

App. 50
(3) the issuance of a search warrant of defendant’s
property (including his laptop computer) without probable cause. Contending that the trial court erred in refusing to suppress the evidence, defendant repeats
those claims on appeal. We discuss each in turn.
“The Fourth Amendment to the federal Constitution prohibits unreasonable searches and seizures.”
(People v. Bryant, Smith and Wheeler (2014) 60 Cal.4th
335, 365.) A warrantless search is per se unreasonable.
(Schneckloth v. Bustamonte (1973) 412 U.S. 218, 219.)
“Nevertheless, because the ultimate touchstone of the
Fourth Amendment is ‘reasonableness,’ the warrant
requirement is subject to certain exceptions.”
(Brigham City v. Stuart (2006) 547 U.S. 398, 403.) One
such exception, as relevant here, is a search incident to
arrest. (United States v. Robinson (1973) 414 U.S. 218,
224.) Another exception, also relevant here, is the inevitable discovery exception. (Nix v. Williams (1984)
467 U.S. 431, 440-450; People v. Robles (2000) 23
Cal.4th 789, 800-801.)
Section 1538.5 provides a defendant the “sole and
exclusive” means before trial to suppress evidence obtained as a result of a search or seizure. (§ 1538.5,
subd. (m); see People v. Williams (1999) 20 Cal.4th 119,
127.) “[D]efendants have the burden of (1) asserting
the search or seizure was without a warrant, and (2)
explaining why it was unreasonable under the circumstances.” (Williams, at p. 129.) However, the burden is
on the prosecution to prove evidence seized during a
warrantless search falls within a recognized exception.
(See People v. Willis (2002) 28 Cal.4th 22, 36; Williams,

App. 51
at p. 136.) Thereafter, a defendant can respond by
pointing out any inadequacies in that justification for
warrantless search. (Williams, at p. 136.)
a. Patdown Search of Defendant and Search
Incident to Arrest for Data on the Cell
Phone
On July 29, 2008, the day after Pamela was killed,
defendant called the Ventura County Sheriff ’s Office to
request a welfare check on his nine-year-old daughter,
J.F., who lived with Pamela in Camarillo. Earlier that
morning, an LAPD detective had gone to the Camarillo
residence to tell Pamela’s daughters of their mother’s
death. After receiving word that defendant was heading over to the Ventura County Sheriff ’s Office with his
attorneys, the detective met defendant there. He told
defendant that he was under arrest for Pamela’s murder and that he would be transported to the LAPD
West Los Angeles Station. Officers searched defendant
incident to arrest and took his Motorola cell phone,
which they placed in the front seat of the vehicle. They
handcuffed defendant and placed him in the backseat.
The LAPD detective drove defendant some 45
miles from Camarillo to the West Los Angeles Police
Station. At the station, defendant invoked his right to
remain silent and refused to speak to investigators. An
LAPD officer testified that he obtained and possessed
defendant’s cell phone for an hour and that he “manipulated” the phone to find the number associated with
the phone before handing the cell phone to an FBI

App. 52
agent. Defendant was released two hours later without
his Motorola cell phone. Officers returned the cell
phone the following Friday when they were serving a
search warrant at defendant’s home.
On October 9, 2009, in addition to other defense
motions discussed below, defendant filed a pretrial motion under section 1538.5 to suppress, arguing the evidence was seized from the illegal search of his
Motorola cell phone on July 29, 2008. The pretrial
hearing on the suppression motion took place on June
10, 2010. The trial court agreed with the prosecution
that the only information officers took from that cell
phone was the number itself. With this cell phone number, the LAPD in conjunction with the FBI Fugitive
Task Force, sought and obtained a court order authorizing the use and installation of wiretap devices for the
“Subject Telephone Number.”
After hearing testimony from LAPD detectives,
the trial court concluded the search of the cell phone
was “illegal,” even if it was incident to a valid arrest.
However, it agreed with the prosecution that because
there were different sources from which to discover defendant’s cell phone number, including Pamela’s contacts in her cell phone, the evidence was admissible
based on the inevitable discovery doctrine.
On appeal, defendant makes a number of corollary
claims challenging the search and his arrest on July
29, 2008.7 Ultimately, the Attorney General concedes
7

For example, he contends that police investigative reports
actually classified defendant as being detained, not arrested, and

App. 53
that the trial court was likely correct that the search
of defendant’s Motorola cell phone was unlawful. (See
Riley v. California (2014) 573 U.S. 373, 387 [“[o]nce an
officer has secured a phone and eliminated any potential physical threats . . . data on the phone can endanger no one”].) Nevertheless, as the Attorney General
underscores, even if the search or arrest, or both, were
unlawful, the evidence may nevertheless be admissible
under the exception of inevitable discovery. (See Nix v.
Williams, supra, 467 U.S. 431; People v. Robles, supra,
23 Cal.4th at pp. 800-801.)
“Under the inevitable discovery doctrine, illegally
seized evidence may be used where it would have been
discovered by the police through lawful means. As the
United States Supreme Court has explained, the doctrine `is in reality an extrapolation from the independent source doctrine: Since the tainted evidence would
be admissible if in fact discovered through an independent source, it should be admissible if it inevitably
would have been discovered.’ (Murray v. United States
(1988) 487 U.S. 533, 539 [108 S.Ct. 2529, 2534, 101
L.Ed.2d 472].) The purpose of the inevitable discovery
rule is to prevent the setting aside of convictions that
would have been obtained without police misconduct.”
(People v. Robles, supra, 23 Cal.4th at p. 800; see People
v. Coffman and Marlow (2004) 34 Cal.4th 1, 62 [rule
that authorities conducted an unlawful patdown at the Ventura
County Sheriff ’s Station because there was no indication that defendant was armed and dangerous. It is unnecessary to discuss
these claims relating specifically to the underlying search and seizure because we conclude that the inevitable discovery doctrine
applies.

App. 54
ensures prosecution “is not placed in a better position”
absent the illegality but “does not require it be put in
a worse one”].)
The inevitable discovery rule “applies only to evidence obtained as the indirect product, or fruit, of other
evidence illegally seized.” (Hernandez v. Superior
Court (1980) 110 Cal.App.3d 355, 361.) The prosecution must prove “by a preponderance of the evidence
that the information inevitably would have been discovered by lawful means.” (People v. Coffman and Marlow, supra, 34 Cal.4th at p. 62; People v. Superior Court
(Tunch) (1978) 80 Cal.App.3d 665, 681 [“The test is not
one of certainty, but rather of a reasonably strong probability”].) “As this is essentially a question of fact, we
must uphold the trial court’s determination if supported by substantial evidence.” (People v. Carpenter
(1999) 21 Cal.4th 1016, 1040.)
At the suppression hearing, the prosecution presented evidence that shortly after police recovered
Pamela’s cell phone at the crime scene, they accessed
the phone’s list of contacts, which included the cell
phone number for defendant. The police also “obtained
independently” defendant’s cell phone number from a
search of Moya’s cell phone. Moreover, the search of
Goldfinger’s office led to defendant’s cell phone number. In light of these other sources leading to the discovery of defendant’s cell phone number, we conclude
that substantial evidence supports the trial court’s
finding that the inevitable discovery rule applied and
that the evidence of defendant’s cell phone number was

App. 55
admissible. (See People v. Carpenter, supra, 21 Cal.4th
at p. 1040.)
b. Motion to Quash Search Warrant Dated
July 31, 2008
On July 29, 2008, Detective Spear sought and obtained a warrant to search the premises at the Happy
Camp Ranch. In the supporting affidavit, Detective
Spear stated that his review of the video surveillance
of the parking lot where Pamela was killed showed the
alleged suspects fleeing in a red SUV rented by Goldfinger. The affidavit further explained that a suspect
had left footprints at the crime scene, which would
have been transferred to the vehicle. Detective Spear
averred he believed the vehicle was at defendant’s residence.
Detectives executed the search warrant on July
29, and found two locked safes that defendant refused
to open. On July 30, after locating the red SUV at the
Avis Rent A Car location, detectives searched and
gathered evidence from the vehicle. Defendant did not
seek to suppress evidence seized on either July 29 or
July 30. On July 31, Detective Spear sought another
warrant to search the premises at the Happy Camp
Ranch. The supporting affidavit “incorporated . . . the
entirety of ” the July 29 search warrant. It also included an “amendment,” adding “personal computers,
laptop computers, hard drives, electronic equipment
used to store files or written documentation, thumb
drives, locked safes, secured lock boxes, authorization

App. 56
of forced entry into locked safes, financial records, soil
samples from outside the residence,” among the items
to be collected. The amendment also sought “samples
of saliva from James Fayed for comparison of evidence
collected during the investigation.”
To justify the search for these additional items, the
amendment explained that during an interview with
Pamela’s adult daughter, Desiree, she revealed that
“her mother kept records and documentation that incriminates James Fayed on her personal computer. Desiree [ ] advised that the computers that her mother
used are in her father’s residence and contain valuable
information.” Detectives obtained a search warrant on
July 31, which was executed on that day. During the
search, authorities seized several laptop computers,
over $1 million worth of gold bars, and numerous computer thumb drives. They also found $24,980 in cash
wrapped in plastic in defendant’s dresser drawer and
another $36,000 in cash in a locked metal briefcase located in defendant’s closet.
Defendant moved to quash the warrant, and suppress evidence seized during the search. He alleged
that there was no probable cause to issue the warrant
and that the warrant was insufficient on its face. For
instance, Desiree’s statement that there was incriminating evidence on Pamela’s personal computer was
conclusory and “not supported by a single fact in the
affidavit.” Also, the warrant was overbroad because
while the incriminating evidence was purportedly on
Pamela’s laptop computer, the list of search items effectively allowed officers to “search for anything—

App. 57
anywhere, with no specificity.” Further, because detectives had located and searched the red SUV the day
before, there was no longer a need to search the premises for the vehicle. Finally, the affidavit on the second
warrant contained no facts to support that new evidence had materialized after the first search; thus, the
information in the initial affidavit was too “stale” to
justify the second search.
The trial court denied defendant’s motion to
quash. It found probable cause for the issuance of the
warrant. The court further found that, even if there
was no probable cause, the officers acted in good faith
by obtaining a warrant signed by a magistrate before
conducting the search. For reasons that follow, we conclude that the trial court did not err in denying defendant’s motion to quash.
When reviewing issues relating to the suppression
of evidence derived from governmental searches and
seizures, we defer to the court’s factual findings, express or implied, where supported by substantial evidence. (People v. Macabeo (2016) 1 Cal.5th 1206, 1212.)
To determine whether, based on the facts so found, a
search or seizure was reasonable under the Fourth
Amendment, we exercise our independent judgment.
(Macabeo, at p. 1212.) We conclude that based on the
totality of the circumstances, the trial court correctly
found probable cause for the issuance of the July 31
search warrant. (See Illinois v. Gates (1983) 462 U.S.
213, 230.)

App. 58
First, defendant’s challenge to Desiree’s statement
on the ground it was conclusory and lacking factual
support to justify probable cause is meritless. As the
trial court found, Desiree was presumptively reliable
as a “citizen informant.” (See People v. Hill (1974) 12
Cal.3d 731, 757.) Given her relationship to Pamela and
defendant, which was clearly set out in the affidavit,
Desiree would naturally be knowledgeable about Pamela’s activities and would be aware that Pamela and
defendant were going through a contentious divorce.
As the affidavit explained, Desiree told investigators that her mother kept documentation “on her personal computer” and she stated that “computers that
her mother used are in her father’s residence.”
Whether Pamela used one or several computers in defendant’s residence, it was reasonable to describe the
items in “generic terms,” thus subjecting them to a
“blanket seizure.” (U.S. v. Lacy (9th Cir. 1997) 119 F.3d
742, 746; see U.S. v. Kimbrough (5th Cir. 1995) 69 F.3d
723, 727 [“generic language is permissible if it particularizes the types of items to be seized”].) Contrary to
defendant’s claim, the search warrant was not overbroad because it listed “personal computers” and “laptop computers” as search items and did not limit it
specifically to Pamela’s laptop computer. Authorities
had no way of knowing which computer, or how many
for that matter, belonged to Pamela, or which ones she
may have used. It was acceptable for the search warrant to include such generic terms to describe the
items. (U.S. v. Lacy, at p. 746.)

App. 59
Further, defendant’s related claim that the July
warrant was “moot” because the red SUV was already
located and searched is likewise meritless. After locating the SUV, there was arguably more, not less, reason
to search defendant’s residence because evidence began tying defendant to the murder, i.e., the recovered
vehicle connected to the murder had been rented by
defendant’s company, Goldfinger. The supporting affidavit expressly noted that authorities had collected
physical evidence from it. Armed with new physical evidence from the SUV, authorities sought soil samples
outside the residence and samples of defendant’s saliva “for a comparison of evidence collected during the
investigation.” Though just beginning, the investigation was intensifying as each day passed.
Moreover, the July 31 warrant was not based
solely on obtaining evidence related to the vehicle used
in the murder. The warrant also sought Pamela’s computers that Desiree averred were in defendant’s residence. It further sought to recover evidence from two
locked safes that defendant refused to open during the
July 29 search. Rather than seizing the safes first and
asking for a warrant later, detectives followed proper
procedure by first obtaining a magistrate’s determination of probable cause.
Similarly, defendant’s argument that the information in the initial affidavit became stale because authorities failed to seize items during the first search is
without legal or factual support. (See People v. Bryant,
Smith and Wheeler, supra, 60 Cal.4th at p. 370
[whether warrant establishes “it is substantially

App. 60
probable the evidence sought will still be at the location at the time of the search”].) In this case, Pamela
was killed on July 28, 2008. The following day, detectives obtained the first warrant to search the premises
on defendant’s Moorpark ranch. The day after that, on
July 30, detectives located the red SUV, and recovered
physical evidence from the vehicle. In the brief threeday period between the crime and the second search on
July 31, it is substantially probable that evidence
would still be located at defendant’s premises. (Ibid.)
Based on the foregoing, we reject defendant’s
claim that the trial court erroneously denied defendant’s motion to quash the July 31 search warrant.
c. Admission of Evidence Derived from Recording of Defense Investigator’s Questioning of Witness
Early in the murder investigation, LAPD detectives applied for court-authorized wiretaps targeting
the residential “hardline” (or landline) telephone and
two cell phones used by defendant’s sister, Mary Mercedes, and a residential hardline telephone used by
codefendant Jose Moya. A magistrate approved two
wiretap applications on August 15, 2008 and August
22, 2008, respectively, and granted one extension on
September 13, 2008.
As statutorily required, authorities provided the
court several six-day reports containing summaries of
some intercepted calls and updates on the investigation. On August 29, 2008, authorities intercepted a call

App. 61
Moya made from his hardline telephone to defense investigator Glen LaPalme. During the 19-minute telephone conversation, the two went over telephone
records detailing calls that Moya had made and received on his cell phone. Moya had previously told detectives he reported the cell phone lost or stolen the
day after Pamela’s murder. When Moya admitted to
LaPalme he could not remember exactly when he lost
the cell phone, LaPalme suggested: “Now if you lost, I
mean if you lost the phone, like, over that weekend before all this shit hit the fan then at least we would,
maybe it was somebody else that had the phone, you
know what I’m saying?”
Later in the call, LaPalme told Moya he had “no
doubt in my mind that [the LAPD] have the vehicle,
the SUV, and they’re probably doing all sorts of forensic examinations for hair, skin, all that crap, and of
course there were people who were using it so you’re
going to find everybody’s hair and skin there.” Moya
replied, “Except for Pam.” When LaPalme indicated he
did not hear what Moya had said, Moya told him: “No,
except for Pam’s, it wouldn’t be in there, it shouldn’t be
in there.”
On or about September 10, 2008, Detective Abdul
sought a warrant to search Moya’s residence at the
Happy Camp Ranch in Moorpark. In the supporting affidavit, Detective Abdul recounted the intercepted call
on August 29 and opined that Moya’s statement that
evidence of Pam’s skin and hair should not be in the
SUV, “[t]his statement in itself proves Moya has
knowledge of the murder.” Detective Abdul averred

App. 62
that he “believes evidence will be recovered from
Moya’s residence that will link him to the murder of
Pamela Fayed.” On September 10, a magistrate approved the warrant to search the Happy Camp Ranch.
The list of items to be searched included “[u]nknown
type sharp objects . . . consistent with the injuries sustained by Pamela Fayed,” cell phones, and Moya’s bank
records and deposit slips. During the search, authorities recovered three cell phones, which defendant later
described as evidence “crucial to the government’s theory of the case.”
Before trial, on October 9, 2009, defendant filed a
motion to traverse the affidavit, a motion to suppress
the evidence obtained in violation of wiretap provisions, and a motion to dismiss for violation of due process. Defendant argued that the LAPD was well aware
that LaPalme was a private investigator working for
the defense and yet continued to record the call between him and Moya. Because LaPalme was conducting witness interviews for the defense, defendant
argued the conversation between LaPalme and Moya
was protected under the work product doctrine. Thus,
the affidavit’s failure to disclose that LaPalme was a
defense investigator was an egregious omission, one
that hindered the “crucial, inference-drawing powers
of the magistrate.” (People v. Kurland (1980) 28 Cal.3d
376, 384.)
The trial court denied defendant’s motions. It rejected defendant’s argument that the attorney work
product doctrine protected the intercepted conversation between LaPalme and Moya. Moreover, it found

App. 63
“ample probable cause” to support the search warrant
even if the challenged information were not included.
The court also agreed with the prosecution that there
was no material omission in the affidavit to the magistrate. On appeal, defendant raises similar arguments
as below. He claims that LaPalme and Moya’s conversation was protected under the work product doctrine
and that it should be considered excised from the affidavit.
Even assuming the intercepted call was privileged
and should be deemed omitted from the affidavit, we
conclude the affidavit’s remaining contents supported
probable cause. (See People v. Bradford (1997) 15
Cal.4th 1229, 1297 (Bradford).) In general, statements
contained in an affidavit of probable cause that are
proven to be false or reckless by a preponderance of the
evidence, should be considered excised from the affidavit. (Ibid.) As relevant here, “[i]f the remaining contents of the affidavit are insufficient to establish
probable cause, the warrant must be voided and any
evidence seized pursuant to that warrant must be suppressed. [Citation.] [¶] A defendant who challenges a
search warrant based upon an affidavit containing
omissions bears the burden of showing that the omissions were material to the determination of probable
cause. [Citations.] `Pursuant to [California Constitution, article I,] section 28 [, subdivision] (d), materiality
is evaluated by the test of Illinois v. Gates, [supra,] 462
U.S. 213, . . . which looks to the totality of the circumstances in determining whether a warrant affidavit

App. 64
establishes good cause for a search.” (Bradford, supra,
15 Cal.4th at p. 1297.)
In this case, even without considering LaPalme
and Moya’s conversation, the affidavit’s remaining contents provided probable cause for issuance of the warrant. The affidavit included evidence that Moya had
access (both before and after the murder) to the red
SUV seen leaving the murder scene, statements from
defendant’s employee who told detectives Moya was
not at the ranch at the time of Pamela’s death, and
statements from another employee that said defendant
directed him to give Moya $24,000 sometime in midJuly (several weeks before the murder). Based on the
totality of the circumstances, the trial court properly
concluded the affidavit established probable cause to
support the search warrant. (Bradford, supra, 15
Cal.4th at p. 1297.)
5. Evidentiary Rulings
A trial court has broad discretion to admit or exclude evidence. We will not disturb its ruling unless
there is a showing the court abused this discretion by
acting in an arbitrary, capricious, or patently absurd
manner resulting in a miscarriage of justice. (People v.
Vieira, supra, 35 Cal.4th at p. 292.) Unless a defendant
elaborates or provides a separate argument for related
constitutional claims, we have declined to address any
boilerplate contentions. (People v. Mills (2010) 48
Cal.4th 158, 194 [“ ‘The “routine application of state

App. 65
evidentiary law does not implicate [a] defendant’s constitutional rights” ’ ”].)
On appeal, defendant challenges a number of evidentiary rulings the trial court made. We discuss each
in turn.
a. Admission of Government Evidence
(1) Evidence of federal indictment against
defendant
Before trial, defendant filed an in limine motion to
exclude evidence of the February 26, 2008, federal indictment against him for operating an unlicensed
money transmitting business (18 U.S.C. § 1960), an indictment which was originally filed under seal. Defendant sought to specifically exclude any reference to him
as a terrorist, which was purportedly included in an
LAPD summary report and later shared with the FBI.
The terrorist reference was not included in the onesentence federal indictment. The federal government
later dismissed the indictment on September 15, 2008,
the same day the prosecution filed a complaint against
defendant and Moya for Pamela’s murder.
Defendant’s in limine motion alleged that any evidence of uncharged conduct underlying the federal indictment constituted inadmissible character evidence
(Evid. Code, § 1101, subd. (d)) and was not otherwise
admissible to prove motive, common plan, or identity.
(See People v. Ewoldt, supra, 7 Cal.4th at p. 393.) Because it was undisputed that the federal indictment remained sealed until after Pamela’s murder, defendant

App. 66
argues that it could not have provided a motive to kill
Pamela to prevent her from cooperating with federal
authorities.
The trial court denied defendant’s in limine motion to exclude evidence of the federal indictment and
investigation. It concluded such evidence was relevant
to defendant’s motive to kill Pamela. It further rejected
defendant’s claim of prejudice under Evidence Code
section 352, noting that the federal indictment “pales
in comparison” to the murder for hire conspiracy
charge and suggested that a limiting instruction would
address defendant’s concerns.
Focusing on the “lack of similarity of motive or direct connection” between the money licensing violation
and the murder charge, defendant argues that evidence of the dismissed federal indictment constituted
inadmissible character evidence. (See Evid. Code,
§ 1101, subd. (a).) He maintains that the prosecution
failed to show that Pamela agreed to cooperate with
federal authorities (and that defendant knew Pamela
intended to cooperate), which the prosecution argued
provided defendant’s motive to kill Pamela. For reasons that follow, we deny defendant’s evidentiary
claim.
Though inadmissible to prove a defendant’s criminal propensity, evidence of a defendant’s prior uncharged misconduct is admissible if relevant to prove
a material fact at issue in the case, “such as motive,
opportunity, intent, preparation, plan, knowledge,
identity, absence of mistake or accident.” (Evid. Code,

App. 67
§ 1101, subd. (b).) “In general, we have explained that
`[t]he admissibility of other crimes evidence depends
on (1) the materiality of the facts sought to be proved,
(2) the tendency of the uncharged crimes to prove those
facts, and (3) the existence of any rule or policy requiring exclusion of the evidence.’ ” (People v. Kelly (2007)
42 Cal.4th 763, 783.) As pertinent here, “the probativeness of other-crimes evidence on the issue of motive
does not necessarily depend on similarities between
the charged and uncharged crimes, so long as the offenses have a direct logical nexus.” (People v. Demetrulias (2006) 39 Cal.4th 1, 15.) It is enough that the
“ ‘motive for the charged crime arises simply from the
commission of the prior offense.’ ” (People v. Thompson
(2016) 1 Cal.5th 1043, 1115 [evidence of wife’s financial
fraud relevant to show motive for killing her husband].)
Here, the federal indictment was a key piece of evidence that helped explain the development of defendant’s motive to kill Pamela. Along with the indictment,
the investigation related important details of events
leading up to Pamela’s murder. The prosecution first
described Pamela becoming worried about Goldfinger’s
future in light of the federal investigation. Despite defendant’s fierce opposition, she sought to obtain a
money transmitting license and withdrew at least
$400,000 from the company’s account. The prosecution
explained how defendant was furious at Pamela for
taking the money, trying to secure a money transmitting license despite defendant’s insistence that they
did not need it, and giving federal authorities a reason

App. 68
to closely scrutinize Goldfinger. After filing for divorce,
defendant banned Pamela from Goldfinger, alleging
that she had embezzled money from the company. Finally, in an e-mail defendant had sent to his friend,
Melanie Jackman, complaining about Pamela, he
wrote: “I have been letting her get away with this shit
for years, and enough is enough.”
The prosecution’s theory on why defendant killed
Pamela, in short, was not based simply on her possible
cooperation with federal authorities; rather, defendant’s increasing animosity and bitterness towards
Pamela came to a head when Pamela’s actions threatened to upend their highly profitable business. The circumstantial evidence, as the prosecution underscored,
was “overwhelming.”
Furthermore, whether there was evidence of an
actual agreement that Pamela would cooperate with
the federal authorities or whether Pamela and defendant knew about the federal indictment itself are both
beside the point. Defense counsel conceded that defendant and Pamela both were aware that federal authorities were investigating Goldfinger. And while
there was no evidence that Pamela had an agreement
she would testify against defendant, the prosecution
argued that defendant killed Pamela “to prevent her
from making an agreement, to prevent her from doing
that. That’s our point.”
Moreover, the record reveals evidence that Pamela
at least intended to cooperate with federal authorities.
Evidence further suggested that defendant was at

App. 69
least suspicious, if he did not actually know, of Pamela
possibly incriminating him in the federal case. “ ‘[T]o
be admissible, evidence need not absolutely confirm
anything. It is axiomatic that its weight is for the
jury.’ ” (People v. Peggese (1980) 102 Cal.App.3d 415,
420.) Finally, as a practical matter, because the jury
heard defendant’s recorded jailhouse conversation
with Smith, some mention of the federal indictment
was required to explain why defendant was in federal
custody in the first place.
We conclude that the probative value of evidence
of the dismissed federal indictment and related investigation outweighed any prejudice from admitting the
evidence. Further, the trial court instructed the jury
that evidence of uncharged misconduct may only be
considered “for the limited purpose of determining, if it
tends to show, that the defendant had a motive to commit the charged crimes.” (CALJIC No. 2.50.) We presume the jury followed the trial court’s instruction
absent evidence to the contrary. (People v. Daveggio
and Michaud (2018) 4 Cal.5th 790, 821.)
(2) Testimony of Carol Neve
Regarding evidence of Pamela’s intent to cooperate with federal authorities on the Goldfinger investigation, the prosecution proffered the testimony of
witness Carol Neve, a longtime friend and confidante
of Pamela’s. After the parties vigorously debated the
issue, the trial court prohibited the prosecution from
eliciting Neve’s testimony that Pamela told Neve she

App. 70
was going to cooperate with the federal authorities.
The trial court concluded the prosecution failed to
show the link between Pamela’s intent to cooperate
and defendant’s knowledge of that intent, which the
trial court described as a “pretty pivotal issue in this
case.” However, the trial court permitted Neve, who
had a similar e-currency business and spoke to Pamela
about it, to testify about Pamela’s intent to obtain a
money transmitting license for Goldfinger.
Over defendant’s hearsay objection, Neve testified
that in September or October of 2007, she had advised
Pamela that “her company [Goldfinger] was at risk”
and told Pamela that she should get “money transmitter licenses,” even though such licenses were “very expensive” and had to be obtained through the federal
government. The trial court ruled such statements did
not constitute hearsay because they were not offered
for their truth; rather, Neve’s testimony was “what
Miss Fayed was advised.” Neve also testified that Pamela told her that “her intent was to obtain those money
transmitter licenses.”
Overruling defendant’s hearsay objection, the
court concluded that Pamela’s hearsay statements
were admissible under Evidence Code section 1250,
subdivision (a)(2), as a statement of future intent “to
prove or explain acts or conduct of the declarant.”
On appeal, defendant argues that the trial court
erred in allowing Neve’s testimony. Defendant again
asserts that Neve’s statement regarding what she advised Pamela was hearsay. As the trial court concluded,

App. 71
however, Neve’s advisement to Pamela was not offered
for the truth of the matter stated, i.e., to show that
Pamela should have obtained the licenses, but was offered to show Pamela’s reaction and conduct in response to the statement. (See Evid. Code, § 1200;
People v. Livingston (2012) 53 Cal.4th 1145, 1162.)
Likewise, we conclude that Pamela’s hearsay
statement, i.e., that she told Neve she intended get the
money transmitting license for Goldfinger, was admissible as a statement of the declarant’s future intent under Evidence Code section 1250, subdivision (a)(2).
Under this provision, “a statement of the declarant’s
intent to do certain acts is admissible to prove that he
did those acts.” (Cal. Law Revision Com. com., Deering’s Ann. Evid. Code (2004 ed.) foll. § 1250, p. 531; see
People v. Alcalde (1944) 24 Cal.2d 177, 187-188.) Here,
Pamela’s statement of future intent to purchase a
money transmitting license was admissible to prove
that she tried to obtain the license, which in turn was
relevant to show why defendant was angry at Pamela
and had a motive to kill her. Contrary to defendant’s
suggestion, the statement was not admitted to prove
Pamela’s existing state of mind under Evidence Code
section 1250, subdivision (a)(1), which expressly requires that the declarant’s mental state be “itself an
issue in the action.” (See People v. Noguera (1991) 4
Cal.4th 599, 621.)

App. 72
(3) Recorded conversation of Mary Mercedes
As previously noted, the defense intended to call
Mary Mercedes as a witness to question her on
whether she attempted to solicit Taboga’s husband to
kill Pamela Fayed. Though there was some uncertainty
whether the prosecution would offer Mercedes immunity in exchange for her testimony, Mercedes ultimately
invoked her Fifth Amendment privilege against selfincrimination, and the court declared her unavailable
as a witness. Based on Mercedes’s unavailability, the
trial court permitted the defense to elicit hearsay testimony from Taboga that Mercedes had offered to pay
Taboga’s husband, Kurt, $200,000 to kill Pamela. (See
Evid. Code, § 1230.)
After Taboga’s direct testimony, the prosecution
informed the trial court it intended to introduce the
out-of-court statement of Mercedes pursuant to Evidence Code section 1202. In a recorded conference call
between Mercedes, Detective Abdul, and Prosecutor
Jackson, Mercedes denied Taboga’s allegations. This
telephone conversation took place on March 30, 2011,
a month before Mercedes had asserted her Fifth
Amendment privilege.
Defense counsel objected, arguing in part that the
prosecution “sprung” this evidence at the last minute
and that they had not been given proper notice. The
trial court, however, explained that “this is impeachment testimony, so they don’t have to give it to you in
advance.” Defendant also claimed “fundamental

App. 73
unfairness” in being unable to cross-examine a witness
whom, he asserted, the prosecution could have given
immunity to prevent her unavailability. Rejecting
defendant’s contention, the trial court found the tape
admissible for purposes of impeachment. After substantially redacting the statement with input from
both sides, the trial court admitted Mercedes’s statement into evidence.
On appeal, defendant argues that even though
this statement was used as impeachment evidence
against Taboga, the prosecution sought admission of
the tape itself as opposed to just using information on
the tape; thus, defendant asserts, the tape constituted
“real evidence” subject to timely disclosure under section 1054.1, subdivision (c). (See People v. Tillis (1998)
18 Cal.4th 284, 292-293; § 1054.7 [disclosure 30 days
prior to trial generally required absent good cause].)
Defendant maintains the trial court should have prohibited the tape’s admission as an authorized sanction
under section 1054.5, subdivision (b). Even assuming
that the tape constituted “real evidence” under section
1054.1, subdivision (c) that the prosecution thereby
committed a discovery violation for failing to timely
disclose it, and finally, that the trial court should have
prohibited the presentation of this tape as a sanction,
any error was harmless. (See People v. Verdugo (2010)
50 Cal.4th 263, 280.)
Describing Taboga as his “star witness,” defendant
argues that because the prosecution delayed disclosure
of this tape, it “was able to launch a devastating counterattack at the end of trial,” one that “gutted” their

App. 74
defense. Defendant overstates his case. As noted,
Taboga came forward with the information about Mercedes a month before trial began, even though her telephone conversation with Mercedes took place three
years earlier in May 2008, several months before Pamela was murdered. As Taboga testified, she did not believe she had information that “could free” defendant
but wanted to get “the information out because it needs
to be heard.” On cross-examination, the prosecution
pointedly questioned Taboga why she never told anyone about Mercedes’s purported solicitation to kill
Pamela. Taboga explained that she did tell Pamela to
“just watch herself and be careful” but admitted she
never told Pamela about her conversation with Mercedes.
Making only a brief reference to Mercedes’s denial
in closing argument, the prosecution thoroughly discredited Taboga’s testimony, criticizing it as nonsensical and implausible. We find that any improper
admission of Mercedes’s taped statement to impeach
statements Taboga attributed to Mercedes to be harmless. Based on the overwhelming evidence of defendant’s guilt and in light of the discredited, implausible
testimony of Taboga, we conclude beyond a reasonable
doubt that the error, if any, in allowing such impeachment, did not contribute to the verdict. (See People v.
Pokovich (2006) 39 Cal.4th 1240, 1255.)

App. 75
(4) Pamela’s bloody clothes, eyeglasses,
and purse
During the direct testimony of LAPD Detective
Eric Spear, the prosecution displayed photographs of
the crime scene, including a picture of Pamela’s bloody
shirt and pants. Based on the amount of blood at the
crime scene, Detective Spear opined it was a “violent
attack, and just brutal.” He further concluded that because Pamela’s purse, wallet and money were still at
the crime scene, it was not a robbery. The prosecution
asked Detective Spear to show the actual shirt Pamela
was wearing when she was killed, which he described
as a shirt “which was white at one time that is obviously soaked in blood.” Detective Spear also showed
the pair of pants Pamela was wearing at that time.
Objecting under Evidence Code section 352, defense counsel pointed out there was no dispute that
Pamela was stabbed to death and offered to stipulate
that the bloody items belonged to Pamela, so that the
prosecution would not “parade one bloody item after
another.” He also maintained the evidence was cumulative and served only to inflame and prejudice the
jury. The prosecution countered that the manner in
which Pamela was killed was significant and showing
the jury the actual blood-soaked items instead of pictures of them would “mak[e] the viciousness of the
murder, premeditation, the deliberation, the intent to
kill much more real to the jury by way of three or four
minutes of testimony.” The trial court permitted the
prosecution to demonstrate the remaining two items to

App. 76
the jury—Pamela’s eyeglasses and purse—during Detective Spear’s testimony.
On appeal, defendant argues that the photographs
of these bloody items were more prejudicial than probative under Evidence Code section 352 because they
were superfluous and served no purpose but to appeal
to the jury’s emotions. Though the actual blood-stained
items were presented in court and introduced into evidence through Detective Spear’s testimony, defendant’s focus is on the prejudicial effect of the admitted
photographs.
“ ‘As a rule, the prosecution in a criminal case involving charges of murder or other violent crimes is entitled to present evidence of the circumstances
attending them even if it is grim’ (People v. Osband
(1996) 13 Cal.4th 622, 675 [55 Cal.Rptr.2d 26, 919 P.2d
640]), and even if it ‘duplicate[s] testimony, depict[s]
uncontested facts, or trigger[s] an offer to stipulate.’ ”
(People v. Boyce (2014) 59 Cal.4th 672, 687.) Here, the
prosecution explained that the blood-soaked shirt and
pants depicted in the photographs showed the brutality of Pamela’s killing, which suggested she was killed
by a hitman. We conclude the trial court did not abuse
its considerable discretion in admitting the photographs of Pamela’s personal effects found at the murder scene. (See People v. Panah (2005) 35 Cal.4th 395,
477; People v. Boyce, supra, 59 Cal.4th at p. 687 [trial
court abuses its discretion by acting “ ‘in an arbitrary,
capricious, or patently absurd manner’ ”].)

App. 77
(5) Photographs of Pamela
During the direct examination of Desiree, Pamela’s then 21-year-old daughter, the prosecution
showed her various family photographs to identify.
These included photographs of Desiree, her half-sister,
J.F., and Pamela; some photographs of just Desiree and
Pamela, photographs with J.F. and Pamela, and a photograph of defendant. At one point, the prosecution
asked the trial court whether he could approach Desiree and show her the photographs (instead of using a
projector). Defense counsel replied that he had “no objection. If he wants to just show her, I have no objection.” Desiree explained when and where the various
pictures were taken, which included Desiree’s high
school graduation in June 2008, a month before Pamela was killed.
On appeal, defendant for the first time claims the
trial court erred in allowing the photographs of Pamela
and her daughters into evidence at the guilt phase because the photographs were purportedly irrelevant
and superfluous. Defense counsel, however, did not object below but instead stated he had “no objection” to
showing Desiree the photographs. We conclude defendant has forfeited the issue.
b. Defendant’s Cross-examination Rights
AUSA Aveis testified regarding the federal government’s investigation into defendant and Goldfinger.
During cross-examination, defense counsel asked
Aveis whether defendant had indicated what his

App. 78
defense would be to the federal charge of acting as a
money exchanger without the proper licensing. Aveis
responded he learned that defendant would be alleging
he did not get a license because he did not believe he
needed one. Following up on this answer, defense counsel attempted to ask Aveis whether Aveis knew that
defendant did not agree that he needed a license to operate Goldfinger and whether this issue was one Aveis
anticipated litigating in court. The trial court sustained the prosecution’s hearsay objections and struck
Aveis’s answer at the prosecution’s request.
On appeal, defendant for the first time claims that
the statements were admissible under Evidence Code
section 1250 as circumstantial evidence of defendant’s
state of mind, revealing that defendant did not believe
that Goldfinger needed a money transmitting license.
Defendant explains that evidence of his state of mind
was critical to rebut the prosecution’s main theory that
defendant killed Pamela because he feared she would
cooperate in the federal investigation. Defendant purportedly had no reason to worry about the investigation (and therefore, had no reason to kill Pamela)
because he had a valid defense to the federal charge
and also because he was winding down the business
and would no longer need the license.
Defendant further asserts that his inability to ask
AUSA Aveis any questions about the strength of the
government’s case against him violated his constitutional right to confront and cross-examine witnesses,
particularly when the prosecution was permitted to
ask Carol Neve a similar question concerning Pamela’s

App. 79
belief about the necessity of the money transmitting
license. The Attorney General counters that defendant
forfeited the argument by failing to challenge the trial
court’s ruling below. Even assuming he did not forfeit
the issue by failing to lay the foundation for the admission of Aveis’s testimony, we conclude that any error
was harmless.
Regardless of the actual strength of the government’s case against defendant, there was evidence that
defendant generally worried Pamela would implicate
him for wrongdoing. Defendant complained to Smith
that Pamela “ran her mouth too much” and that she
“made all these stupid accusations and ridiculous accusations against me just to try and make me look
bad.” Further, contrary to defendant’s assertion, the
prosecution’s theory on defendant’s motive for killing
Pamela was not simply that he wanted to prevent her
from cooperating in the federal investigation. As discussed above, the prosecution presented an extended
narrative of events leading up to Pamela’s murder in
closing argument. After outlining these events, the
prosecution underscored: “And then on top of all that
he finds out that Pamela wants to cooperate with the
authorities” and that if she does, “he stood to lose everything.”
c. Exclusion of Defendant’s Evidence
(1) Defendant’s state of mind
On appeal, defendant argues the trial court erred
in sustaining the prosecution’s hearsay objections to

App. 80
exclude evidence he maintains was crucial to his defense. For instance, the prosecution questioned Greg
Herring, a family law attorney that Pamela had hired
to replace another attorney in November 2007, a
month or so after defendant had filed for divorce. Herring testified that Pamela was dissatisfied with how
the divorce case started off, which included stipulations between defendant and Pamela allowing defendant to control the companies and providing Pamela a
modest salary. Herring also testified about the potential assets at stake in the divorce (“either hundreds of
millions or maybe even a billion or more”), and his concern that defendant would liquidate assets. He also
testified that the divorce proceedings had reached a
“fever pitch” shortly before Pamela was murdered.
On cross-examination, defense counsel asked Herring about a letter defendant’s divorce attorney, John
Foley, had sent Herring about defendant’s intention to
liquidate the E-bullion and Goldfinger entities. Defense counsel questioned Herring about statements in
the letter explaining defendant’s “rationale for why he
is liquidating” the E-bullion and Goldfinger companies.
In response to the prosecution’s hearsay objection, defense counsel explained that he would ask Herring
“whether the liquidation was motivated in part by a
desire to avoid having to spend the money on buying
licenses that Pam was insisting on.” The trial court
sustained the prosecution’s hearsay objection, and defendant did not propose that a hearsay exception applied, nor did he raise the issue again.

App. 81
On appeal, defendant claims for the first time that
this hearsay statement was admissible under the state
of mind exception (Evid. Code, § 1250), because it
would show that defendant was intending to wind
down their e-currency business, purportedly negating
various prosecution theories for why defendant killed
Pamela. Although defense counsel explained that he
intended to question Herring about the letter, he “did
not show that the testimony came within an exception
to the hearsay rule, and did not attempt, by offer of
proof or otherwise, to lay the proper foundation for that
exception.” (People v. Livaditis (1992) 2 Cal.4th 759,
778.)
Even if defendant preserved this claim for review,
we conclude that any error in preventing this line of
questioning was harmless. Without objection, defense
counsel earlier asked Herring what he thought defendant and his divorce attorney were “trying to accomplish” by informing Pamela about their intent to
liquidate the E-bullion and Goldfinger entities and
whether Herring’s “perspective was that he was going
to threaten to liquidate the company in order to prevent you from getting Pam Fayed a proper accounting
and a proper compensation.” Herring replied that he
did not know what defendant “was thinking” or what
his attorney “was thinking when he sent” the letter to
Herring. Thus, any further questioning of Herring on
this issue would have likely yielded little information.

App. 82
(2) Third party culpability defense
During the direct examination of Patty Taboga, defense counsel attempted to question her about whether
she spoke to Mary Mercedes about defendant and
Pamela’s divorce. In response to the prosecution’s hearsay objection, defense counsel argued that the exception for statements against penal interest applied
because Taboga was going to describe Mercedes “savaging Pam” and would testify to other statements Mercedes made showing her “animus, her intent, motive to
kill Pam.” The trial court explained that animus towards Pamela was not enough and that Mercedes’s
statements had to be against her “penal interest.”
However, the record does not disclose that defendant
laid any foundation for admitting this evidence.
On appeal, defendant asserts that these hearsay
statements were admissible to prove Mercedes’s “state
of mind, emotion, or physical sensation.” (Evid. Code,
§ 1250, subd. (a)(1).) The Attorney General maintains
that defendant sought admission of the statements
only under Evidence Code section 1230 and “invited”
any error by limiting himself to this exception. For reasons stated below, we conclude that any error in excluding Mercedes’s hearsay statements that she hated
Pamela was harmless.
As noted above, the trial court permitted defendant to present a third party culpability defense that
Mercedes, and not defendant, solicited the murder of
Pamela. Even if statements that Mercedes harbored
animus towards Pamela tended to show her motive to

App. 83
kill Pamela, their admission would have made little
difference to the success of this defense. As discussed
above (see ante, at p. 64), the prosecution thoroughly
undercut Taboga’s testimony about Mercedes’s solicitation to kill Pamela, characterizing it as illogical and
unbelievable. The defense itself was not plausible, and
the fact that Mercedes may have hated Pamela would
have done little to save the defense. Moreover, defendant was not otherwise precluded from presenting this
evidence from other sources.
Defendant also points out that based on the prosecution’s hearsay objection, the trial court struck
Taboga’s testimony that when she had asked Mercedes
whether defendant knew about this phone call and her
request that Taboga’s husband kill Pamela, Mercedes
had replied, “No.” Because defendant did not argue below for the statements’ admissibility, he has forfeited
any claim that these hearsay statements were admissible under an exception. (See People v. Morrison (2004)
34 Cal.4th 698, 711.)
Finally, defendant claims that the trial court erred
in excluding any evidence of Taboga’s March 9, 2011
letter to defendant, in which she first accused Mercedes of soliciting Pamela’s murder back in May 2008.
To rebut the prosecution’s assertion that Taboga was
lying about Mercedes’s solicitation, defendant argued
the letter was a prior consistent statement under Evidence Code section 1236. (See Evid. Code, § 791.) However, the prosecution countered that it had never
questioned what Taboga said in the letter was somehow inconsistent or consistent with her testimony at

App. 84
trial. The trial court excluded the letter as inadmissible hearsay.
The trial court did not err in refusing to admit
Taboga’s March 9 letter to defendant. Contrary to defendant’s contention, it is not sufficient that Taboga’s
consistent statement simply be made “prior to” her
trial testimony. (People v. Riccardi (2012) 54 Cal.4th
758, 802.) Rather, the relevant time is “before the bias,
motive for fabrication, or other improper motive is alleged to have arisen.” (Evid. Code, § 791, subd. (b).)
Here, Mercedes allegedly asked Taboga in May 2008 if
her husband would kill Pamela. Pamela was killed on
July 28, 2008, and a complaint charging defendant
with Pamela’s murder was filed on September 15,
2008. Arguably, Taboga would have had a motive to
fabricate Mercedes’s solicitation after defendant was
charged with Pamela’s murder. Rather than writing
this letter to defendant before or around that time,
Taboga wrote the letter three years later. “[I]f the consistent statement was made after the time the improper motive is alleged to have arisen, the logical
thrust of the evidence is lost and the statement is inadmissible.” (Cal. Law Revision Com. com., Deering’s
Ann. Evid. Code, supra, foll. § 791, p. 501.)
(3) Defendant’s inability to commit crime
Before trial, defendant filed an in limine motion
requesting that defendant’s two doctors be permitted
to testify that they had prescribed defendant pain
medication and to testify about the medications’ likely

App. 85
effects on defendant. Defendant sought to show he
“was incapable of plotting a murder and could not have
committed the acts that are alleged.” The prosecution
countered that this evidence constituted evidence of
“voluntary intoxication” and that it was only admissible in the guilt phase to show a defendant’s diminished
capacity. (Former § 22, subd. (c), renumbered as § 29.4,
subd. (c) by Stats. 2012, ch. 162, § 120.) Because defense counsel conceded he did not intend to offer this
evidence to negate defendant’s intent, the trial court
excluded the evidence. We conclude the trial court did
not err.
6. Insufficient Evidence of Special Circumstance
Allegations
a. Insufficient Evidence of Financial Gain
The jury found true the special circumstance that
defendant murdered Pamela for financial gain.
(§ 190.2, subds. (a)(1), (c); CALJIC No. 8.81.1.) The
prosecution presented two theories supporting this
special circumstance allegation. First, it pointed out
that defendant would stand to get all—instead of just
half—of the marital and business assets if Pamela
were killed, rather than if they got divorced. Second,
over defense objection, the prosecution also argued
that defendant did not have to financially gain from
the murder if he hired Moya: “In other words, if you
find that Mr. Moya was going to or did gain financially
to the tune of $25,000, then that is enough to establish
the special circumstance for financial gain.”

App. 86
On appeal, defendant challenges this second theory, arguing that the evidence was insufficient to support the finding on this basis. Distinguishing both
People v. Bigelow (1984) 37 Cal.3d 731 and People v.
Freeman (1987) 193 Cal.App.3d 337, on which the prosecution relied, defendant asserts that the prosecution
improperly argued it only had to show that Moya received some financial gain; the prosecution was required to, but did not, show that Moya was the actual
killer. On review, we view the evidence in the light
most favorable to the verdicts. (People v. Johnson
(2016) 62 Cal.4th 600, 630.)
Under section 190.2, subdivision (a)(1), a defendant is subject to the special circumstance if the “murder was intentional and carried out for financial gain.”
Even if the defendant is “not the actual killer,” if that
defendant “with the intent to kill, aids, abets, counsels,
commands, induces, solicits, requests, or assists any actor in the commission of murder in the first degree,” he
or she is also subject to this special circumstance.
(§ 190.2, subd. (c).) “Reading the two provisions together it is clear that one who intentionally aids or encourages a person in the deliberate killing of another
for the killer’s own financial gain is subject to the special circumstance punishment.” (People v. Freeman, supra, 193 Cal.App.3d at p. 339 [construing 1978 version
of § 190.2]; see People v. Padilla (1995) 11 Cal.4th 891,
933.) Defendant suggests that evidence of Moya’s financial gain is insufficient without evidence that he
was the actual killer and not just an intermediary.

App. 87
Freeman did not address a multiparty situation involving the hirer of a contract killer, the actual killer,
and someone who acts as intermediary between the
two. Thus, contrary to defendant’s suggestion, Freeman
does not stand for the proposition that the actual contract killer, as opposed to an intermediary, must have
a financial gain from the murder. Rather, subsequent
cases have rejected that interpretation. (People v.
Singer (1990) 226 Cal.App.3d 23, 44; see People v. Battle (2011) 198 Cal.App.4th 50, 82 [following People v.
Singer].) “[I]t is hard to see why, as a matter of policy,
the Legislature would want to differentiate between a
murder for hire where there is no intermediary and
one where there is. Apart from possible causation problems where the link between the hirer and actual killer
is extremely attenuated (not our case), the moral culpability of the hirer would be the same. (People v. Freeman, supra, 193 Cal.App.3d 337, 340.) The distinction
urged by defendant would tend to snare amateurs
while letting practiced killers with impersonal, large
networks of thugs off the hook. It hardly makes sense.”
(People v. Singer, supra, 226 Cal.App.3d at p. 44.)
This policy argument articulated in Singer has
particular relevance here. When responding to Smith’s
incredulity at how “this many people” got involved in
Pamela’s murder, defendant reassured Smith that he
had “the insulation, cause I don’t know them, and they
don’t know me. I never met them. I never seen them. I
wouldn’t recognize him.” The prosecution reiterated
that defendant boasted he was “insulated” because it

App. 88
was Moya who had “subcontract[ed]” with Simmons
and Marquez.
In sum, there was sufficient evidence to support
the jury’s true finding of the financial-gain special-circumstance allegation.
b. Insufficient Evidence of Lying in Wait
The jury also found true the lying-in-wait special
circumstance allegation. CALJIC No. 8.81.15.1 provides in part that the jury must find: “1. The defendant
intentionally killed the victim; and [¶] 2. The murder
was committed by means of lying in wait.” In closing
argument, the prosecution explained that as to the second element, the question is, “[W]as the murder committed while the defendant or any co-conspirator was
lying in wait? Any co-principal, any aider and abettor
was lying in wait? Well, that’s the three folks in the
parking garage, Simmons, Marquez and Moya. They
were the ones lying in wait.” Defendant did not object
to the instruction as given, did not seek to modify the
instruction, and did not later object to the prosecution’s
explanation of the instruction at closing argument.
On appeal, defendant insists that section 190.2,
subdivision (a)(15) is ambiguous in terms of who must
be lying in wait. In any event, he argues that allowing
an aider and abettor—who specifically intended to kill,
but did not intend to lie in wait, did not actually lie in
wait and did not aid and abet the lying in wait—to be
subject to the lying-in-wait special circumstance violates due process. Defendant asserts that the

App. 89
prosecution’s closing argument that evidence that any
of the codefendants were lying in wait would support a
true finding of the special circumstance allegation was
improper. We reject this claim.
To determine whether an aider and abettor who is
not the actual killer can be subject to the lying-in-wait
special circumstance, “the questions are whether defendant, with the intent to kill, aided and abetted the
victim’s killing, and whether the actual killer intentionally killed the victim by means of lying in wait.”
(People v. Johnson, supra, 62 Cal.4th at p. 630; see People v. Bonilla (2007) 41 Cal.4th 313, 331 [interpreting
earlier version of 190.2].) The record contains ample
evidence that defendant aided and abetted Moya’s killing of Pamela by lying in wait. Defendant admitted to
Smith that “[t]here were four different other occasions
where I had it so it was perfectly clean. Yeah, it was a
rural area. I even had the times, dates, everything, location. . . . I physically made sure that it was prechecked and cleared with, you know—and there’s no—
no cameras, none. But they pick the day before my
fuckin’ court hearing at the busiest place in LA.” Indeed, when describing a prior missed opportunity for
Moya to kill Pamela, defendant essentially admitted
that he wanted Moya to kill her by means of lying in
wait: “All he had to do was sit there, wait for her to get
in the car, and jack it.” Contrary to defendant’s assertion, defendant’s liability was based on his own intent
and his own significant actions in masterminding the
killing of Pamela.

App. 90
Based on the foregoing, we conclude the record
contains sufficient evidence to support the jury’s lyingin-wait special-circumstance finding.
7. Prosecutorial Misconduct at Guilt Phase
Defendant maintains that the prosecution committed various acts of misconduct at the guilt phase,
including mischaracterizing the evidence, misstating
the law, making inflammatory remarks, and referring
to facts outside the record.
It is prosecutorial misconduct to misstate the law.
(People v. Cortez (2016) 63 Cal.4th 101, 130.) It is also
misconduct to misstate the evidence or go beyond the
record. (People v. Gonzalez (2011) 51 Cal.4th 894, 947;
People v. Davis (2005) 36 Cal.4th 510, 550.) However,
the prosecution “enjoys wide latitude in commenting
on the evidence, including the reasonable inferences
and deductions that can be drawn therefrom. (People v.
Hamilton (2009) 45 Cal.4th 863, 928; People v. Rowland (1992) 4 Cal.4th 238, 277 [“hyperbolic and tendentious” comments, even if “harsh and unbecoming,”
may be reasonable if they can be inferred from the evidence].) “A defendant asserting prosecutorial misconduct must . . . establish a reasonable likelihood the
jury construed the remarks in an objectionable fashion.” (People v. Duff (2014) 58 Cal.4th 527, 568); see
People v. Dennis (1998) 17 Cal.4th 468, 522 [“whether
the prosecutor has employed deceptive or reprehensible methods to persuade either the court or the jury”];
see also People v. Osband, supra, 13 Cal.4th at p. 695

App. 91
[prosecutor’s “remark was gratuitous, but his misconduct was also de minimis”].)
To preserve a claim of prosecutorial misconduct on
appeal, “ ‘a criminal defendant must make a timely and
specific objection and ask the trial court to admonish
the jury to disregard the impropriety. [Citations.]’ [Citation.] The failure to timely object and request an admonition will be excused if doing either would have
been futile, or if an admonition would not have cured
the harm.” (People v. Clark (2011) 52 Cal.4th 856, 960
(Clark); see People v. Collins (2010) 49 Cal.4th 175,
226.) We discuss each claim of alleged prosecutorial
misconduct in turn.
a. Closing Argument
During closing argument at the end of the guilt
phase, Prosecutor Jackson described Pamela’s last moments after she had been stabbed and was still conscious. He next asked: “What do you think she might
have been thinking? Those two or three or even four
minutes when she had time to think? Time to feel?
Time to realize what was happening? She would never
again touch the hand of her daughter, never kiss the
cheek of [J.F.], never see their smiling faces. And she
had time. How long do you think a minute is? She had
three or four. While all this is going through her mind,
how long do you think that minute lasted? An eternity.
Think about what she was going through. And I am going to ask you just to think for one minute, starting
now.”

App. 92
At this point, defendant objected, arguing this line
of questioning only engendered prejudice that outweighed any probative value. Jackson countered that
the circumstances of Pamela’s death were relevant to
show “the brutality of how she died, the fact that this
was a personal execution.” The trial court overruled defendant’s objection. Afterwards, the prosecution continued and asked the jury again to think for one
minute. On appeal, defendant argues that the prosecution improperly asked the jury to view the crime from
the perspective of the suffering victim and that the
trial court erred in overruling his objection.
“As a general rule, a prosecutor may not invite the
jury to view the case through the victim’s eyes, because
to do so appeals to the jury’s sympathy for the victim.”
(People v. Leonard (2007) 40 Cal.4th 1370, 1406.)
Though we have permitted such argument at the penalty phase (see People v. Cowan (2010) 50 Cal.4th 401,
485-486; People v. Wash (1993) 6 Cal.4th 215, 263-264),
asking jurors to “imagine the thoughts of the victims
in their last seconds of life” is rarely a relevant inquiry
at the guilt phase. (People v. Leonard, supra, 40 Cal.4th
at p. 1407; see People v. Stansbury (1993) 4 Cal.4th
1017, 1057.) The Attorney General does not dispute
that the comments in this regard were improper.
Nevertheless, even though these comments were
improper, defendant is not entitled to relief. Given the
strength of the evidence against defendant, not the
least of which was his jailhouse confession, he did not
suffer prejudice from the prosecutor’s comments. (See
People v. Martinez (2010) 47 Cal.4th 911, 957.) It was

App. 93
not reasonably probable that the verdict would have
been more favorable without this misconduct.
b. Misstatements of Law
Defendant claims that at the end of the guilt
phase, the prosecution made a number of misstatements of law in closing argument.
For instance, with respect to the issue whether defendant withdrew from the conspiracy, the prosecution
reiterated that defendant must “do everything in his
power” to prevent the commission of the murder. Defendant maintains that the instruction misstates a defendant’s burden of proof for withdrawal. Even
assuming error, any misstatement was harmless.
There was no dispute that defendant committed an
overt act, i.e., paying Moya to kill Pamela, which completed the crime of conspiracy. (See People v. Sconce,
supra, 228 Cal.App.3d at p. 703 [defendant’s “withdrawal from the conspiracy is not a valid defense to the
completed crime of conspiracy”].)
Next, in describing defendant’s liability as an
aider and abettor, the prosecution used an analogy of a
backup quarterback who never gets on the field but is
still part of the team. Defendant claims this example
misstated the law because it suggested a defendant’s
mere presence or knowledge, similar to sitting on a
bench and doing nothing, is sufficient to impose liability as an aider and abettor. Defense counsel did not object to the football analogy and seek an admonition and

App. 94
therefore, has forfeited the claim. (See Clark, supra, 52
Cal.4th at p. 960.)
Defendant also argues that the prosecution misstated the law on the lying-in-wait special circumstance (§ 190.2, subd. (a)(15)), which permits aider and
abettor liability if the actual killer killed the victim
while or immediately after lying in wait. (People v.
Johnson, supra, 62 Cal.4th at p. 630; People v. Bonilla,
supra, 41 Cal.4th at pp. 331-332 [construing identical
language in § 190.2, former subd. (b) as statutory basis
for aider and abettor’s liability].) Defendant focuses on
the prosecution’s following statement about what defendant was doing right before Pamela was killed:
“There is an argument that Mr. Fayed was actually lying in wait; he was sitting in a room, not five feet from
Pamela Fayed thirty seconds before she was killed. So
certainly he was concealing his purpose as well.”
It was not reasonably likely the jury would have
understood this remark to mean defendant’s actions
were sufficient to prove lying in wait. (People v. Osband, supra, 13 Cal.4th at p. 689.) The prosecution’s
theory was not that defendant was the actual attacker,
which would require that defendant intentionally
killed Pamela by means of lying in wait. (People v.
Johnson, supra, 62 Cal.4th at p. 630.) Rather, the prosecution consistently argued that “the three folks in the
parking garage, Simmons, Marquez, and Moya. They
were the ones lying in wait.”

App. 95
c. Reference to Extra-record Evidence
(1) Statements about federal subpoena
In describing the telephone calls between defendant and Moya and Moya and his cohorts two months
before Pamela’s murder, the prosecution emphasized
the timing of these calls, i.e., two days after the federal
subpoena issued to the forensic accountants in the
Fayeds’ divorce was “leaked” on May 27, 2008. Referring to the “leaked” subpoena at least four times (without any objection from defendant), the prosecution
explained that “[y]ou get the idea that in the hours after the subpoena is leaked, these guys communicate
and talk with each other by way of text message and
phone to let each other know.” Based on his failure to
timely object and seek an admonition, defendant has
forfeited a challenge to the characterization that the
subpoena was “leaked.” (See People v. Collins, supra, 49
Cal.4th at p. 226.)
(2) Statements about federal case
On a related point, defendant argues that the
prosecution misstated that defendant “knew” about
the sealed federal indictment before Pamela’s murder
and that Pamela would definitely be a witness against
defendant in the Goldfinger matter. Defendant forfeited the claim by failing to timely object and request
an admonition. (People v. Collins, supra, 49 Cal.4th at
p. 209) In any event, the claim fails on the merits because the prosecution did not mischaracterize the facts
but made reasonable inferences based on the record.

App. 96
(See People v. Thomas (2011) 51 Cal.4th 449, 494-495.)
The prosecution stated that defendant and Pamela
“knew exactly what was going on as early as May of
2008. 154 days before her murder, the indictment
comes out.” Fairly read, the statements merely underscored that defendant and Pamela were aware of the
federal investigation against Goldfinger shortly before
the indictment was filed. Also, Pamela’s criminal defense attorney, Willingham, testified that “Pamela
wanted to be cooperative” and be a “witness” against
defendant. Any technical meaning defendant affixes to
“witness” does not support his claim of mischaracterization by the prosecution.
(3) Statements about defendant’s mental
state
In depicting defendant’s anger at its height when
Pamela tried to secure a money transmitting license,
the prosecution described defendant as “enraged,” “absolutely furious,” “boiling over with rage” and “apoplectic.” Defendant claims that these descriptions are not
supported by the record. Not so. These are reasonable
inferences based on the record, including defendant’s
outraged statements to Smith that Pamela “went out
and made all these stupid accusations and ridiculous
accusations against me just to try and make me look
bad” and that with regard to defendant’s million dollar
e-currency business, “she would’ve fucked it all up.”
(See People v. Hamilton, supra, 45 Cal.4th at p. 928.)
“`Closing argument may be vigorous and may include
opprobrious epithets when they are reasonably

App. 97
warranted by the evidence.’ ” (People v. Redd (2010) 48
Cal.4th 691, 750.)
(4) Statements about Carol Neve
In recounting Neve’s testimony about the money
transmitting license, the prosecution reminded the
jury that Neve testified that the licenses were “extraordinarily expensive.” The prosecution followed up by
stating that a license can cost “[l]iterally hundreds of
thousands of dollars” and that the government imposes
a high fee to “keep[ ] Madoff-type things from happening.” Also, after the prosecution reminded the jury
about “the evidence that Carol Neve told you, that
Pamela Fayed wanted to get a money transference license,” it claimed that Pamela later wrote a check to
get the license that caused defendant “to go into a
downward spiral.”
On appeal, defendant complains that Neve did not
testify to the actual cost of the license or that Pamela
wrote a check for one. Defendant did not object and request an admonition. As such, he has forfeited the
claim challenging this testimony. (People v. Mitcham
(1992) 1 Cal.4th 1027, 1052.)
(5) Other statements
Finally, for the first time on appeal, defendant
challenges other statements in the prosecution’s closing argument including comments that Moya does not
know Mercedes and would not kill Pamela on

App. 98
Mercedes’s behalf if “he doesn’t think that she can pay
up.” Defendant also objects to the imagined telephone
conversations and texts between Moya and defendant
after Pamela was killed. Finally, he objects that the evidence regarding the state of Mercedes’s finances or
what Moya knew about her finances was not in the record and that the “invented” conversations between defendant and Moya were wholly outside the record.
Defendant has forfeited the challenges to the statements based on his failure to timely object and seek an
admonition below. “`The [prosecutor’s] misstatements,
although bearing a potential for prejudice, were not so
extreme or so divorced from the record that they could
not have been cured by prompt objections and admonitions.’ ” (People v. Dennis, supra, 17 Cal.4th at p. 521.)
B. Penalty Phase
1. Evidentiary Rulings
a. Admission of Letter Written by Pamela
As victim impact evidence, the prosecution questioned Pamela’s daughter, Desiree, about how the loss
of her mother has affected her life. The prosecution
sought to have Desiree read a letter purportedly written from her mother to both Desiree and J.F. To establish foundation, the prosecution explained the letter
was found with Pamela’s personal property in a storage shed available only to Pamela. Desiree had not yet
seen the letter. Though initially sustaining defendant’s
objection that the letter was more prejudicial than

App. 99
probative, the trial court later permitted Desiree to
read the letter.
The letter dated July 7, 2006 was read into the record: “To my dear sweet baby girls. Please hear me and
know that I am forever with you. You are the fruit of
my labor in this life and I am so proud of you both. Listen for my voice to guide you. I want so much to hold
you in my arms and kiss your sweet faces for eternity.
Please keep my family together with gentle love and
understanding. You are all that exists for me now.
Never abandon. Family is truly the only thing that is
important. Protect each other at all costs. Love you
with all my being. Mamma.” During her direct testimony, Desiree read the letter in front of the jury. When
the prosecution asked what Desiree thought as she
looked into the future without her mother, she responded: “[I]t saddens me and depresses me, and it not
only affects mine and [J.F.]’s life and everyone involved
right now, but it affects our future families.” The prosecution also referred to the letter in its closing argument.
On appeal, defendant again argues that the letter
was inadmissible hearsay and that the prosecution impermissibly “used the emotional letter as substantive
evidence in closing arguments.” We conclude the letter
was properly admitted to show the effect of Pamela’s
death on her daughter. (People v. Cruz (2008) 44
Cal.4th 636, 682.)
“Unless it invites a purely irrational response
from the jury, the devastating effect of a capital crime

App. 100
on loved ones and the community is relevant and admissible as a circumstance of the crime under section
190.3, factor (a).” (People v. Lewis and Oliver (2006) 39
Cal.4th 970, 1056-1057.) The letter, which was clearly
intended to be given to the girls on their mother’s
death, “demonstrated the relationship lost” as a result
of Pamela’s murder. (People v. Verdugo, supra, 50
Cal.4th at p. 299 [“Victim impact evidence is emotionally moving by its very nature, but that fact alone does
not make it improper”].)
b. Admission of Photographs of Pamela’s
Gravesite
During Desiree’s testimony, the prosecution
showed her a picture of her kneeling over her mother’s
casket and kissing it goodbye. Before Desiree testified,
the prosecution had asked the trial court to rule on the
admissibility of two photographs from Pamela’s
gravesite, which Desiree herself provided to the prosecution. The trial court allowed the two photographs, rejecting defense counsel’s argument that the
photographs were incendiary and cumulative. The two
photographs were properly admitted and not unduly
emotional. (See People v. Suff (2014) 58 Cal.4th 1013,
1076 [four photos of children leaving notes at mother’s
grave admissible as “evidence of the impact her death
had on them”]; see also People v. Zamudio (2008) 43
Cal.4th 327, 368 [photo of victim’s gravesite admissible
“as ‘further evidence relating to her death and the effect upon her family’ ”].)

App. 101
c. Exclusion of defendant’s mitigating evidence
To present a “full scope of the family’s life” and
show that defendant had at one time loved Pamela, defense counsel sought to elicit testimony from defendant’s high school friend, Melanie Jackman. Defense
counsel asked Jackman if defendant had called her for
advice on how to make Pamela happy. The trial court
sustained the prosecution’s hearsay objection.
Even assuming the trial court erred in excluding
this evidence, any error was harmless. (See People v.
McDowell (2012) 54 Cal.4th 395, 434 [improper exclusion of evidence at penalty phase subject to harmless
error analysis].) It is likely that the jury would have
given little weight to Jackman’s testimony. The prosecution impeached Jackman’s credibility by refuting her
assertion that defendant had never said anything negative about Pamela; the prosecution showed Jackman
e-mails defendant had sent to her, in which he called
Pamela a “sociopathic-lying-money-grubbing whore”
and a “Super-Bitch.”
2. Prosecutorial Misconduct at Penalty Phase
Defendant raises two claims of prosecutorial misconduct at the penalty phase, i.e., improperly appealing to the jury’s emotions during closing argument and
arguing facts not in evidence. “ ‘ “The same standard
applicable to prosecutorial misconduct at the guilt
phase is applicable at the penalty phase. [Citation.] A
defendant must timely object and request a curative

App. 102
instruction or admonishment.” ’ [Citation.] A defendant’s ‘failure to object and request an admonition
waives a misconduct claim on appeal unless an objection would have been futile or an admonition ineffective.’ ” (People v. Jackson (2016) 1 Cal.5th 269, 367.)
a. Improperly Appealing to the Passion and
Prejudice of the Jury During Closing Argument
During closing argument, the prosecution told the
jury that they had a choice to make, i.e., they could either show defendant mercy and not impose the death
penalty even though defendant deserves it or could impose the death penalty because it is the “appropriate”
penalty: “Do you want to be the jury that gives mercy
when he gave none? . . . [H]e’s going to ask you for
mercy when Pam Fayed had none of these?” On appeal,
defendant maintains that by suggesting that justice
and mercy are incompatible, the prosecution improperly appealed to the passions and prejudices of the jury.
Defendant forfeited the issue by failing to object to this
argument or request an admonition. We conclude it
lacks merit in any event. “We have repeatedly approved prosecutors arguing that a defendant is not entitled to mercy, and in particular arguing that whether
the defendant was merciful during the crimes should
affect the jury’s decision.” (People v. Gamache (2010) 48
Cal.4th 347, 389-390 [citing cases].)

App. 103
b. Arguing Facts Not in Evidence
During closing argument, the prosecution told the
jury that it will be instructed that it cannot consider
sympathy for defendant’s family—specifically Pamela
and defendant’s young daughter, J.F.—as a mitigating
factor in sentencing. The prosecution underscored that
defendant “cannot come in here and use his last remaining card, his daughter, and sympathy for her as a
human shield. It doesn’t work that way. You can’t kill
the child’s mother and then say, don’t make her an orphan because if you kill me, she doesn’t have anybody
left. . . . He didn’t think about [J.F.] before. He had a
cold, calculated, deliberate, brutal, vicious plan that he
set into motion. And now to hide behind her is more
cowardly than it was to dispatch your two-bit assassins
to ambush your wife in that parking lot.”
Defendant claims that the prosecution referred to
facts not in evidence because defendant never appealed to the jury on that basis. We conclude there was
no misconduct. The prosecutor’s argument was consistent with applicable law that “[t]he impact of a defendant’s execution on his or her family may not be
considered by the jury in mitigation.” (People v. Bennett
(2009) 45 Cal.4th 577, 601.) To the extent the prosecution referred specifically to the impact on J.F., its argument was fair comment on J.F.’s tragic predicament of
being the daughter of both the victim and the murderer.
Defendant also asserts the prosecution referred to
facts outside the record by stating that Pamela “wasn’t

App. 104
just risking her own safety in cooperating; she was offering a very direct and concrete benefit to the community in her willingness to cooperate with the federal
authorities.” Defendant reiterates that there was no
evidence that Pamela was cooperating with the government and that certainly there was no evidence she
was providing some “concrete benefit” to the community. Defendant also complains that the prosecution’s
account of what Pamela’s last thoughts were (i.e., defendant “won. That’s what she’s thinking. He won. He
got me”) was not contained in the record.
There was no misconduct. While there was no evidence of a formal agreement that Pamela would cooperate with the federal government against defendant,
as the record makes clear, Pamela told her criminal defense attorney, Willingham, that she intended to testify
against defendant. The prosecution’s argument was
fair comment based on the evidence. Moreover, any
benefit that Pamela’s cooperation would give the community—arguably, because Goldfinger would no longer
provide illegal Ponzi schemes a means to launder their
money—was also fair comment. Finally, any fictional
depiction of what Pamela was thinking before she died
was within the bounds of permissible comment. (See
People v. Wash, supra, 6 Cal.4th at p. 263 [permissible
to ask jury at penalty phase “ ‘what was going through
[the] mind’ of the victim”].)

App. 105
3. Cumulative Error
Defendant argues that the cumulative effect of the
alleged guilt and penalty phase errors was prejudicial.
We have determined that one instance of prosecutorial
misconduct committed at the guilt phase (see ante, pp.
79-80) was not prejudicial. We have also assumed error
in several instances (see ante, at pp. 39, 63-64, 68, 7071, 80-81, 87), but found no error prejudicial. We are
not persuaded there was a reasonable possibility that,
absent any of these errors either alone or combined,
the jury would have reached a different verdict. (See
People v. Banks (2014) 59 Cal.4th 1113, 1208.)
4. Conflict of Interest
Though we conclude that defendant did not suffer
prejudice from the misconduct of Prosecutor Jackson
at the guilt phase, we highlight a troubling development related to this issue. Before oral argument in this
matter was set to take place, we discovered that Jackson had become a named partner at defense counsel
Mark Werksman’s law firm. Though it is unclear exactly when this partnership formed, there is no indication that Jackson joined Werksman’s firm before or at
the time defense counsel filed defendant’s opening
brief in this appeal. Our request for supplemental
briefing from the parties and the public at large, moreover, yielded no response suggesting that in light of
any conflict of interest, this court should refrain from
deciding the issues raised on appeal.

App. 106
In any event, because the partnership between
Jackson and Werksman began after defendant’s capital
trial ended, relevant facts relating to any conflict of interest issue are not part of the record. As such, we do
not address any potential conflict of interest claim
here. (See People v. Doolin (2009) 45 Cal.4th 390, 429
[“defendant has the opportunity to expand upon the
record in the context of his right to pursue a writ of
habeas corpus”].) That said, the law partnership between defense counsel and the prosecutor in this case
gives us great pause. (See Rules Prof. Conduct, rules
1.7, 1.11; Bus. & Prof. Code, § 6131, subd. (a).) We underscore that our resolution of defendant’s appellate
claims in this case does not in any way endorse or sanction this posttrial partnership.
C. Challenges to Death Penalty
Defendant makes a number of challenges to the
death penalty, all of which we have considered and rejected in the past. Because he offers no compelling reason to reconsider our long-standing precedent, we
decline to do so. We will instead dispose of each claim
without extended analysis.
“The death penalty is not unconstitutional for failing broadly to ‘adequately narrow the class of murderers eligible for the death penalty.’ ” (People v. Simon
(2016) 1 Cal.5th 98, 149.) Contrary to defendant’s
claim, we “ ‘repeatedly have held that consideration of
the circumstances of the crime under section 190.3,
factor (a) does not result in arbitrary or capricious

App. 107
imposition of the death penalty.’ ” (People v. Brasure
(2008) 42 Cal.4th 1037, 1066.) Nor is the death penalty
unconstitutional for not requiring “findings beyond a
reasonable doubt that an aggravating circumstance
(other than Pen. Code, § 190.3, factor (b) or factor (c)
evidence) has been proved, that the aggravating factors outweighed the mitigating factors, or that death is
the appropriate sentence.” (People v. Rangel (2016) 62
Cal.4th 1192, 1235.) This conclusion, moreover, is not
undermined by the high court’s decisions in Cunningham v. California (2007) 549 U.S. 270, Blakely v. Washington (2004) 542 U.S. 296, Apprendi v. New Jersey
(2000) 530 U.S. 466, or Ring v. Arizona (2002) 536 U.S.
584. (People v. Rangel, at p. 1235.)
The trial court is not required to instruct the jury
that there is no burden of proof at the penalty phase.
(People v. Streeter (2011) 52 Cal.4th 610, 268.) Nor does
the trial court’s failure to instruct that there is a
“ ‘ “presumption of life” ’ ” violate a defendant’s constitutional rights to due process, to be free from cruel and
unusual punishment, to a reliable determination of his
or her sentence, and to equal protection of the laws under the Fifth, Eighth, and Fourteenth Amendments to
the federal Constitution. (People v. Cage (2015) 62
Cal.4th 256, 293.)
“The death penalty is not unconstitutional for failing to require that the jury base any death sentence on
written findings.” (People v. Elliot (2005) 37 Cal.4th
453, 488.) “The phrase ‘whether or not’ in section 190.3,
factors (d)-(h) and (j) does not unconstitutionally suggest that the absence of a mitigating factor is to be

App. 108
considered as an aggravating circumstance.” (People v.
Wall (2017) 3 Cal.5th 1048, 1073.) “ ‘We have consistently held that unanimity with respect to aggravating
factors is not required by statute or as a constitutional
procedural safeguard.’ ” (Ibid.)
“Use in the sentencing factors of such adjectives
as ‘extreme’ (§ 190.3, factors (d), (g)) and ‘substantial’
(id., factor (g)) does not act as a barrier to the consideration of mitigating evidence in violation of the federal Constitution.” (People v. Avila (2006) 38 Cal.4th
491, 614-615.) Nor does the use of unadjudicated offenses under section 190.3, factor (b) in capital proceedings, but not in noncapital matters, violate the
equal protection clause or due process principles. (People v. Delgado (2017) 2 Cal.5th 544, 591.)
The equal protection clause does not require that
the state’s capital sentencing scheme provide the same
procedural protections provided to noncapital defendants. (People v. Henriquez (2017) 4 Cal.5th 1, 46.) Nor
does the federal Constitution require intercase proportionality review. (Ibid.)
“International norms and treaties do not render
the death penalty unconstitutional as applied in this
state.” (People v. Simon, supra, 1 Cal.5th at p. 150.) We
have consistently found that “there are no constitutional or international law infirmities in the death penalty law. . . .” (People v. Weaver (2012) 53 Cal.4th 1056,
1093.)

App. 109
CONCLUSION
We affirm the judgment.
CHIN, J.
We Concur:
CANTIL-SAKAUYE, C. J.,
CORRIGAN, J.,
LIU, J.,
CUÉLLAR, J.,
KRUGER, J.
GROBAN, J.

App. 110
EXHIBIT B
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
WESTERN DIVISION
UNITED STATES
OF AMERICA,
PLAINTIFF,
VS.
JAMES MICHAEL
FAYED,
DEFENDANT.

)
)
)
)
)
)
)
)
)

CASE NO.
CR 08-224-PSG
LOS ANGELES,
CALIFORNIA
AUGUST 4, 2008
(3:01 P.M. TO 3:05 P.M.)
(3:58 P.M. TO 4:16 P.M.)
(4:28 P.M. TO 5:24 P.M.)

INITIAL APPEARANCE/DETENTION HEARING
BEFORE THE HONORABLE RALPH ZAREFSKY
UNITED STATES MAGISTRATE JUDGE
APPEARANCES:

SEE NEXT PAGE

COURT REPORTER: RECORDED; COURT SMART
COURTROOM
DEPUTY:
TRANSCRIBER:

ILENE BERNAL
DOROTHY BABYKIN
COURTHOUSE SERVICES
1218 VALEBROOK PLACE
GLENDORA, CALIFORNIA
91740
(626) 963-0566

App. 111
[2] FOR THE
PLAINTIFF:

FOR THE
DEFENDANT:

THOMAS P. O’BRIEN
UNITED STATES
ATTORNEY
BY: CHRISTINE C. EWELL
CHIEF, CRIMINAL
DIVISION
ASSISTANT UNITED
STATES ATTORNEY
BY: MARK AVEIS
ASSISTANT UNITED
STATES ATTORNEY
312 NORTH SPRING STREET
LOS ANGELES, CALIFORNIA
90012
LAW OFFICES OF
MARK J. WERKSMAN
BY: MARK J. WERKSMAN
ATTORNEY AT LAW
888 WEST SIXTH STREET
FOURTH FLOOR
LOS ANGELES, CALIFORNIA
90017

App. 112
[3] INDEX
CASE NO. CR 08-224-PSG

AUGUST 4, 2008

PROCEEDINGS: INITIAL APPEARANCE/
DETENTION HEARING.
TIM SWEC, GOVERNMENT WITNESS:

PAGE

DIRECT EXAMINATION BY MR. AVEIS
21
CROSS-EXAMINATION BY MR. WERKSMAN 22

[4] LOS ANGELES, CALIFORNIA, MONDAY, AUGUST 4, 2008; 3:01 P.M.
THE COURT: LET’S PROCEED THEN TO
THE AFTERNOON MATTERS. AND BEFORE WE
CALL THOSE CASES, I WANT TO ADVISE THE DEFENDANTS WHO ARE PRESENT ON THOSE MATTERS OF THEIR RIGHTS IN CONNECTION WITH
THESE PROCEEDINGS.
EACH OF YOU IS HERE TODAY BECAUSE
YOU’RE CHARGED WITH A CRIME AGAINST THE
UNITED STATES OR WITH A PROBATION VIOLATION OR A VIOLATION OF THE CONDITIONS OF
YOUR SUPERVISED RELEASE.
YOU HAVE CERTAIN RIGHTS UNDER THE
FEDERAL STATUTES AND THE UNITED STATES
CONSTITUTION. AND I WANT TO EXPLAIN
THOSE TO YOU. I ASK YOU THAT YOU LISTEN
CAREFULLY.

App. 113
YOU HAVE A RIGHT TO RETAIN AND BE REPRESENTED BY AN ATTORNEY OF YOUR CHOOSING AT EACH AND EVERY STAGE OF THE
PROCEEDINGS.
IF YOU CANNOT AFFORD AN ATTORNEY,
YOU HAVE A RIGHT TO REQUEST THAT THE
COURT APPOINT ONE FOR YOU. THE APPOINTED
ATTORNEY WILL BE PAID FOR BY THE GOVERNMENT. BUT BEFORE I APPOINT COUNSEL YOU
MUST QUALIFY FOR SUCH APPOINTMENT BY
SUBMITTING A FINANCIAL AFFIDAVIT FOR MY
APPROVAL.
YOU HAVE A RIGHT TO REMAIN SILENT. ANYTHING WHICH YOU SAY, SIGN, OR WRITE MAY
BE INTRODUCED AGAINST YOU IN THIS OR IN
ANY OTHER COURT PROCEEDING.
YOU HAVE A RIGHT TO HAVE THE COURT
DETERMINE BAIL IN ACCORDANCE WITH THE
BAIL REFORM ACT OF 1984.
[5] IF THE GOVERNMENT SEEKS TO HAVE
YOU HELD IN CUSTODY, THEN, YOU HAVE THE
RIGHT TO A HEARING TODAY, THE FIRST DATE
OF YOUR APPEARANCE OR WITHIN THREE TO
FIVE DAYS OF THE FIRST DATE OF YOUR APPEARANCE IF EITHER SIDE REQUESTS A CONTINUANCE AND I GRANT THE REQUEST.
IF YOU ARE DETAINED IN CUSTODY, YOU
HAVE A RIGHT TO HAVE THAT DECISION BE REVIEWED BY THE CRIMINAL DUTY JUDGE OR

App. 114
OTHER DISTRICT COURT JUDGE WHO MAY BE
ASSIGNED TO YOUR CASE.
YOU MAY BE PRESENT IN ALL SUBSEQUENT
HEARINGS REGARDING YOUR DETENTION OR
REGARDING ANY CHANGE IN CONDITIONS
WHICH ARE SET FOR YOUR RELEASE.
IF YOUR CASE BEGINS WITH A COMPLAINT,
YOU HAVE A RIGHT TO A PRELIMINARY HEARING OR TO HAVE THE CASE PRESENTED TO THE
GRAND JURY WITHIN TEN DAYS OF TODAY’S
DATE IF YOU’RE IN CUSTODY AND 20 DAYS IF
YOU ARE RELEASED.
IN A PRELIMINARY HEARING THE GOVERNMENT PRESENTS ITS EVIDENCE, AND THEN
THE COURT DECIDES WHETHER THERE IS
PROBABLE CAUSE TO BELIEVE THE OFFENSE
CHARGED HAS BEEN COMMITTED AND THAT
YOU HAVE COMMITTED IT.
IF PROBABLE CAUSE IS NOT FOUND, THE
MATTER WILL BE DISMISSED. IF PROBABLE
CAUSE IS FOUND, YOU WILL BE REQUIRED TO
ENTER A PLEA TO THE CHARGES.
YOU HAVE RECEIVED OR YOU WILL RECEIVE A COPY OF THAT COMPLAINT AND THE
AFFIDAVIT IN SUPPORT OF THE COMPLAINT.
IF YOU’RE BEFORE THE COURT ON AN INDICTMENT FROM [6] THIS DISTRICT, THEN,
YOUR ARRAIGNMENT AND YOUR PLEA WILL
TAKE PLACE NEXT MONDAY. TODAY THE COURT

App. 115
WILL APPOINT COUNSEL IF YOU’RE NOT REPRESENTED AND ADVISE YOU OF THE NATURE OF
THE CHARGES.
THERE IS ONE MATTER I KNOW ON THIS AFTERNOON WHICH ARISES OUT OF A DIFFERENT
DISTRICT, THE SOUTHERN DISTRICT. AND
SINCE THAT IS A VIOLATION OF SUPERVISED
RELEASE, IT HAS CERTAIN SPECIAL CONDITIONS ATTACHED TO IT, AND I’LL TAKE THOSE
UP AT THE TIME THAT WE CALL THE MATTER.
I DO WANT TO REMIND THE ASSISTANT
UNITED STATES ATTORNEY THAT IF THERE ARE
ANY ALIENS IN CUSTODY, THAT THE UNITED
STATES ATTORNEY SHALL GIVE NOTIFICATION
TO THE CONSULATE OF ANY TREATY OBLIGATIONS THAT ARE REQUIRED.
ALSO, I’M DIRECTING THE ASSISTANT
UNITED STATES ATTORNEY TO ENSURE THAT
CRIME VICTIMS ARE NOTIFIED OF THE JUSTICE
FOR ALL ACT AND OF ANY RIGHTS UNDER THAT
STATUTE.
ALL RIGHT. LET’S GO AHEAD AND CALL THE
CALENDAR.
(PROCEEDINGS IN UNRELATED MATTERS
HELD.)
THE CLERK: CASE NUMBER CR 08-2241, UNITED STATES OF AMERICA VERSUS JAMES
MICHAEL FAYED.

App. 116
COUNSEL, PLEASE MAKE YOUR APPEARANCES.
MR. AVEIS: GOOD AFTERNOON, YOUR
HONOR. MARK AVEIS FOR THE GOVERNMENT.
THE COURT:

GOOD AFTERNOON.

MR. WERKSMAN: GOOD AFTERNOON,
YOUR HONOR.
[7] MARK WERKSMAN APPEARING ON BEHALF OF THE DEFENDANT
THE COURT:

GOOD AFTERNOON.

MR. WERKSMAN: – JAMES FAYED.
THE COURT:
WERKSMAN?
MR.

YOU’RE RETAINED, MR.

WERKSMAN:

I

AM,

YOUR

HONOR.
THE COURT:

ALL RIGHT.

SIR, IS JAMES MICHAEL FAYED YOUR TRUE
AND CORRECT NAME?
THE DEFENDANT:

YES, SIR.

THE COURT: HAVE YOU SEEN A COPY
OF THE INDICTMENT FROM THIS DISTRICT
CHARGING YOU WITH AN OFFENSE AGAINST
THE UNITED STATES?
THE DEFENDANT:

YES, SIR.

App. 117
THE COURT: I’M NOT ASKING YOU TO
ADMIT OR DENY ANYTHING IN THAT DOCUMENT.
DO YOU UNDERSTAND
AGAINST YOU?
THE DEFENDANT:

THE

CHARGES

YES, SIR.

THE COURT: MR. WERKSMAN, HAVE
YOU SEEN THE GOVERNMENT’S REQUEST FOR
DETENTION?
MR.
HONOR.

WERKSMAN:

THE COURT:
PROCEED WITH IT?

I

HAVE,

YOUR

ARE YOU PREPARED TO

MR. WERKSMAN: I AM, YOUR HONOR.
THE COURT: MR. AVEIS, WHAT DOES
THE GOVERNMENT PROFFER?
[8] MR. AVEIS: THE GOVERNMENT PROFFERS THE FOLLOWING, YOUR HONOR.
THE GOVERNMENT PROFFERS THE INDICTMENT IN THIS CASE, WHICH WAS FILED UNDER
SEAL ON OR ABOUT FEBRUARY 26, 2008, AND
UNSEALED ON OR ABOUT AUGUST 1ST, 2008 BY
JUDGE ROSENBERG.
THE INDICTMENT CHARGES A SINGLE
COUNT OF 18 USC SECTION 1960, OPERATING AN

App. 118
UNLICENSED MONEY TRANSMITTING BUSINESS.
THE GOVERNMENT ALSO PROFFERS THE
PRETRIAL SERVICES ADMINISTRATION REPORT.
AND THE GOVERNMENT PROFFERS THE
TESTIMONY OF FBI SPECIAL AGENT TIM SWEC,
S-W-E-C, OR IF HE WAS CALLED WOULD SAY THE
FOLLOWING, YOUR HONOR.
THAT THE VICTIM IN THE MURDER THAT
OCCURRED ON JULY 28TH, 2008 IN CENTURY
CITY, PAMELA FAYED, WAS THE WIFE OF THE
DEFENDANT. THEY WERE ESTRANGED PURSUANT TO A DIVORCE PROCEEDING THAT WAS
FILED IN VENTURA COUNTY IN OR ABOUT OCTOBER 2007.
PAMELA FAYED WAS KILLED AFTER SHE ATTENDED A MEETING WITH HER ATTORNEY. ATTENDING
THE
MEETING
WERE
THE
DEFENDANT AND HIS ATTORNEY AS WELL. THE
ATTORNEYS HAD BEEN RETAINED TO REPRESENT PAMELA FAYED AND JAMES FAYED RESPECTIVELY IN CONNECTION IN PART WITH
THE FEDERAL CRIMINAL INVESTIGATION THAT
RESULTED IN THE INDICTMENT THAT I’VE [9]
IDENTIFIED IN THIS CASE.
PAMELA FAYED WAS KILLED BY A PERPETRATOR WHO WAS LYING IN WAIT IN A PARKING
STRUCTURE IN CENTURY CITY. THERE WAS NO

App. 119
EVIDENCE OF AN ATTEMPTED CAR-JACKING OR
OF A ROBBERY.
THE SUBJECT VEHICLE FROM WHICH THE
ASSAILANT EMERGED WAS CAPTURED ON SURVEILLANCE VIDEO IN THAT PARKING STRUCTURE. THE SURVEILLANCE VIDEO IDENTIFIED
A LICENSE PLATE. THAT LICENSE PLATE WAS
TRACED TO A CAR THAT HAD BEEN RENTED IN
CAMARILLO AT AVIS RENT-A-CAR AT A LOCATION NOT FAR FROM THE DEFENDANT’S BUSINESS USING A CREDIT CARD IN THE
DEFENDANT’S NAME AND IN THE NAME OF
GOLDFINGER COIN AND BULLION, WHICH I
NOTE PURSUANT TO THE PRETRIAL SERVICES
REPORT, IS A BUSINESS THAT THE DEFENDANT
TOLD PRETRIAL THAT HE IS THE OWNER AND
OPERATOR OF.
THAT SAME CREDIT CARD WAS FOUND DURING A SEARCH OF THE DEFENDANT IN HIS WALLET BY THE LAPD EARLIER THIS WEEK –
EXCUSE ME – LAST WEEK.
PURSUANT TO A SEARCH WARRANT SERVED
ON THE DEFENDANT’S RESIDENCE, APPROXIMATELY $60,000 IN CASH WAS FOUND IN WHAT
APPEARS TO BE HERMETICALLY SEALED WRAPPING MATERIAL.
A FRIEND OF THE VICTIM HAD TOLD THE
LAPD THAT THE DEFENDANT – EXCUSE ME –
THAT THE VICTIM HAD SAID THE DEFENDANT
HAD BURIED CASH ON HIS PREMISES. I NOTE

App. 120
THE PREMISES IS A REMOTE LOCATION IN
MOORPARK ON WELL OVER A [10] HUNDRED
ACRES ACCESSIBLE ONLY BY A SINGLE ROAD.
OFFICERS DURING THE SEARCH ALSO FOUND
$3 MILLION IN GOLD BULLION.
DURING THE COURSE OF THAT SAME
SEARCH THE DEFENDANT REACHED INTO A
SAFE TO GRAB HIS PASSPORT, SAID HE NEEDED
TO SEE THAT PASSPORT. HE WAS ALLOWED TO
LOOK AT THE PASSPORT. HE LOOKED AT IT AND
NOTICED – HE NOTICED IT HAD HIS PICTURE
AND HIS NAME. HE SIGHED AND HUNG HIS
HEAD.
AN INDIVIDUAL INTERVIEWED BY LAW ENFORCEMENT AUTHORITIES WHO WAS A FRIEND
OF THE VICTIM SAID THAT THE VICTIM HAS
SAID THAT JAMES FAYED, THIS DEFENDANT,
HAD A PASSPORT WITH THAT SAME PICTURE
BUT WITH A DIFFERENT NAME.
FURTHERMORE, PAMELA FAYED, THE VICTIM IN THE MURDER THAT OCCURRED LAST
WEEK, RECENTLY TOLD A CLOSE FRIEND THAT
THE DEFENDANT HAD TOLD HER HE WANTED
TO SETTLE EVERYTHING, THAT IS, RELATING
TO THE DIVORCE CASE THAT I MENTIONED WAS
FILED IN OR ABOUT OCTOBER OF 2007, BECAUSE THE LAWYERS WERE COSTING HIM A
LOT OF MONEY, AND THAT HE WANTED TO
MEET WITH THE VICTIM AND DID SO ON OR
ABOUT JULY 15TH.

App. 121
THE VICTIM TOLD A FRIEND THAT DURING
THAT MEETING THE DEFENDANT TOLD THE
SOON-TO-BE VICTIM OF THE MURDER, I COULD
HAVE YOU KILLED, AND MY HANDS WOULD BE
CLEAN. AND PATTED HIS HANDS IN THAT MANNER.
DURING THE SEARCH OF THE DEFENDANT’S HOUSE BY LAPD LAST WEEK APPROXIMATELY 20 TO 25 ASSAULT RIFLES AND OTHER
FIREARMS WERE FOUND ALONG WITH THOUSANDS OF ROUNDS OF [11] MATCHING AMMUNITION IN A SAFE.
ALL OF THOSE WEAPONS APPEAR TO BE LEGAL AND, THEREFORE, WOULD BE ACCESSIBLE
BY THIS INDIVIDUAL IF HE WERE RELEASED.
FURTHERMORE, YOUR HONOR, AS I INDICATED, THE MEETING THAT HAD OCCURRED
ON JULY 28, 2008 IN CENTURY CITY IN THE LATE
AFTERNOON WAS, AGAIN, BETWEEN THIS DEFENDANT, HIS COUNSEL IN HIS CRIMINAL
CASE, THAT IS, HIS FEDERAL CRIMINAL CASE,
THE SOON-TO-BE VICTIM PAMELA FAYED AND
HER LAWYER AT THAT TIME.
PRIOR TO THAT TIME IN CONNECTION WITH
THE FAMILY LAW CASE PENDING IN VENTURA
COUNTY A MEETING BEFORE AN APPOINTED
JUDGE HAD BEEN SET FOR JULY 29 AT 11:00 A.M.
THAT WOULD HAVE BEEN THE NEXT DAY. PAMELA FAYED WAS MURDERED AT APPROXIMATELY 6:35 P.M. ON JULY 28TH. SO, LESS THAN

App. 122
24 HOURS LATER THE MEETING WAS TO OCCUR
WITH A JUDGE IN RELATION TO THE FAMILY
LAW MATTER THAT WOULD RELATE TO THE DEFENDANT’S, THIS DEFENDANT’S, REQUIRED
DISCLOSURE OF BUSINESS RECORDS.
THE BUSINESS RECORDS WOULD RELATE
TO HIS BUSINESS THAT HE’S CLAIMED, PURSUANT TO HIS STATEMENT TO PRETRIAL, THAT HE
OWNS AND OPERATES. AND HE HAD BEEN RESISTING TURNING OVER THOSE BUSINESS RECORDS IN AN EFFORT TO ENSURE THAT THE
VICTIM PAMELA FAYED DID NOT GET HER
SHARE OF THE ESTATE, THAT IS, THE MARITAL
DISSOLUTION.
FURTHERMORE. WITHIN THE LAST 30 TO 45
DAYS BUSINESS [12] SERVERS THAT ARE USED
TO CAPTURE THE DIGITAL INFORMATION RELATED TO THE DEFENDANT’S BUSINESS IN
CAMARILLO WERE MOVED OFFSHORE.
DURING A SEARCH OF THE BUSINESS IN
THE WEE HOURS OF SATURDAY, AUGUST 2ND,
THERE WAS A RACK OF SERVERS, COMPUTER
SERVERS THAT WERE – WAS FOUND, AND THE
SERVERS APPEAR TO HAVE NOT BEEN USED OR
HAD BEEN DISCONNECTED.
FURTHER EVIDENCE INDICATES THAT
SERVERS PRIOR TO THIS 30- TO 45-DAY PERIOD
THAT I’VE MENTIONED HAD BEEN LOCATED
SOMEWHERE IN TEXAS. BUT WITHIN THE LAST
30 TO 45 DAYS THOSE SERVERS, OR THE USE OF

App. 123
THE SERVER RACK AND SERVERS WAS LOCATED OFFSHORE TO THE UK, INDICATING, IF
YOU WILL, A PROGRESSION FROM THE RETENTION OF DIGITAL INFORMATION HERE IN CAMARILLO, WHICH WOULD BE EASILY ACCESSIBLE
BY LAW ENFORCEMENT, TO DALLAS WHERE IT
COULD BE NOT SO EASILY, BUT SIMILARLY, I
GUESS, ACCESSIBLE BY LAW ENFORCEMENT,
TO THE UK, WHERE IT WOULD BE VIRTUALLY
INACCESSIBLE OR IT WOULD BE DIFFICULT TO
ACCESS BY FEDERAL LAW ENFORCEMENT.
FINALLY, YOUR HONOR, THIS FEDERAL
CRIMINAL INVESTIGATION COMMENCED WITH
INVESTIGATION INTO TWO PONZI SCHEMES,
TRUE VENTURES AND SOLID INVESTMENTS, IN
OR ABOUT 2005 AND 2006. VICTIMS OF THOSE
PONZI SCHEMES INVESTED OVER $20 MILLION.
ALL OF THEIR MONEY WAS ROUTED THROUGH
BANK ACCOUNTS CONTROLLED AND OWNED
BY GOLDFINGER COIN AND BULLION OVER
WHICH THIS DEFENDANT AND THE VICTIM OF
THE MURDER WERE [13] THE SIGNATORIES.
THE FUNDS WENT INTO THOSE ACCOUNTS,
WERE MOVED TO VARIOUS OTHER ACCOUNTS
CONTROLLED BY THIS DEFENDANT, AND OUT
TO THE APPARENT OPERATORS OF THE PONZI
SCHEME AS WELL AS POTENTIALLY THIS DEFENDANT IN THE OFFSHORE ACCOUNTS IN THE
NETHERLANDS, ANTILLES, AND ELSEWHERE.

App. 124
THAT IS MY PROFFER. AND I WILL DEFER
FOR MY ARGUMENT.
THANK YOU.
THE COURT: ALL RIGHT. MR. WERKSMAN, LET’S JUST TAKE IT STEP BY STEP FOR
THE MOMENT.
YOU ACCEPT THE PROFFER OF THE INDICTMENT I ASSUME?
MR. WERKSMAN: ACCEPT THE INDICTMENT, THAT’S CORRECT, YOUR HONOR.
THE COURT:
PRETRIAL REPORT?

NOW, WHAT ABOUT THE

MR. WERKSMAN: WELL, THE PRETRIAL
REPORT HAS NUMEROUS ERRORS, YOUR
HONOR, THAT I’D LIKE TO POINT OUT TO THE
COURT. IF YOU WANT TO DO THAT IN THIS ORDER –
THE COURT:

NO, I DON’T DO IT.

MR. WERKSMAN: THE FACTUAL BIOGRAPHICAL INFORMATION IS CORRECT, YOUR
HONOR. THERE ARE A COUPLE OF CONCLUSIONS DRAWN AND ALLEGATIONS MADE
WHICH I DISPUTE.
BUT WE ADOPT THE BASIC BIOGRAPHICAL
INFORMATION.

App. 125
THE COURT: ALL RIGHT. THE FACTUAL
MATTERS IN THE PRETRIAL REPORT YOU DO
NOT DISPUTE?
[14] MR. WERKSMAN: THAT’S CORRECT.
WITH THE EXCEPTION, FOR EXAMPLE, WHEN
THE PRETRIAL REPORT ASSERTS THAT APPROXIMATELY 20 TO 25 ASSAULT RIFLES AND OTHER
FIREARMS WERE FOUND IN HIS SAFE, IN FACT,
THERE WERE EIGHT LONG GUNS, NOT ASSAULT
RIFLES, BUT LONG GUNS AND THEN A NUMBER
OF OTHER – HANDGUNS.
THERE’S A DIFFERENCE BETWEEN TELLING A JUDGE THERE ARE 20 TO 25 ASSAULT RIFLES AND TELLING A JUDGE, WELL, WE FOUND
EIGHT LONG GUNS AND SOME HANDGUNS. THE
FORMER IS A LITTLE MORE EXPLOSIVE AND
MORE PREJUDICIAL, INFLAMMATORY.
AND, SO, WE WOULD OBJECT TO THE CHARACTERIZATION OF HIS –
THE COURT:

ALL RIGHT. WELL, LET ME

JUST –
MR. WERKSMAN: – HIS GUN COLLECTION –
THE COURT:

JUST A MOMENT.

MR. AVEIS, DO YOU AGREE THAT THERE
WERE EIGHT LONG GUNS AND SOME HANDGUNS AND THAT THERE WERE NO ASSAULT RIFLES?

App. 126
MR. AVEIS:
THE COURT:
MR. AVEIS:
SEEN THEM.
THE COURT:

I DO NOT. BECAUSE –
ALL RIGHT.
– I HAVEN’T PERSONALLY
OKAY. ALL RIGHT.

NOW, MR. WERKSMAN, MR. AVEIS GAVE A
LONG RECITATION OF WHAT THE FEDERAL
AGENT WOULD TESTIFY TO IF CALLED.
MR. WERKSMAN: I’M GOING TO OBJECT TO THAT, YOUR HONOR –
[15] THE COURT:

THOUGHT SO.

MR. WERKSMAN: – ON THE FOLLOWING BASIS. AS THE PROSECUTOR WAS SPEAKING, I WAS LOOKING AROUND TO SEE IF I WAS
IN FEDERAL COURT OR IF I WAS IN DIVISION 30
AT THE CRIMINAL COURTS BUILDING AT AN ARRAIGNMENT –
THE COURT: SAVE YOUR ARGUMENT.
ALL I NEED TO KNOW IS WHETHER YOU AGREE
TO THE FACTS THAT HE STATED.
MR. WERKSMAN: NO, YOUR HONOR.
THE COURT:

ALL RIGHT.

MR. WERKSMAN: I BELIEVE THE PROSECUTOR HAS RECITED
THE COURT:

OKAY.

App. 127
MR. WERKSMAN: – UNCORROBORATED
HEARSAY. HE’S PROFFERED NO SPECIFIC FACTS
OR EVIDENCE TO THIS COURT OR TO DEFENSE
COUNSEL REGARDING ANY OF THESE ALLEGATIONS.
THE COURT: MR. WERKSMAN, ALL I
NEEDED WAS YES OR NO.
MR. WERKSMAN: THE ANSWER THEN
IS, YES, YOUR HONOR, I OBJECT TO THE FACTUAL BASIS.
THE COURT: ALL RIGHT. NOW, HOW
LONG WOULD YOU ANTICIPATE THE TESTIMONY OF THIS AGENT WILL TAKE, MR. AVEIS?
MR. AVEIS: I THINK THAT MAY VERY
WELL BE A FUNCTION OF HOW LONG THE
CROSS-EXAMINATION MAY BE, HOW LONG IT –
THE COURT: WELL, LET’S PUT IT THIS
WAY, MR. [16] WERKSMAN. WOULD YOU AGREE
THAT MR. AVEIS’ RECITATION COULD STAND AS
THE DIRECT TESTIMONY OF THE AGENT?
MR. WERKSMAN: I WOULD, YOUR
HONOR, BUT I WOULD ALSO ASK THE COURT –
THE COURT: ALL RIGHT. SO THAT ALL
WE WOULD NEED IS YOUR CROSS-EXAMINATION.
AND I TURN TO YOU AND ASK FOR AN ESTIMATE OF HOW LONG IT WILL TAKE YOU TO
CROSS-EXAMINE.

App. 128
MR. WERKSMAN: WELL, YOUR HONOR –
THE COURT: WE HAVE ANOTHER MATTER. I’M TRYING TO FIGURE OUT HOW TO HANDLE THIS.
MR. WERKSMAN: WOULD THE COURT
ALLOW ME TO CROSS-EXAMINE THE AGENT AT
THIS TIME? IS HE HERE? IS HE PRESENT?
THE COURT:

HE IS.

MR. WERKSMAN: MAY I HAVE A MOMENT WITH COUNSEL?
THE COURT:

YES.

MR. WERKSMAN: IN FACT, YOUR HONOR,
DOES THE COURT WANT TO PASS THIS MATTER?
DOES THE COURT HAVE ONE MORE MATTER?
THE COURT: I DO HAVE ONE MORE
MATTER. I’M TRYING TO GET A HANDLE ON HOW
LONG THIS ONE IS GOING TO TAKE.
MR. WERKSMAN: IF I COULD HAVE A
MOMENT WITH THE PROSECUTOR?
THE COURT:

YES.

[17] (COUNSEL CONFERRING.)
MR. WERKSMAN: YOUR HONOR, I
WOULD REQUEST APPROXIMATELY A HALF AN
HOUR TO CROSS-EXAMINE THE AGENT, IF I MAY,
JUST TO CLARIFY WHAT HE’LL BE TESTIFYING
ABOUT. I BELIEVE THAT THE FBI AGENT IS NOT

App. 129
PERSONALLY INVOLVED IN THE MURDER INVESTIGATION HIMSELF, BUT, RATHER, HE IS
GIVING EVIDENCE THAT HE’S BEEN TOLD BY
LOS ANGELES POLICE DETECTIVES.
IS THAT CORRECT?
THE COURT: NO. WAIT, WAIT, WAIT. WE
DON’T DO IT THAT WAY IN THIS COURT, MR.
WERKSMAN. WE DON’T HAVE ATTORNEYS ASKING EACH OTHER QUESTIONS IN FRONT OF THE
COURT.
MR. WERKSMAN: I THINK, YOUR
HONOR, IF THE AGENT IS MERELY RECITING
WHAT HE’S BEEN TOLD –
THE COURT: WE’RE GOING TO DO THIS.
WE’RE NOT GOING TO LET HIS PROFFER STAND.
WE’RE GOING TO HAVE HIM TESTIFY, AND THAT
WAY THERE WON’T BE ANY QUESTION AS TO
WHO SAYS WHAT. ALL RIGHT.
MR. WERKSMAN: YOUR HONOR, I –
THE COURT: NO, NO, NO. WE’RE GOING
TO GET A CLEAN RECORD ON THIS.
SO, I THINK WE’RE LOOKING AT CONSIDERABLY MORE THAN HALF AN HOUR. AND NOW
THE QUESTION IS WHETHER WE DO IT TODAY
OR WHETHER WE DO IT TOMORROW.
MR. AVEIS: MAY I ADD SOMETHING,
PLEASE. MAY I ASK [18] WHETHER I CAN CONFER WITH COUNSEL. AND IF I SEE WHERE HE’S

App. 130
GOING, PERHAPS WE CAN REACH A STIPULATION. IF IN FACT THE AGENT IS SIMPLY GOING
TO TESTIFY ABOUT WHAT OTHERS SAID, AND
COUNSEL IS WILLING TO ACCEPT THAT STIPULATION, HE MAY HAVE NOTHING TO ASK.
MR. WERKSMAN: YOUR HONOR, THAT’S
WHAT I WAS DRIVING AT, YOUR HONOR. I THINK
MY CROSS-EXAMINATION WILL BE VERY BRIEF
IF, IN FACT, THE AGENT IS GOING TO BE TESTIFYING ABOUT REPRESENTATIONS MADE TO
HIM FROM THE LOS ANGELES POLICE DEPARTMENT. THAT SIMPLY IS MY QUESTION. IF THAT’S
THE CASE, I WOULD LIKE AN OPPORTUNITY TO
CROSS-EXAMINE HIM. BUT I THINK THE CROSSEXAMINATION WILL BE RELATIVELY BRIEF IN
THAT CASE.
THE COURT: ALL RIGHT. IN EITHER
EVENT I THINK WHAT WE’RE GOING TO DO IS –
WELL, FIRST, I’M GOING TO GO AHEAD AND SET
THE MATTER FOR POST-INDICTMENT ARRAIGNMENT BECAUSE IT’S AN INDICTED CASE. SO, NO
MATTER WHAT HAPPENS WITH REGARD TO THE
DETENTION REQUEST, THE CASE WILL BE SET
FOR POST-INDICTMENT ARRAIGNMENT FOR
NEXT MONDAY.
MR. AVEIS: I BELIEVE, YOUR HONOR –
IF IT’S OKAY WITH THE COURT, WE’VE’ AGREED
AND WOULD REQUEST THAT WE GO TO AUGUST
18TH.
THE COURT:

ANY OBJECTION, MR. –

App. 131
MR. WERKSMAN: NO, YOUR HONOR.
THAT’S A DATE WE –
THE COURT: ALL RIGHT. I’M GOING TO
SET THE [19] POST-INDICTMENT ARRAIGNMENT
FOR AUGUST 18TH AT 8:30 A.M. IN THIS COURTROOM, COURTROOM 341, OF THE ROYBAL FEDERAL BUILDING.
NOW, I THINK WHAT WE’LL DO IS WE’LL
PASS THE REST OF THIS MATTER, AND LET ME
DEAL WITH THE LAST CASE. AND, THEN, WE’LL
RETURN TO THIS MATTER AND SEE WHERE WE
STAND.
IS EITHER OF YOU APPEARING ON THE
OTHER CASE?
MR. AVEIS:

I’M SORRY?

THE COURT:
ON THE OTHER –
MR. AVEIS:

YOU’RE NOT APPEARING

NO.

THE COURT: ALL RIGHT. SO, YOU’LL
HAVE AN OPPORTUNITY TO CONFER WITH
EACH OTHER WHILE WE’RE CALLING THE
OTHER CASE.
MR. AVEIS:

SURE.

(PROCEEDINGS IN UNRELATED MATTER
HELD.)
(4:14 TO 4:28 P.M.)

App. 132
THE CLERK: PLEASE REMAIN SEATED
AND COME TO ORDER. THIS COURT IS AGAIN IN
SESSION.
THE COURT: ALL RIGHT. LET’S RECALL
THE FAYED MATTER.
THE CLERK: RECALLING CASE NUMBER CR 08-224-1, UNITED STATES OF AMERICA
VERSUS JAMES MICHAEL FAYED.
COUNSEL, PLEASE MAKE YOUR APPEARANCES.
MR. AVEIS:
YOUR HONOR.

GOOD AFTERNOON AGAIN,

MARK AVEIS FOR THE GOVERNMENT.
[20] MR. WERKSMAN:
NOON AGAIN, YOUR HONOR.

GOOD AFTER-

MARK WERKSMAN APPEARING ON BEHALF
OF MR. FAYED, WHO’S PRESENT IN CUSTODY.
THE COURT: ALL RIGHT. WHERE DO WE
STAND, GENTLEMEN?
MR. AVEIS: I WOULD SUGGEST THE
FOLLOWING, YOUR HONOR. THAT THE PARTIES
STIPULATE THAT THE PROFFER THAT I PROVIDED, WHICH IS A SUMMARY OF THE TESTIMONY OF SPECIAL AGENT TIM SWEC, BE
RECEIVED AS THE DIRECT TESTIMONY, AND
THAT COUNSEL MAY CROSS-EXAMINE THE

App. 133
AGENT BASED UPON THAT DIRECT TESTIMONY
AND LIMITED BY THE SCOPE OF IT.
MR. WERKSMAN: I WOULD JOIN IN
THAT STIPULATION, YOUR HONOR.
THE COURT:
WITNESS.
MR. AVEIS:

ALL RIGHT. CALL YOUR

VERY GOOD.

THE GOVERNMENT CALLS TIM SWEC.
THE CLERK:
RIGHT HAND.
TIM
SWORN:

PLEASE

RAISE

YOUR

SWEC, GOVERNMENT WITNESS,

THE WITNESS:
THE CLERK:

I DO.

PLEASE BE SEATED.

PLEASE STATE AND SPELL YOUR NAME FOR
THE RECORD.
THE WITNESS: TIMOTHY L. SWEC, S-W-E-C.
THE CLERK:

THANK YOU.

THE COURT:

GO AHEAD, MR. AVEIS.

MR. AVEIS:

THANK YOU.

[21] THE PARTIES HAVING STIPULATED
THAT THE PROFFER WOULD BE DEEMED THE
DIRECT TESTIMONY OF THIS WITNESS, I WOULD

App. 134
TURN THE WITNESS’ TESTIMONY
CROSS-EXAMINATION.

IN

FOR

THE COURT: WELL, PERHAPS FOR THE
RECORD YOU SHOULD VERIFY THAT THE WITNESS ADOPTS YOUR CHARACTERIZATION OF
HIS TESTIMONY.
MR. AVEIS:

ALL RIGHT. FAIR ENOUGH.

DIRECT EXAMINATION
BY MR. AVEIS:
Q MR. SWEC, WERE YOU PRESENT IN THE
ROOM WHEN I RECITED THE GOVERNMENT’S
PROFFER?
A I WAS, YES.
Q AND YOU HEARD THE STIPULATION OF
THE PARTIES?
A I DID.
Q AND DO YOU ADOPT AS YOUR DIRECT
TESTIMONY, IF YOU WILL, THE PROFFER THAT I
PROVIDED PURSUANT TO THAT STIPULATION?
A I DO, WITH ONE MINOR CHANGE IN DETAIL.
Q

VERY GOOD. WHAT WOULD THAT BE?

A THE SEQUENCE OF EVENTS WHEN THE
DEFENDANT – ON THE ISSUE OF HIS PASSPORT.
AS I UNDERSTOOD, HE WAS NOT PERMITTED TO

App. 135
SEE HIS PASSPORT INITIALLY. AT THAT POINT
HE HUNG HIS HEAD AND SIGHED. HE WAS
LATER ALLOWED TO LOOK AT HIS PASSPORT –
Q

VERY GOOD. THANK YOU.

THAT’S THE ONLY CHANGE?
[22] A IT IS.
Q

VERY GOOD. THANK YOU.

THE COURT: ALL RIGHT. MR. WERKSMAN, WOULD YOU BE ABLE TO CROSS-EXAMINE
HIM FROM THE PODIUM, OR DO YOU NEED ACCESS TO YOUR CLIENT?
MR. WERKSMAN: NO. IT MIGHT BE EASIER RIGHT HERE THAN THERE.
THE COURT:
LITTLE –

I THINK THAT MIGHT BE A

MR. WERKSMAN: WOULD THE COURT
ALLOW MY CLIENT TO BE TRANSPORTED OVER
HERE? I HATE TO SURPRISE THE SECURITY
GENTLEMAN HERE, BUT IT MIGHT BE MORE EFFECTIVE FOR ME TO HAVE MY CLIENT WITH ME
BUT EASIER TO CROSS-EXAMINE FROM THERE.
THE COURT:
THE MARSHAL?

ANY OBJECTION FROM

THE UNITED STATES MARSHAL:
HONOR.

NO, YOUR

MR. WERKSMAN: THANK YOU.
THE COURT:

ALL RIGHT.

App. 136
CROSS-EXAMINATION
BY MR. WERKSMAN:
Q

MR. SWEC –

THE COURT: WAIT JUST A MOMENT.
LET’S GET YOUR CLIENT SEATED.
(PAUSE IN PROCEEDINGS.)
THE COURT:

YOU CAN SIT DOWN, MR.

FAY ED.
THE DEFENDANT:
THE COURT:
MR. WERKSMAN.

THANK YOU, SIR.

ALL RIGHT. GO AHEAD,

[23] BY MR. WERKSMAN:
Q MR. SWEC, HOW LONG HAVE YOU BEEN
A SPECIAL AGENT WITH THE FBI?
A FOUR MONTHS.
Q SO, WOULD YOU SAY THAT YOU’RE A
BRAND NEW ROOKIE AGENT?
A I’M A NEW AGENT, YES, SIR.
Q AND ARE YOU ASSIGNED TO THE INVESTIGATION INTO SOME ALLEGED CRIMINAL ACTIVITIES OF JAMES FAYED?
A NO.
Q WERE YOU BROUGHT IN HERE TODAY BY
THE ASSISTANT U.S. ATTORNEY FOR THE SOLE

App. 137
PURPOSE OF GIVING A DECLARATION ABOUT
FACTS WHICH WERE READ INTO THE RECORD
BY MR. AVEIS?
A NO, SIR. I WAS BROUGHT HERE TODAY
SIMPLY TO TRANSPORT THE DEFENDANT AND
TO HELP WITH THE INITIAL APPEARANCE.
Q ALL RIGHT. SO, YOUR SOLE CONNECTION
WITH THE INVESTIGATION AND PROSECUTION
OF JAMES FAYED IS THAT YOU TRANSPORTED
HIM TO COURT THIS MORNING FROM – WHERE?
– FROM THE VENTURA COUNTY JAIL?
A THAT’S CORRECT.
Q SO, YOU WENT UP THERE EARLY THIS
MORNING TO THE VENTURA COUNTY JAIL, CORRECT?
A YES.
Q

AND YOU BROUGHT HIM DOWN HERE?

A YES, SIR.
Q AND SOMETIME AFTER TRANSPORTING
HIM TO THIS BUILDING YOU [24] WERE ASKED
TO BE THE AFFIANT OR THE DECLARANT
ABOUT THE FACTS WHICH WERE READ INTO
THE RECORD BY MR. AVEIS, CORRECT?
A THAT’S CORRECT.

App. 138
Q NOW, THE FACTS THAT WERE READ INTO
THE RECORD BY MR. AVEIS WHAT WAS YOUR
SOURCE FOR ALL OF THOSE FACTS?
A I SPOKE TO TWO LAPD DETECTIVES
THAT ARE HAVE BEEN INVOLVED AND THREE
FBI AGENTS THAT ARE INVOLVED IN THE INVESTIGATION.
Q WHAT ARE THE NAMES OF THE TWO
LAPD DETECTIVES THAT YOU SPOKE TO?
A DETECTIVE PORCHE AND I CAN’T RECALL THE SECOND DETECTIVE’S NAME.
Q DID YOU MAKE NOTES ABOUT YOUR
CONVERSATIONS WITH –
A I HAD NOTES AND I CONFIRMED THOSE
NOTES WITH THEM.
Q AND HOW LONG AGO DID YOU PREPARE
THOSE NOTES?
A I’VE HAD THEM FOR THREE HOURS.
Q SO, YOU SPOKE TO THE DETECTIVES TODAY SINCE AROUND ONE O’CLOCK THIS AFTERNOON?
A THAT’S CORRECT.
Q AND YOU MADE SOME NOTES. AND WHO
DID YOU TURN THOSE NOTES OVER TO?
A I HAVE THEM.

App. 139
Q

OH, YOU DO? OKAY.

HAVE YOU PREPARED A REPORT ABOUT
YOUR INTERVIEW WITH THESE DETECTIVES?
[25] A NO.
Q ARE THEY THE TWO GENTLEMEN
SEATED HERE AT THE END OF THIS SEAT, THE
FAR LEFT IN THE MIDDLE? ARE THESE THE TWO
DETECTIVES?
A THEY ARE.
Q OKAY. NOW, WHICH ONE IS DETECTIVE
PORCHE?
A THE ONE ON THE END.
Q AND DO YOU KNOW THE NAME OF THE
OTHER ONE?
A I DON’T RECALL HIS NAME.
Q DID YOU TALK TO HIM ABOUT THE
FACTS OF THIS CASE?
A I MAINLY
PORCHE.

SPOKE

TO

DETECTIVE

Q ALL RIGHT. AND DO YOU THINK IF YOU
TOOK NOTES ABOUT THE FACTS RELATED TO
YOU BY THE OTHER DETECTIVE YOU MIGHT
HAVE WRITTEN HIS NAME DOWN SOMEWHERE?
A I – I’M NOT SURE. COULD YOU REPEAT
THAT.

App. 140
Q YOU THINK YOU MIGHT HAVE WRITTEN
DOWN THE NAME OF THE OTHER DETECTIVE,
OR AS YOU SIT HERE TODAY, DO YOU HAVE ANY
IDEA WHETHER YOU EVER KNEW THE NAME OF
THE OTHER DETECTIVE?
A I WAS INTRODUCED. I DON’T RECALL.
Q SO, YOU HAD NOT ACTUALLY BEEN TO
THE HOME IN MOORPARK WHERE MR. FAYED
WAS ARRESTED ON FRIDAY NIGHT, CORRECT?
A THAT’S CORRECT.
Q YOU WEREN’T THERE WHEN HIS SAFE
WAS OPENED, CORRECT?
A CORRECT.
Q YOU NEVER SAW HIS REACTION TO ANYTHING THAT WAS TAKEN [26] FROM THE SAFE,
CORRECT?
A CORRECT.
Q YOU HAVE NO IDEA AS YOU SIT HERE TODAY WHETHER OR NOT HE BEHAVED UNUSUAL
IN ANY WAY IN RESPONSE TO HIS PASSPORT BEING TAKEN OUT, CORRECT?
A I WAS – JUST WHAT HAS BEEN CONFIRMED WITH THE PEOPLE WHO WERE THERE.
Q ALL RIGHT. DID YOU UNDERTAKE TO
CHECK WITH THE UNITED STATES DEPARTMENT OF STATE TO SEE WHETHER MORE THAN

App. 141
ONE PASSPORT HAS BEEN ISSUED TO JAMES
FAYED?
A NO.
Q AS FAR AS YOU KNOW, HE ONLY HAS ONE
PASSPORT, AND THAT IS IN THE CUSTODY OF
THE LOS ANGELES POLICE DEPARTMENT, CORRECT?
A AS FAR AS I KNOW –
Q AND YOU DIDN’T GO TO THE PROPERTY
TO SEARCH FOR BURIED CASH, CORRECT?
A I WAS NOT THERE.
Q IN FACT, WERE YOU TOLD THAT THE DETECTIVES SPENT HOURS LOOKING ALL OVER
THE PROPERTY FOR BURIED CASH AND FOUND
NO BURIED CASH?
A I WAS NOT TOLD THAT.
Q ARE YOU AWARE FROM ANY SOURCE AS
YOU SIT HERE TODAY THAT NO CASH WAS
FOUND BURIED ANYWHERE ON THE MOORPARK
PROPERTY?
A I’M SORRY. COULD YOU REPEAT THAT.
[27] Q ARE YOU AWARE AS YOU SIT HERE
TODAY THAT NO CASH WAS FOUND BURIED ANYWHERE ON THE MOORPARK PROPERTY?
A I WAS NOT AWARE OF THAT, SIR.

App. 142
Q YOU ARE AWARE THAT NO PROPERTY –
NO CASH WAS FOUND? YES OR NO?
A YES, I’M AWARE.
THE COURT: YOU HAVE A DOUBLE
NEGATIVE HERE, MR. WERKSMAN.
MR. WERKSMAN: WELL, THAT’S JUST A
TRIPLE POSITIVE, YOUR HONOR.
BY MR. WERKSMAN:
Q YES, YOU’RE AWARE THAT THERE WAS
NO – ALL RIGHT.
LET ME START UP AGAIN. IT’S LATE IN THE
DAY, BUT I WANT TO GET THIS STRAIGHT.
YOU HAVE NO IDEA – WELL – ALL RIGHT. WAS
ANY CASH FOUND BURIED ON THE PROPERTY?
A NOT TO MY KNOWLEDGE.
Q WERE YOU TOLD THAT NO CASH WAS
FOUND ON THE PROPERTY? YES OR NO?
A NO, I DON’T BELIEVE I WAS TOLD IN
THAT WAY.
Q DID SOMEBODY TELL YOU THAT NO
CASH WAS FOUND – OR GIVE YOU THAT IMPRESSION THAT NO CASH WAS FOUND BURIED?
A I DID NOT GET THE IMPRESSION THAT
ANY CASH WAS FOUND BURIED.

App. 143
Q DID ANYBODY – DID YOU TALK TO ANY
WITNESSES WHO [28] PROVIDED ANY INFORMATION THAT WAS PASSED ALONG TO YOU BY
THE LAPD DETECTIVES?
A I ONLY SPOKE TO THE LAPD DETECTIVES AND FBI AGENTS.
Q SO, IF SOME FRIEND OF PAMELA FAYED
TOLD SOMEBODY THAT SHE SAID SOMETHING
THAT WAS RELATED BY THE PROSECUTOR
HERE TODAY, YOU WOULD HAVE NO INDEPENDENT CORROBORATION OF THAT?
A CORRECT, NOT PERSONALLY.
Q AND THERE WAS SOME TESTIMONY ATTRIBUTED TO YOU THAT A VEHICLE REGISTERED TO GOLDFINGER WAS OBSERVED ON
SURVEILLANCE AT THE SCENE OF THE MURDER; IS THAT CORRECT?
A NO, SIR.
Q WHAT IS THAT INFORMATION THAT YOU
DECLARED?
A THAT THE VEHICLE THAT WAS AT THE
SCENE OF THE MURDER WAS CAUGHT ON SURVEILLANCE, THAT IT WAS TRACED BACK TO
AVIS RENT-A-CAR, AND THAT RENTAL CAR HAD
BEEN RENTED WITH A CREDIT CARD IN THE DEFENDANT’S NAME – IN HIS COMPANY’S NAME.

App. 144
Q ALL RIGHT. SO, THE CREDIT CARD WAS
IN THE NAME OF THE DEFENDANT OR THE
COMPANY OR BOTH?
A BOTH.
Q BOTH. ALL RIGHT. DO YOU KNOW WHO
SIGNED THE CREDIT CARD RECEIPT ASSOCIATED WITH THE RENTAL OF THAT VEHICLE?
A NO, I DO NOT.
Q DO YOU KNOW IF IT WAS SOMEONE
OTHER THAN JAMES FAYED?
A I DO NOT.
Q IF I TOLD YOU IT WAS SOMEONE OTHER
THAN JAMES FAYED, [29] WOULD YOU HAVE ANY
BASIS TO KNOW WHETHER THAT’S TRUE OR
NOT?
A NO, I DON’T.
Q AND, OF COURSE, YOU DO KNOW THAT
MR. FAYED WAS NOT OBSERVED ON SURVEILLANCE COMMITTING ANY ACTS OF VIOLENCE
AGAINST PAMELA FAYED, CORRECT?
A (INAUDIBLE.)
Q

WELL –

THE COURT: JUST A MOMENT. I DIDN’T
HEAR YOUR ANSWER.

App. 145
THE WITNESS: I HAVE NO KNOWLEDGE
OF THAT.
BY MR. WERKSMAN:
Q WELL, I’D LIKE TO ASK YOU IF YOU
COULD BE A LITTLE MORE – A LITTLE MORE DECLARATIVE.
A YES. AS I UNDERSTAND IT, HE WAS NOT
ON ANY SURVEILLANCE.
Q ALL RIGHT. AND AS YOU UNDERSTAND
IT, THERE WAS NO ALLEGATION BY ANYBODY
THAT HE PERSONALLY ASSAULTED PAMELA
FAYED, TRUE?
A TRUE.
Q NOW, ARE YOU AWARE OF ANY ELECTRONIC SURVEILLANCE THAT MAY HAVE BEEN
CONDUCTED TO OVERHEAR CONVERSATIONS
BY MR. FAYED AND OTHERS?
A I AM.
Q OKAY. WHAT DO YOU KNOW ABOUT THE
EXISTENCE OF ELECTRONIC SURVEILLANCE
THAT WOULD DETECT CONVERSATIONS [30] BETWEEN MR. FAYED AND OTHERS. TELL US.
MR. AVEIS:
THE COURT:

OBJECT TO THE QUESTION –
JUST A MOMENT.

MR. AVEIS: – BEYOND THE SCOPE OF
THE DIRECT EXAMINATION.

App. 146
THE COURT: I THINK THAT’S RIGHT,
MR. WERKSMAN. THERE WASN’T ANY DIRECT
PROFFER ABOUT ANY ELECTRONIC SURVEILLANCE.
MR. WERKSMAN: THERE WASN’T, YOUR
HONOR. I WANTED TO EXPLORE THE SCOPE OF
HIS KNOWLEDGE.
BY MR. WERKSMAN:
Q

DO YOU –

THE COURT: I THINK HE’S TESTIFIED
THAT HE DOESN’T HAVE ANY INDEPENDENT
KNOWLEDGE OF ANY OF THIS.
MR. WERKSMAN: OKAY.
THE COURT:
TAINED.

THE OBJECTION’S SUS-

BY MR. WERKSMAN:
Q MR. SWEC, BEFORE INTERVIEWING DETECTIVE PORCHE AND THE OTHER DETECTIVE
WHOSE NAME IS UNKNOWN, DID YOU ASK EITHER OF THEM ABOUT THEIR BACKGROUND OR
CREDENTIALS OR QUALIFICATIONS?
A NO.
Q SO, YOU WOULD HAVE NO IDEA AS YOU
SIT HERE TODAY, AND YOU WOULD HAVE NO
IDEA AS YOU DECLARED THROUGH THE ASSISTANT U.S. ATTORNEY WHAT MEASURE OF

App. 147
TRAINING, EDUCATION OR EXPERIENCE ANY
OF THOSE DETECTIVES HAVE, CORRECT?
[31] A CORRECT.
Q THEY COULD BE FOUR-MONTH ROOKIES
ON THE LAPD JUST AS YOU ARE A FOUR-MONTH
ROOKIE ON THE FBI, CORRECT?
A I HAVE NO KNOWLEDGE OF THE EXPERIENCE THEY HAVE.
Q AND YOU MENTIONED THAT
TALKED TO SOME OTHER FBI AGENTS?

YOU

A THAT’S CORRECT.
Q

WHO WERE THEY?

A SPECIAL AGENT CONNIE SMITH, SPECIAL AGENT JENSEN, SPECIAL AGENT MAURA
KELLEY.
Q NOW, DID YOU – DID ANY OF THEM PROVIDE YOU WITH ANY FIRSTHAND KNOWLEDGE
ABOUT THE FACTS THAT YOU DECLARED?
A SOME OF THE – SOME OF THE FACTS,
YES.
Q DID THEY PROVIDE YOU WITH INFORMATION ABOUT THE SERVERS THAT WERE
FOUND AT THE BUSINESS THAT’S BEING
SEARCHED AS WE SPEAK?
A THEY DID.

App. 148
Q ALL RIGHT. ARE YOU AWARE THAT THE
COMPANY IS BEING SEARCHED AS WE SPEAK?
A I’M NOT.
Q YOU’RE NOT AWARE THAT THEY’RE GOING ON THEIR FOURTH DAY OF SEARCHING AT
THE –
A I HAVE –
Q

GOLDFINGER PREMISES?

A I HAVE HEARD THAT THEY WERE GOING
TO CONDUCT A SEARCH [32] TODAY, BUT I HAD
NOT HEARD ANY UPDATES ABOUT IT.
Q AND DID YOU TALK – DO YOU KNOW IF
CONNIE SMITH IS THE AGENT IN CHARGE OF
THE SEARCH?
A I DON’T KNOW.
Q DO YOU KNOW WHO IS THE AGENT IN
CHARGE?
A NO, I DON’T.
Q DID YOU TALK TO THE AGENT IN
CHARGE?
A TODAY’S SEARCH, NO.
Q

DID YOU ASK WHO’S IN CHARGE?

A OF TODAY’S SEARCH, NO, SIR.

App. 149
Q DID THE AGENTS WHO TALKED TO YOU
TELL YOU WHAT THEIR ROLE IS IN THE
SEARCH?
A NO, SIR.
Q SO, YOU HAVE NO IDEA WHERE THOSE
FBI AGENTS, SMITH OR – I’M SORRY – WAS A
GUSHE?
A JENSEN.
Q JENSEN. YOU HAVE NO IDEA WHERE
SMITH OR JENSEN GOT THEIR INFORMATION,
CORRECT?
A WELL, MY UNDERSTANDING IS THEY –
IT WAS FROM THEIR OWN INVESTIGATION. I
DON’T –
Q WELL, THAT’S WHAT THEY TOLD YOU.
THEY SAID WE ARE INVESTIGATING, AND THIS
IS WHAT WE FOUND, CORRECT?
A THAT’S CORRECT.
Q BUT DID THEY TELL YOU HOW LONG
THEY’D BEEN INVESTIGATING OR WHAT THEIR
BASIS OF PERSONAL KNOWLEDGE IS ABOUT
THE THINGS [33] THEY TOLD YOU?
A THEY DID NOT TELL ME HOW LONG
THEY HAD BEEN INVESTIGATING.
Q

DID YOU ASK TO SEE THE REPORTS?

A NO, SIR.

App. 150
Q DID THEY TELL YOU HOW THEY CAME
TO CONCLUDE THAT THE SERVERS HAD BEEN
MOVED OFFSHORE WITHIN THE LAST 30 TO 45
DAYS?
A AGENT JENSEN WENT INTO IT A LITTLE
BIT REGARDING SOME OF THE COMPUTER
WORK HE HAD DONE. I COULDN’T RELAY –
Q WOULD YOU ACKNOWLEDGE THAT YOU
ARE NOT AN EXPERT –
THE COURT: JUST A MOMENT. JUST A
MOMENT. I DON’T THINK HE HAD FINISHED.
YOU CAN RELAY IT WITH ANY –
THE WITNESS: WITH ANY COMPETENCE
RELAYING CORRECTLY HOW HE DID IT.
BY MR. WERKSMAN:
Q DO YOU HAVE ANY EXPERTISE OR TRAINING IN CYBER TECHNOLOGY IN COMPUTERS?
A I DO, SIR.
Q DID SMITH OR ANYBODY FROM THE FBI
EXPLAIN TO YOU HOW THEY DETERMINED
THAT SERVERS HAD BEEN MOVED OFFSHORE
IN THE LAST 30 TO 45 DAYS?
A THEY TOLD ME THAT THEY HAD RECEIVED I.P. ADDRESSES AND WERE ABLE TO
TRACE THE I.P. ADDRESSES TO OFFSHORE.

App. 151
[34] Q DID THEY TELL YOU HOW THEY
CONCLUDED THAT THOSE OFFSHORE I.P. ADDRESSES HAD BEEN MOVED OFFSHORE IN THE
LAST 30 TO 45 DAYS?
A NOT SPECIFICALLY IN THE LAST 30 TO 45
DAYS, NO, SIR.
Q SO, IN YOUR DECLARATION WHEN YOU
SAID THAT YOU HAD INFORMATION THAT THE
ISP NUMBERS WERE OFFSHORE, YOU HAVE
CONFIDENCE THAT THAT’S THE CASE JUST BECAUSE THAT’S WHAT YOU’RE TOLD?
MR. AVEIS: I’M SORRY. FOR THE RECORD IT WOULD BE I.P., NOT I.S.P.
BY MR. WERKSMAN:
Q

I’M SORRY. I.P. ADDRESSES.

YOU LEARNED THAT THE I.P. ADDRESSES
WERE OFFSHORE, CORRECT?
A FROM THE AGENT DOING THE INVESTIGATION, YES.
Q DID THE AGENTS DOING THE INVESTIGATION TELL YOU THAT THEY WERE MOVED
OFFSHORE IN THE LAST 30 TO 45 DAYS?
A THEY DID TELL ME THAT.
Q AND DID THE AGENT WHO TOLD YOU
THAT – WHO WAS THAT AGENT?
A THAT WAS AGENT JENSEN.

App. 152
Q DID JENSEN TELL YOU HOW – IS IT A HE
OR SHE?
A HE.
Q DID HE TELL YOU HOW HE CONCLUDED
THAT?
A ARE YOU TALKING ABOUT WITH THE
TIMING?
[35] Q

YEAH, THE TIMING.

A NO, HE DID NOT.
Q DID HE OFFER AN EXPLANATION IN
CYBER TALK THAT WENT IN ONE EAR AND OUT
THE OTHER?
A NOT ABOUT THE TIMING, NO, SIR.
Q HAVE YOU CONDUCTED A SEARCH OF
THE WEBSITE OF THE GOLDFINGER BUSINESS
OR ANY BUSINESSES AFFILIATED WITH MR.
FAYED?
A NO.
Q ARE YOU AWARE OF WHETHER MR.
FAYED’S BUSINESSES ADVERTISE ON THEIR
WEBSITE THAT THEIR SERVERS ARE, IN FACT,
OFFSHORE, AND THAT IT’S NOT A SECRET?
A I’M NOT AWARE.
Q AND THAT THEY’VE ALWAYS BEEN OFFSHORE. ARE YOU AWARE OF THAT?

App. 153
A NO.
Q YOU ALSO PROFFERED TESTIMONY
ABOUT ASSAULT RIFLES. HOW MANY – HOW
MANY – WHAT WERE YOU TOLD ABOUT THE EXISTENCE OF FIREARMS IN THE SAFE AT THE
MOORPARK PROPERTY?
A I WAS TOLD THAT ON THE PROPERTY 20
TO 25 ASSAULT RIFLES AND OTHER FIREARMS
WERE FOUND.
Q NOW, I DON’T MEAN PARSE WORDS
HERE. BUT WHEN YOU WERE TOLD THERE WAS
TO 20 TO 25, QUOTE, ASSAULT RIFLES AND
OTHER FIREARMS,” MEANING IT’S A MIXTURE
OF ALL OF THEM?
A YES, SIR.
[36] Q OR WERE YOU TOLD THERE WERE 20
TO 25 ASSAULT RIFLES, PERIOD? AND, COMMA,
THERE ARE ALSO OTHER FIREARMS?
A I WAS TOLD THAT IT WAS A COMBINATION.
Q

ALL RIGHT.

A 20 TO 25 FIREARMS INCLUDING ASSAULT
RIFLES.
Q ALL RIGHT. SO, IF SOMEBODY WERE TO
CONCLUDE THAT THERE WERE 20 TO 25 ASSAULT RIFLES, PAUSE, AND THAT THERE WERE

App. 154
OTHER FIREARMS THERE, THAT WOULD BE INCORRECT?
A AS FAR AS MY UNDERSTANDING, YES,
SIR.
Q HOW MANY – NOW, WHAT CONSTITUTES
AN ASSAULT RIFLE? DO YOU KNOW THE DEFINITION OF AN ASSAULT RIFLE AS WE’RE USING IT?
A I COULDN’T GIVE A TECHNICAL DEFINITION.
Q ARE YOU AWARE THAT AN ASSAULT RIFLE HAS A CERTAIN DEFINITION THAT MAY INCLUDE BEING SEMI-AUTOMATIC?
A I’M NOT AWARE.
Q ARE YOU AWARE OF WHETHER ANY OF
THE – DO YOU KNOW WHAT A LONG GUN IS?
A YES, SIR.
Q WHAT’S A LONG – IS A LONG GUN A RIFLE BASICALLY?
A YES, SIR.
Q IT’S ANYTHING MORE THAN A CERTAIN
NUMBER OF INCHES?
A I DON’T KNOW THE EXACT DEFINITION –
Q

AND IT’S A SINGLE-SHOT RIFLE?

A I DON’T KNOW.

App. 155
[37] Q DO YOU KNOW HOW MANY – DO YOU
KNOW WHETHER THERE WERE ANY ASSAULT
RIFLES AT MR. FAYED’S?
A I KNOW THAT I WAS TOLD THERE WERE
20 TO 25 ASSAULT RIFLES AND OTHER FIREARMS.
Q DO YOU KNOW IF THERE WERE ONLY
EIGHT LONG GUNS AND THE REST OF THE 20 TO
25 WERE HANDGUNS?
A I DON’T KNOW.
Q

YOU DON’T KNOW FOR SURE?

A NO, SIR.
Q WHO IS THE SOURCE OF THAT INFORMATION?
THE COURT:

WHAT INFORMATION?

BY MR. WERKSMAN:
Q

ABOUT THE GUNS.

A LAPD DETECTIVE PORCHE.
Q

THERE WAS ALSO –

MR. WERKSMAN: THIS IS MY LAST
QUESTION, YOUR HONOR. I DON’T WANT TO BELABOR THE POINT, BUT I THINK WE NEED TO
COVER THE MAJOR AREAS.

App. 156
BY MR. WERKSMAN:
Q YOU TESTIFIED ABOUT $60,000 IN CASH
THAT WAS – DID YOU USE THE WORDS “HERMETICALLY SEALED”?
A (NO AUDIBLE RESPONSE.)
Q

WHAT DOES THAT MEAN?

A I DON’T KNOW.
Q YOU DON’T KNOW? WELL, YOU’RE THE
ONE WHO SAID IT WAS [38] HERMETICALLY
SEALED.
A MY UNDERSTANDING IT WAS SEALED IN
PLASTIC.
Q

WAS IT WRAPPED IN PLASTIC?

A I DON’T KNOW EXACTLY –
Q WAS IT HEAT WRAPPED LIKE WHEN YOU
GO TO THE – LIKE A DELI, AND THEY HAVE LOX,
AND IT’S ALL LIKE – YOU KNOW, YOU HAVE TO
USE A SCISSOR TO CUT INTO IT.
A I DON’T KNOW, SIR.
Q SO, YOU DON’T KNOW REALLY – WHY
DON’T YOU TELL US EVERYTHING YOU KNOW
ABOUT THE CASH IN THE SAFE RIGHT NOW.
A I WAS TOLD THAT $60,000 WAS FOUND
DURING THE SEARCH OF THE PREMISES, SOME
OF WHICH WAS SEALED IN PLASTIC. ALL RIGHT.

App. 157
Q SO, NOT ALL THE 60? NOT ALL THE 60
WAS WRAPPED IN PLASTIC?
A THAT’S CORRECT, SIR.
Q SO – NOW, WRAPPED IN PLASTIC COULD
MEAN ANYTHING, RIGHT? I MEAN, YOU REALLY
DON’T KNOW WHAT –
A HERMETICALLY SEALED IS WHAT I WAS
TOLD. I DON’T –
Q OKAY. HERMETICALLY SEALED MEANING WHAT? SHRINK PROOF?
A I DON’T KNOW.
MR. WERKSMAN: YOUR HONOR, I HAVE
NO FURTHER QUESTIONS.
THE COURT:

ALL RIGHT. THANK YOU.

MR. AVEIS, ANY REDIRECT?
[39] MR. AVEIS: NO, THANK YOU.
THE COURT:
STEP DOWN.

THANK YOU, SIR. YOU MAY

MR. AVEIS, DID YOU HAVE ANY OTHER WITNESSES?
MR. AVEIS:

NO, THANK YOU.

THE COURT:

SO, THE GOVERNMENT

RESTS?
MR. AVEIS:

YES.

App. 158
THE COURT: MR. WERKSMAN, DID YOU
HAVE ANY WITNESSES YOU WISH TO CALL?
MR. WERKSMAN: NO, YOUR HONOR.
THE COURT: DO YOU HAVE ANY EVIDENCE YOU WISH TO PROFFER?
MR. WERKSMAN: NOT AT THIS TIME,
YOUR HONOR.
THE COURT: ALL RIGHT. I GUESS IT’S
TIME FOR ARGUMENT.
MR. AVEIS, YOU GET TO GO FIRST.
YOU WANT TO SIT DOWN, MR. WERKSMAN.
YOU’RE WELCOME TO.
MR. AVEIS: IF I COULD JUST STAND AT
THE COUNSEL TABLE, PLEASE?
THE COURT:
PICK IT UP, ILENE?

WILL THE MICROPHONES

(THE COURT CONFERRING WITH CLERK.)
THE COURT:

OKAY. GO AHEAD, MR.

AVEIS.
MR. AVEIS:

THANK YOU.

YOUR HONOR, THE EVIDENCE SHOWS
THAT THIS DEFENDANT HAD A MOTIVE TO
HIRE OR RETAIN PEOPLE TO KILL PAMELA
FAYED. [40] HE WAS UNDER INVESTIGATION
FOR A PERIOD OF TIME BY THE FBI RELATED TO

App. 159
HIS FINANCIAL DEALINGS. HE ADMITTED HE IS
THE OWNER AND OPERATOR OF THE ENTITIES
THAT WERE UNDER INVESTIGATION.
THE COURT HAS SEEN HIS PRETRIAL – HIS
STATEMENTS TO PRETRIAL THAT RELATE TO
HIS ASSETS, A SUBSTANTIAL NUMBER OF ASSETS. A HUGE DOLLAR VOLUME OF ASSETS.
25,000-DOLLAR A MONTH IN CLAIMED INCOME.
THE EVIDENCE IS UNEQUIVOCAL I BELIEVE
FOR THE PURPOSES OF THIS HEARING THAT
HE WAS OPERATING THESE BUSINESSES, AND
THEY TOOK IN MONEY AND THEY SENT MONEY
OUT.
THE GOVERNMENT IS INVESTIGATING FURTHER BEYOND JUST THE UNLICENSED MONEY
TRANSMITTING ASPECT OF THIS CASE, FOR
WHICH HE’S BEEN INDICTED. A FEDERAL OFFENSE FOR WHICH HE’S FACING FIVE YEARS’
IMPRISONMENT. THAT HE WAS A MONEY LAUNDERER AND ENGAGED IN FRAUD.
THE SUBSTANTIAL FEAR OF THIS INVESTIGATION COUPLED WITH HIS ESTRANGED
WIFE’S STATEMENTS AND HER OWN FEAR OF
HIM; AND STATEMENTS THAT SHE BELIEVED
THAT HE HAD SOUGHT HER OUT, AND THAT
THEY HAD GONE TO A MEETING WHERE CONVENIENTLY HE HAD AN ALIBI – HE WAS NOT
PRESENT AT A TIME WHEN SHE WAS BRUTALLY
MURDERED BY SOMEBODY WHO JUMPED OUT
OF A VEHICLE THAT HAD BEEN RENTED IN THE

App. 160
NAME OF THIS DEFENDANT. AND THAT SAME
CREDIT CARD WAS FOUND IN HIS WALLET.
COUPLED WITH ALL OF THE OTHER FACTS
FOR THE [41] PURPOSES OF THIS HEARING AT
LEAST SHOWS THAT THE GOVERNMENT HAS
PREVAILED, OR SHOULD PREVAIL RATHER,
WITH RESPECT TO WHETHER OR NOT THIS DEFENDANT OUGHT TO BE DETAINED AT THIS
TIME.
WE HAVE MET OUR STANDARD OF PROOF
FOR THE PURPOSES OF THIS HEARING, YOUR
HONOR. AND I WOULD SUBMIT ON THAT. AND
WE RESERVE THE REST FOR REBUTTAL.
THANK YOU.
THE COURT: LET ME ASK YOU A QUESTION OR TWO, MR. AVEIS.
THIS IS NOT A MURDER CASE IN THIS
COURT.
MR. AVEIS: WELL, LET ME ADDRESS
THAT DIRECTLY HEAD ON, YOUR HONOR. IT
ISN’T RIGHT NOW, BUT UNDER 18 USC 1512 AND
1513(A) (1) IT IS A FEDERAL OFFENSE PUNISHABLE POTENTIALLY BY DEATH TO KILL OR ARRANGE THE MURDER OF A WITNESS IN A
FEDERAL CASE.
I HAVE EVERY REASON TO BELIEVE AN INFERENCE CAN BE DRAWN FROM THIS, THAT
THIS DEFENDANT HAD EVERY REASON TO

App. 161
WANT TO KILL HIS WIFE SO THAT SHE COULD
NOT TESTIFY AGAINST HIM IN A FEDERAL INVESTIGATION THAT WILL BLOSSOM BY WAY OF
A SUPERSEDING INDICTMENT INTO MONEY
LAUNDERING –
THE COURT: WAS THERE SOMETHING
IN MR. – IN AGENT SWEC’S TESTIMONY THAT
POINTED TO THAT?
MR. AVEIS: THE INFERENCE IS TO BE
DRAWN, THE NATURE OF THE ARRANGEMENTS
FOR THE MEETING, THE CONVENIENCE [42] OF
HAVING HER THERE IN A PLACE WHERE HE
WAS –
THE COURT: NO, NO, NO. WHAT I’M ASKING – MAYBE I WASN’T CLEAR IN MY QUESTION.
FORGIVE ME FOR INTERRUPTING.
WHAT I’M ASKING IS IS THERE SOMETHING
YOU CAN POINT ME TO FROM WHICH AN INFERENCE CAN BE DRAWN THAT THE MURDER HAD
TO DO WITH POTENTIAL TESTIMONY THAT MRS.
FAYED WOULD GIVE CONCERNING THIS INDICTMENT – NOT CONCERNING THE DIVORCE – CONCERNING THE CHARGES IN THIS CASE?
MR. AVEIS: WE DON’T KNOW WHAT
THE SUBSTANCE OF THE MEETING WAS THAT
OCCURRED AT THE LAW OFFICES OF DEFENDANT’S COUNSEL ON JULY 28TH.
THE COURT: SIT DOWN, MR. WERKSMAN, YOU’LL HAVE YOUR CHANCE.

App. 162
MR. WERKSMAN: YOUR HONOR –
THE COURT:
YOUR CHANCE.

SIT DOWN. YOU’LL HAVE

MR. WERKSMAN: I JUST WANT TO
RAISE A STIPULATION – I JUST WANTED TO
MAKE A POINT. I’M NOT CONTESTING WHAT
HE’S SAYING, YOUR HONOR, BUT I THINK IT
SHOULD BE SOMETHING THAT SHOULD BE PUT
ON THE RECORD.
THE
CHANCE.

COURT:

YOU’LL

HAVE

YOUR

GO AHEAD, MR. AVEIS.
MR. AVEIS: WE REALLY DON’T KNOW
THE SUBSTANCE OR CONTENT OF THAT MEETING.
THE COURT: BUT MY QUESTION IS, IS
THERE SOMETHING IN THE EVIDENCE BEFORE
ME, THAT IS, AGENT SWEC’S TESTIMONY, [43]
FROM WHICH I COULD DRAW AN INFERENCE
THAT THE MURDER WAS AN ATTEMPT TO OBSTRUCT THE TESTIMONY THAT WAS NEEDED
OR POTENTIALLY FORTHCOMING CONCERNING
THE INDICTMENT IN THIS CASE?
MR. AVEIS:
THE COURT:
MR. AVEIS:

NOT DIRECTLY. ONLY –
INDIRECTLY?
YES, BECAUSE –

App. 163
THE COURT:

TELL ME.

MR. AVEIS: YES. JULY 29TH, 11:00 A.M.
WAS TO BE A HEARING IN THE FAMILY LAW PROCEEDING THAT RELATED TO THE GIVING UP, IF
YOU WILL, OF THE MARITAL ESTATE.
THE COURT:

YES.

MR. AVEIS: AND IN CONNECTION WITH
THAT, OF COURSE, THERE WOULD BE A JUDGE.
THERE WOULD BE LAWYERS. THERE WOULD BE
THE WITNESSES WHO WOULD HAVE TO MAKE
STATEMENTS.
ALL OF THAT RELATED TO, I BELIEVE, THE
REASON FOR HAVING THE MEETING THE DAY
BEFORE AT THE LAW OFFICE TO DISCUSS WHAT
THEY MIGHT DO.
AND, THEN, OF COURSE, BACK UP, REWIND
IF YOU WILL TO JULY 15TH WHEN THE DEFENDANT ACCORDING TO THE PROFFER MET WITH
THE VICTIM-TO-BE AND INDICATED THAT THEY
SHOULD SETTLE BECAUSE THE LAWYERS
WERE COSTING A LOT OF MONEY.
THE COURT:
WITH THE DIVORCE.

BUT THAT HAD TO DO

MR. AVEIS: YES. BUT I THINK THE INFERENCE IS THAT BECAUSE SHE WAS NOT COOPERATING WITH HIS GAME PLAN OF THE [44]
DIVORCE, THAT BECAUSE SHE WAS NOT DOING
THAT, HE DECIDED TO HAVE HER KILLED.

App. 164
THE COURT: AND MY QUESTION IS,
CAN YOU TIE THAT SOMEHOW TO THE INDICTMENT IN THIS CASE WHICH CHARGES THAT HE
WAS OPERATING AS AN UNLICENSED MONEY
TRANSMITTING BUSINESS.
MR. AVEIS: YES. THE BUSINESS RECORDS THAT WERE THE SUBJECT OF THE DIVORCE AT THIS TIME AND PURSUANT TO THE
HEARING THAT WAS SET FOR JULY 29TH WERE
THE BUSINESS RECORDS THAT SUPPORT THIS
CASE.
THE COURT: ALL RIGHT. NOW, THE INDICTMENT WAS RETURNED FEBRUARY 26TH.
YOU TOLD ME IT WAS SEALED?
MR. AVEIS: THAT’S CORRECT. SEALED
AT THAT TIME. AND NO ARREST WARRANT WAS
SOUGHT AT THAT TIME.
THE COURT:

WHEN WAS IT UNSEALED?

MR. AVEIS: IT WAS UNSEALED ON AUGUST 1ST AT ABOUT 11:00 P.M.
THE COURT: HAD THERE BEEN ANY –
HAD THE DEFENDANT BEEN CALLED BEFORE
THE GRAND JURY?
MR. AVEIS:

NO.

THE COURT: HAD THERE BEEN ANY
NEGOTIATIONS WITH MR. WERKSMAN PRIOR TO
AUGUST 1ST?

App. 165
MR. AVEIS:

NO.

THE COURT: ANY DISCUSSIONS WITH
HIM ABOUT THE CASE AT ALL?
MR. AVEIS: NO. AS FAR AS I KNOW THIS
DEFENDANT [45] WAS TOTALLY UNAWARE UNTIL PROBABLY THIS WEEKEND THAT THERE
HAD BEEN AN INDICTMENT HANDED DOWN
AGAINST HIM IN FEBRUARY.
THE COURT: ALL RIGHT. ANYTHING
ELSE YOU WANT TO SAY, MR. AVEIS?
MR. AVEIS:

NO. I RESERVE. THANK YOU.

THE COURT: ALL RIGHT. MR. WERKSMAN, YOU’VE BEEN HOPPING UP AND DOWN. SO,
NOW IS YOUR CHANCE.
MR. WERKSMAN: WELL, YOUR HONOR,
WHAT I WANTED TO MAKE CLEAR WAS – AND
YOUR HONOR ASKED ABOUT IT – I JUST WANT
THE RECORD TO REFLECT, AND I THINK THE
PROSECUTOR WILL JOIN IN THE STIPULATION,
THAT I WAS NOT THE ATTORNEY AT WHOSE OFFICE A MEETING OCCURRED ON THE NIGHT OF
THE MURDER. I THINK –
THE COURT:
YOU WERE.

I DIDN’T SUGGEST THAT

MR. WERKSMAN: SORRY, YOUR HONOR?
THE COURT:
YOU WERE.

I DIDN’T SUGGEST THAT

App. 166
MR. WERKSMAN: I UNDERSTAND. BUT I
WOULDN’T WANT THE COURT TO THINK FOR A
MOMENT THAT I WAS A WITNESS TO ANY OF
THIS OR THAT I WAS THE LAWYER. BECAUSE,
THEN, I THINK THAT SHOULD BE DISCLOSED
ON THE RECORD, YOUR HONOR. IT WAS NOT ME.
AND I CAN CLARIFY THAT THERE WERE NO
DISCUSSIONS WITH ME BACK ON AUGUST 1ST
ABOUT THE FEDERAL CASE BECAUSE I WAS
NOT MR. FAYED’S COUNSEL UNTIL JULY 31ST
OR AUGUST 1ST. SO, I JUST WANTED TO MAKE
SURE THE COURT IS CLEAR –
[46] THE COURT: DID HE HAVE COUNSEL PRIOR TO THAT TIME?
MR. WERKSMAN: HE DID, YOUR HONOR.
IT WAS DIFFERENT COUNSEL. AND I WANT THE
COURT TO UNDERSTAND THAT IF THAT’S RELEVANT.
THE COURT: WELL, MY QUESTION
THEN TO YOU, AND YOU DON’T HAVE TO ANSWER IT, BUT IF YOU FEEL COMFORTABLE ANSWERING IT, WERE THERE ANY DISCUSSIONS
WITH PRIOR COUNSEL ABOUT THIS IMPENDING
INDICTMENT – OR THIS INDICTMENT WHICH
HAD BEEN FILED BUT NOT SERVED?
MR. WERKSMAN: YOUR HONOR, I CAN –
I CAN STATE WITH CONFIDENCE THAT PRIOR
COUNSEL DID NOT KNOW THAT AN INDICTMENT HAD BEEN FILED.

App. 167
THE COURT:

OKAY.

MR. WERKSMAN: IT WAS SEALED. AND
I KNOW THAT BECAUSE AFTER MR. FAYED’S
ARREST LATE FRIDAY THERE WAS A LOT OF DISCUSSION BETWEEN COUNSEL OVER WHAT IS
THIS INDICTMENT. WE DID NOT KNOW WHAT
THE CHARGES CONTAINED UNTIL THIS MORNING WHEN I DISCUSSED IT DIRECTLY WITH MR.
AVEIS.
AND I KNOW FOR A FACT THAT PRIOR COUNSEL WAS CERTAIN THAT THIS INDICTMENT HAD
BEEN ISSUED IN THE PAST WEEK IN RESPONSE
TO THE MURDER OF PAM FAYED. SO, I DON’T
THINK THERE WAS ANY KNOWLEDGE. I’M
FAIRLY CERTAIN THERE WAS NO KNOWLEDGE
BY MR. FAYED THAT THEY WERE GOING TO –
THEY WERE GOING TO FILE AN INDICTMENT.
NOBODY KNEW ABOUT THE FILING OF THE INDICTMENT.
[47] THE COURT:

ALL RIGHT.

MR. WERKSMAN: AND, IN FACT, THE EVIDENCE THAT WAS PROFFERED DURING HIS
BAIL HEARING SUGGESTS THAT IF YOU BELIEVE THE ALLEGATIONS MADE – AND I SUBMIT TO THE COURT THAT THEY’RE NOT
CORROBORATED ENOUGH. THEY’RE NOT SUBSTANTIAL ENOUGH TO BE CONSIDERED IN
THESE PROCEEDINGS. I’LL ADDRESS THAT IN
JUST A SECOND. BUT EVEN IF YOU BELIEVE
THEM, I THINK THE CASE OF A MURDER THAT

App. 168
WAS CONDUCTED TO END THE DIVORCE AND
TO DEPRIVE A VENGEFUL, ESTRANGED WIFE
OF COMMUNITY PROPERTY ASSETS – THERE’S
NO SUGGESTION IN THE EVIDENCE I HEARD
THAT MR. FAYED KNEW OF A FEDERAL INVESTIGATION OR WAS SEEKING TO BLOCK THE FEDERAL INVESTIGATION, OR KNEW THERE WAS
AN INDICTMENT – TO ELIMINATE HIS WIFE AS
A WITNESS.
SO, YOUR HONOR, THEY ARE DISCONNECTED. AND I HOPE WE DON’T EVEN HAVE TO
GET TO THE POINT WHERE YOUR HONOR BELIEVES THAT, IN FACT, THERE’S EVIDENCE HE
COMMITTED A MURDER.
THE ONLY QUESTION IS WAS IT A MURDER
TO OBSTRUCT THE FEDERAL CASE, WHICH
MIGHT BE RELEVANT TO BAIL IN THIS CASE, OR
WAS IT A TOTALLY UNRELATED MURDER THAT
BELONGS IN A DIFFERENT FORUM, IN A DIFFERENT JURISDICTION IF AND WHEN THE DETECTIVES CHOOSE TO BRING IT IN THAT STATE
COURT.
THE COURT: I WOULD SAY THAT THE
EVIDENCE AS TO OBSTRUCTION IS PRETTY
THIN.
[48] MR. WERKSMAN:
WITH YOUR HONOR.

I WOULD AGREE

AND EARLIER, YOUR HONOR, WHEN I WAS
BEGINNING WHAT I THOUGHT WOULD THEN BE

App. 169
MY STEM-WINDER ABOUT WHY BAIL SHOULD
BE GRANTED, I WAS PERPLEXED AT WHY THE
GOVERNMENT –
THE COURT: WHEN DID YOU BEGIN
YOUR STEM-WINDER?
MR. WERKSMAN: AT THE VERY BEGINNING WHEN THE COURT SAID I JUST WANT TO
KNOW WHETHER OR NOT YOU’RE OBJECTING
TO THE EVIDENCE.
THE COURT:
FIX THE TIME.

I WAS JUST TRYING TO

MR. WERKSMAN: I THINK YOUR HONOR
IS SUGGESTING – CALL IT AN ONGOING STEMWINDER.
BUT, YOUR HONOR, LOOK, AS WE STAND
HERE TODAY, MY CLIENT IS CHARGED IN A
ONE-COUNT INDICTMENT THAT’S ALL OF A
PAGE AND A HALF, THAT SAYS THIS MAN ALLEGEDLY RAN AND KNOWINGLY CONDUCTED, CONTROLLED A MONEY TRANSMITTING BUSINESS
THAT WAS UNLICENSED.
IT’S A FIVE YEAR COUNT. IT CARRIES A MAXIMUM OF FIVE YEARS IN FEDERAL PRISON. IT’S
AN INDICTMENT THAT WAS ISSUED FIVE AND A
HALF MONTHS AGO. IF THEY THOUGHT HE WAS
A FLIGHT RISK OR A DANGER TO THE COMMUNITY BECAUSE OF HIS OPERATION OF GOLDFINGER, THEY COULD HAVE AND SHOULD HAVE

App. 170
HAD A DUTY TO ARREST HIM IN FEBRUARY
WHEN THEY INDICTED HIM.
BUT THEY KNEW HE WASN’T GOING TO
FLEE. AND THEY KNEW HE WASN’T A DANGER
TO ANYBODY. AND THAT’S WHY THEY SAT ON
THIS APPARENTLY AND SAW FIT TO CONDUCT
ADDITIONAL [49] INVESTIGATION.
AND WHO KNOWS WHAT THEY WERE DOING
FOR THE PAST FIVE MONTHS. IT WILL BE INTERESTING FOR US TO EVENTUALLY LEARN WHEN
WE GET DISCOVERY WHAT TOOK THEM FIVE
AND A HALF MONTHS AND WHY THEY CHOSE
TO BRING THIS INDICTMENT NOW.
BUT THE BOTTOM LINE IS, YOUR HONOR,
THEY DIDN’T THINK HE WAS A FLIGHT RISK OR
A DANGER WHEN THEY INDICTED HIM. WHY IS
HE NOW. NOW HE IS BECAUSE THERE’S SOME
DETECTIVES HERE FROM LAPD WHO HAVE
PROFFERED TO AN FBI AGENT THAT THEY’VE
GOT THIS ACTIVE HOMICIDE INVESTIGATION
THAT THEY BELIEVE POINTS TO MR. FAYED.
NOW, YOUR HONOR, I’M AT A BIT OF A DISADVANTAGE TO TRY TO BATTLE AGAINST THE
TIDE OF THESE ALLEGATIONS WHEN THEY
COME IN IN THE FORMAT THAT THEY’VE BEEN
PRESENTED.
I CAST NO ASPERSIONS AGAINST MR. SWEC
BECAUSE HE’S DOING HIS JOB. HE’S A GOOD
PROFESSIONAL. HE’S A BRAND NEW FBI AGENT

App. 171
WHO’S DOING AS HE SHOULD. HE’S TRYING TO
HELP THE PROSECUTION AND –
THE COURT: BY THE WAY, MR. WERKSMAN, THE FACT THAT HE’S A ROOKIE ONLY
MEANS THAT HE’S NEW.
MR. WERKSMAN: THAT’S RIGHT.
THE COURT:
NOT GOOD.

IT DOESN’T MEAN HE’S

MR. WERKSMAN: AND THAT’S WHY I’M NOT
CASTING ASPERSIONS ON THE QUALITY OF HIS
WORK OR HIS GOOD INTENTIONS.
BUT LET’S FACE IT, YOUR HONOR, THE GOVERNMENT [50] RUSHED IN HERE WITH UNCORROBORATED, UNSUBSTANTIATED ALLEGATIONS
OF A MURDER THAT ARE BASED UPON A BRAND
NEW AGENT’S RECOLLECTION OF CONVERSATIONS HE HAD TODAY –
THE COURT:

ALL RIGHT.

MR. WERKSMAN: – THE LAST THREE
HOURS WITH TWO AGENTS –
THE COURT: MR. WERKSMAN, AND I
SHOULD HAVE FOCUSED MR. AVEIS ON THIS
TOO, I WOULD LIKE YOU FOLKS TO TALK ABOUT
THE BAIL REFORM ACT BECAUSE THAT’S MY
TASK, TO FIND OUT WHETHER MR. FAYED REPRESENTS A FLIGHT RISK AND/OR A DANGER.

App. 172
AND CORRECT ME IF I’M WRONG, AND I’LL
ASK MR. AVEIS TO AS WELL, THE NINTH CIRCUIT
DOESN’T PERMIT ME TO DETAIN SOMEBODY IF
THEY’RE SIMPLY A DANGER UNLESS IT’S A PRESUMPTION CASE.
IS THAT CORRECT?
MR. WERKSMAN:
YOUR HONOR.
THE COURT:

THAT’S

CORRECT,

JUST A MOMENT.

MR. AVEIS, DO YOU AGREE WITH THAT?
MR. AVEIS:

YES.

THE COURT:
HE A FLIGHT RISK.

SO, THE QUESTION IS IS

MR. WERKSMAN: AND I WOULD SUBMIT, YOUR HONOR, HE IS ABSOLUTELY NOT A
FLIGHT RISK FOR THE FOLLOWING REASONS.
NUMBER ONE, HE IS A 45-YEAR-OLD UNITED
STATES CITIZEN WHO HAS BEEN BORN AND
RAISED IN THIS COUNTRY. AND [51] HE’S LIVED
IN THIS COMMUNITY FOR 19 YEARS.
NOW, THE PRETRIAL SERVICES REPORT I
THINK USED SOME UNFORTUNATE LANGUAGE
ON PAGE 2 AT THE BOTTOM OF THE FIRST PARAGRAPH. IT SAID, QUOTE:
“THE DEFENDANT HAS LIMITED TIES TO
THE CENTRAL DISTRICT OF CALIFORNIA AREA.”

App. 173
THE COURT: YES. I UNDERSTOOD
THAT TO MEAN THAT HE DOESN’T HAVE MANY
RELATIVES AND THINGS OF THAT SORT. IT GOES
ON TO SAY HOW LONG HE HAS BEEN IN THE
CENTRAL DISTRICT.
MR. WERKSMAN: RIGHT.
THE COURT:
ADDRESS THAT.

SO, YOU DON’T NEED TO

MR. WERKSMAN: BUT
HIS TIES,
THOUGH, YOUR HONOR, ARE QUITE EXTENSIVE
BECAUSE HE’S OWNED PROPERTY HERE. HE’S
LIVED HERE. HE’S WORKED HERE. HE’S BUILT
HIS BUSINESSES HERE. HIS ENTIRE CIRCLE OF
FRIENDS AND BUSINESS ASSOCIATES AND COLLEAGUES AND COUNSEL AND EVERYTHING
THAT HE’S DONE IN HIS LIFE IN THE LAST 20
YEARS IS CENTERED HERE IN LOS ANGELES IN
THE MOORPARK AREA.
HE HAS TWO PROPERTIES, YOUR HONOR,
THAT ARE EXTREMELY VALUABLE AND WOULD
BE EXCELLENT ASSETS TO BE POSTED TO SECURE HIS APPEARANCE. THEY ARE THE HOME
IN CAMARILLO THAT HE USED TO SHARE WITH
HIS DECEASED WIFE THAT I UNDERSTAND TO
HAVE APPROXIMATELY A HUNDRED AND –
$700,000 IN EQUITY IN IT. IT’S A HOME HE’S
OWNED SINCE 2002. BECAUSE OF HIS WIFE’S
DEMISE LAST WEEK IT IS NOW HIS HOME EXCLUSIVELY. [52] AND IT’S HIS TO POST. AND IT’S
HIS RESIDENCE WHERE HE’S LIVED FOR THE

App. 174
PAST SIX YEARS WITH THE EXCEPTION OF MOVING INTO THE MOORPARK RANCH APPROXIMATELY A YEAR OR SO AGO IN RESPONSE TO
THE DIVORCE AND THE ESTRANGEMENT.
THE MOORPARK PROPERTY HAS PROBABLY
GOT EQUITY TOTALLY $2.5 MILLION, YOUR
HONOR. BECAUSE IT’S 286 ACRES. IT’S GOT TWO
WELLS ON IT.
AND I’M GOING TO MENTION THIS, YOUR
HONOR. THIS IS NOT IRRELEVANT. THIS IS A
UNIQUE SPECIAL PROPERTY THAT – THERE’S
NO PROPERTY LIKE IT IN SOUTHERN CALIFORNIA. SO, IT’S EXTREMELY VALUABLE NOT ONLY
FINANCIALLY BUT EMOTIONALLY TO HIM. HE’S
WORKED A LOT. HE’S SPENT A LOT OF TIME AND
MONEY FIXING UP THIS – IT’S A RANCH. IT’S A
WORKING RANCH WITH 286 ACRES, AND IT
BACKS UP AGAINST A 4,000-ACRE STATE RESERVE. SO, IT’S A VERY SPECIAL PROPERTY
THAT HE WOULD NEVER ABANDON IN ORDER
TO FLEE THIS JURISDICTION. AND IT’S GOT A
VALUE OF AT LEAST $2.5 MILLION.
YOUR HONOR, THIS MAN HAS A DAUGHTER.
SHE HASN’T BEEN RAISED IN THESE PROCEEDINGS, BUT HE’S GOT A NINE-YEAR-OLD DAUGHTER WHO HE HAS NOT BEEN ABLE TO SEE
SINCE THE DEATH OF HIS WIFE ON MONDAY.
THEY HAD A JOINT CUSTODY ARRANGEMENT WHICH ALLOWED HIM – IT WAS A COMPLETE JOINT CUSTODY AGREEMENT THAT

App. 175
ALLOWED HIM 50 PERCENT TIME WITH THE
CHILD.
SHE WOULD STAY WITH HIM WEEKENDS
AND ALTERNATE WEEK [53] DAYS. THERE WAS A
WHOLE FORMULA. VERY CLOSE TO THE GIRL.
SHE’S NINE YEARS OLD. A BIOLOGICAL DAUGHTER OF HIMSELF AND HIS EX-WIFE.
SINCE THE WIFE’S DEATH, HE HASN’T BEEN
ABLE TO SEE HER. SHE’S BEEN SPIRITED AWAY
BY AN 18-YEAR-OLD HALF-SISTER WHO IS THE
BIOLOGICAL DAUGHTER OF THE DECEDENT
PAMELA FAYED AND SOME OTHER PREVIOUS
HUSBAND.
WE MADE A MISSING PERSON’S REPORT
THROUGH THE VENTURA POLICE DEPARTMENT
ON THURSDAY, YOUR HONOR. I SAY WE BECAUSE I ACCOMPANIED MY CLIENT TO THE
VENTURA POLICE –
THE COURT: I WANT YOU TO FOCUS ON
THE QUESTION OF BAIL.
MR. WERKSMAN: I’M FOCUSING, YOUR
HONOR, BECAUSE IT’S EVIDENCE OF HIS TIES
HERE. HE WANTS HIS DAUGHTER. HE’S FILED A
MISSING PERSON’S REPORT. HE’D LIKE TO BE
HOME SO HE CAN CARE FOR HER. HE’S THE
ONLY LIVING PARENT THIS CHILD HAS. AND
THAT IS A RELEVANT FACTOR IN BAIL, YOUR
HONOR. HE HAS A FAMILY OBLIGATION, AND

App. 176
HE’S EXERCISING IT. HE FILED A MISSING PERSON’S REPORT.
AND THE POLICE HAVE BEEN UNCOOPERATIVE PROBABLY BECAUSE THEY EXPECTED US
TO BE HERE TODAY AND HIM NOT HOME TOMORROW. BUT NEVERTHELESS, YOUR HONOR –
THE COURT: LET’S NOT CAST ASPERSIONS ON THE POLICE. ALL RIGHT. LET’S JUST
TRY AND FIGURE OUT IF THIS GENTLEMAN
PRESENTS A FLIGHT RISK.
[54] MR. WERKSMAN: IN ADDITION,
YOUR HONOR, HE HAS SEVERE MEDICAL –
THE COURT: I DON’T NEED ANY MORE
STEM-WINDERS. REALLY NEED FOCUSING ON
FACTS.
MR. WERKSMAN: I’M TRYING TO DO
THAT, YOUR HONOR. HE’S GOT SEVERE MEDICAL ISSUES. HE’S GOT AN AUTOIMMUNE DISEASE AND A SEVERE ADVANCED RHEUMATOID
ARTHRITIS –
THE COURT:
TRIAL REPORT.

THAT’S ALL IN THE PRE-

MR. WERKSMAN: AND I SUBMIT THAT
THAT’S SIGNIFICANT, YOUR HONOR. BECAUSE
HE HAS TWO DOCTORS HERE, DR. PAULEY AND
A DR. WOOD, WHO HE IS TREATED BY REGULARLY. THEY SPECIALIZE IN THE ORTHOPEDICS
AND THE CHRONIC PAIN MANAGEMENT.

App. 177
THE COURT: NOW, YOU DIDN’T PROFFER ANY OF THAT, MR. WERKSMAN.
MR.
HONOR?

WERKSMAN:

I’M

SORRY,

YOUR

THE COURT: YOU DIDN’T PROFFER ANY
OF THAT.
MR. WERKSMAN: I WAS UNABLE IN
THE TIME PERMITTED TO GET LETTERS OR
DOCUMENTATION OF THAT, YOUR HONOR. BUT
I AM PROFFERING THAT IN MY ARGUMENT BECAUSE THE PRETRIAL SERVICES REPORT DOCUMENTS WE DID PRESENT TO PRETRIAL
EVIDENCE OF HIS INFIRMITIES –
THE COURT: WHERE ARE THE DOCTORS? WHERE ARE THE LOCATED?
MR. WERKSMAN: DR. JOE PAULEY IS
LOCATED IN, I [55] BELIEVE, CAMARILLO. AND
SO IS DR. WOOD.
THE DEFENDANT:
HONOR –
THE
COUNSEL.

COURT:

PARDON ME. YOUR

JUST TALK TO YOUR

(MR. WERKSMAN CONFERRING WITH
CLIENT.)
MR. WERKSMAN: DR. PAULEY IS IN
CAMARILLO, AND DR. WOOD – NO. DR. WOOD IS

App. 178
IN CAMARILLO, AND DR. PAULEY IS IN VENTURA.
THE COURT: ALL RIGHT. NOW, JUST A
MOMENT. MR. AVEIS, DO YOU ACCEPT THAT?
MR. AVEIS:
THE COURT:

I DO.
ALL RIGHT.

GO AHEAD, MR. WERKSMAN.
MR. WERKSMAN: HE HAS REGULAR APPOINTMENTS WITH THESE DOCTORS WHO GIVE
HIM A COCKTAIL OF MEDICATIONS THAT PERMIT HIM TO GET THROUGH THE DAY, YOUR
HONOR. THESE ARE SERIOUS MEDICATIONS
WITHOUT WHICH HE’S IN CHRONIC PAIN.
SO, THAT IS A TIE, YOUR HONOR. AND HIS
SICKNESS WOULD DISABLE HIM FROM FLEEING THIS JURISDICTION.
I WOULD ALSO SUBMIT, YOUR HONOR, THAT
AS THE COURT KNOWS, HE HAS NO PRIOR CRIMINAL RECORD. AND I KNOW THE COURT, I
THINK, HAS RECEIVED ENOUGH ARGUMENT
AND EVIDENCE ON THE DANGER ISSUE.
THE ONLY DANGER THAT’S BEEN ALLEGED
WITH ANY SPECIFICITY BY THE GOVERNMENT
IS THE DANGER THAT HE WOULD RUN AN UNLICENSED MONEY TRANSMITTING BUSINESS.
[56] BUT AS YOUR HONOR KNOWS, THAT IS
NOT A DANGER WHILE THE GOVERNMENT HAS

App. 179
ACCESS TO HIS PREMISES. HE COULD BE ORDERED AS A CONDITION OF PRETRIAL RELEASE
TO NOT HAVE ANY FURTHER AFFILIATION
WITH OR DIRECT INVOLVEMENT IN THE BUSINESS. THERE ARE MEASURES THAT THE COURT
CAN TAKE TO INSURE THAT ANYTHING HE DID
UPON HIS RELEASE WOULD BE LAWFUL AND
SUBJECT TO SCRUTINY BY THE COURT, THE
PRETRIAL SERVICES OFFICER, OR THE GOVERNMENT.
AND, YOUR HONOR, I WOULD POINT OUT
ONE OTHER PIECE OF INFORMATION, WHICH
IS THE PUBLIC RECORD THAT I PRESENTED TO
PRETRIAL SERVICES THERE WAS A SIMILAR
CASE BROUGHT IN THE DISTRICT OF COLUMBIA
IN 2006 AGAINST A COMPANY CALLED EGOLD.
IN THE EGOLD CASE THE GOVERNMENT INDICTED EGOLD AND ITS CO-FOUNDER AND
OWNER DOUGLAS JACKSON WITH NOT ONLY
RUNNING AN UNLICENSED MONEY TRANSMITTING BUSINESS BUT CONSPIRACY AND CONSPIRACY
TO
LAUNDER
MONEY
AND
LAUNDERING MONEY FOR CHILD PORNOGRAPHERS AND CREDIT CARD SCAMMERS.
DOUGLAS JACKSON, YOUR HONOR, WAS RELEASED IN HIS RECOGNIZANCE BY THE U.S. DISTRICT COURT IN THE DISTRICT OF COLUMBIA.
THE COURT:
THAT CASE?

WAS THIS DEFENDANT IN

MR. WERKSMAN: NO, YOUR HONOR.

App. 180
THE COURT:
ABOUT THAT.

I DON’T NEED TO HEAR

MR. WERKSMAN: I OFFER IT ANECDOTALLY AS EVIDENCE, YOUR HONOR, THAT A –
[57] THE COURT: AND WOULD YOU
LIKE MR. AVEIS TO GIVE YOU AN ANECDOTAL
RECITATION OF SOMEBODY WHO WAS DETAINED?
MR. WERKSMAN: YOUR HONOR, I DON’T
THINK MR. AVEIS CAN GIVE ME ANECDOTAL
EVIDENCE OF ANYBODY EVER DETAINED ON
ONE FIVE-YEAR COUNT OF RUNNING AN UNLICENSED –
THE COURT: WELL, I SUSPECT THERE
IS SOME JUDGE IN THE COUNTRY WHO’S DONE
THAT.
MR. WERKSMAN: WELL, YOUR HONOR,
I DON’T KNOW THAT ANYBODY WOULD UNDER
THESE CIRCUMSTANCES.
THE COURT: WELL, MY POINT, MR.
WERKSMAN, IS THAT IT DOESN’T HELP ME TO
KNOW THAT A DISTRICT COURT IN THE DISTRICT OF COLUMBIA WITH A DIFFERENT DEFENDANT AND DIFFERENT FACTS AND A
DIFFERENT COMPANY RELEASED SOMEBODY
ON HIS PERSONAL RECOGNIZANCE.
LET’S TALK ABOUT THIS CASE.

App. 181
MR. WERKSMAN: OKAY. I WILL, YOUR
HONOR. AND I’LL CONCLUDE BY SUBMITTING
ON THE PRETRIAL SERVICES REPORT AND THE
OTHER FACTS AND EVIDENCE THAT’S BEEN
BROUGHT IN.
AND, YOUR HONOR, I WOULD ALSO PROFFER IN SUPPORT OF A BOND THE TWO PROPERTIES. HE HAS LAWFUL AUTHORITY TO POST
THOSE. WE HAVE A BONDSMAN PRESENT TO ASSIST IN THAT.
AND I SUBMIT, YOUR HONOR, THAT THERE
MAY BE A TIME AND A PLACE FOR THE GOVERNMENT TO ADD MORE SERIOUS CHARGES TN THE
FEDERAL CASE. THERE MAY BE A TIME AND A
PLACE FOR THESE LOS ANGELES POLICE DETECTIVES TO BRING A MURDER CASE. BUT [58]
THEY CAN’T DO IT IN A BACKDOOR FASHION,
YOUR HONOR. YOU MAY BE ABLE TO BUILD A
PROSECUTION AGAINST SOMEBODY INCREMENTALLY, BUT YOU CAN’T DETAIN HIM TODAY
ON A ONE FIVE-YEAR COUNT BECAUSE TOMORROW HE MAY BE PROSECUTED FOR MURDER.
IT’S JUST SIMPLY NOT APPROPRIATE, YOUR
HONOR. IT’S UNFOUNDED. IT’S UNSUBSTANTIATED. AND THIS MAN DESERVES TO BE
TREATED BY THIS COURT FOR WHAT HE’S
CHARGED WITH.
AND I SUBMIT ON THAT, YOUR HONOR.

App. 182
THE COURT:

THANK YOU, MR. WERKS-

MAN.
MR. AVEIS.
MR. AVEIS:

YOUR HONOR –

THE COURT: BY THE WAY, AM I CORRECTLY PRONOUNCING YOUR NAME?
MR. AVEIS:

YES. AVEIS IS CORRECT.

YOUR HONOR, WE WOULD BE HAVING A DIFFERENT DISCUSSION IF IT WERE PRIOR TO 6:35
P.M. ON JULY 28TH, WHICH IS THE TIME THAT
PAMELA FAYED WAS BRUTALLY STABBED BY AN
ASSAILANT, WHO POPPED OUT OF A CAR THAT
HAD BEEN RENTED WITH THIS DEFENDANT’S
CREDIT CARD, THE CARD BEING FOUND IN HIS
WALLET DURING A SEARCH.
IF I WERE SEEKING DETENTION SOLELY
UPON A FIVE-YEAR COUNT, I’M SURE MR.
WERKSMAN WOULD PREVAIL. I’M NOT.
THE COURT: AND YOUR ASSUMPTION
IS THAT HE IS MORE THAN A SUSPECT IN THAT
CASE?
[59] MR. AVEIS: I THINK THE EVIDENCE IS
ABUNDANTLY CLEAR HE’S THE PRIME SUSPECT
IN THAT CASE, YOUR HONOR.
THE FLIGHT RISK ANALYSIS THE COURT
MUST UNDERTAKE IS NOT LIMITED TO THE

App. 183
CHARGE AT HAND. IT’S WHETHER THIS DEFENDANT WILL APPEAR FOR THIS CHARGE.
THE COURT: SO, YOU BELIEVE THAT
HE IS A FLIGHT RISK IN THIS CASE BECAUSE HE
IS A PRIME SUSPECT IN THAT CASE?
MR. AVEIS: ABSOLUTELY. THAT’S WHY I
SAY WE WOULD BE HAVING A DIFFERENT DISCUSSION IF IT WERE PRIOR TO THE MURDER OR
THAT THE MURDER HAD NOT OCCURRED.
THE COURT: BUT HE’S A PRIME SUSPECT BUT NOT YET AT LEAST WITH ENOUGH
EVIDENCE FOR THE STATE AUTHORITIES TO
ARREST HIM ON THAT –
MR. AVEIS: CANNOT PRESUME WHAT
THE STATE AUTHORITIES –
THE COURT:
MR. AVEIS:

WELL –
– IN THAT RESPECT.

THE COURT:
JUST ASKING –

I’M NOT ASKING TO. I’M

MR. AVEIS: THE ONLY STATED FACT AS
WE STAND HERE HE HASN’T BEEN ARRESTED
ON THAT CASE.
THE COURT: AND SO FAR AS YOU
KNOW A CHARGE HAS NOT BEEN FILED.

App. 184
MR. AVEIS: THAT’S CORRECT. AS FAR AS
I PERSONALLY KNOW A CHARGE HAS NOT BEEN
FILED.
YOUR HONOR, THE EVIDENCE FOR PURPOSES OF THIS [60] HEARING SHOWS HE’S
LOOKING AT THE BUSINESS END OF A MURDER
PROSECUTION WITH A LYING-IN-WAIT SPECIAL
CIRCUMSTANCE DEATH PENALTY ALLEGATION.
I DON’T THINK THE EQUATION TIPS IN HIS FAVOR IN LIGHT OF THE FACT THAT SHE WAS
MURDERED AND THIS EVIDENCE HAS BEEN
PRODUCED.
THIS DEFENDANT HAS EVERY REASON NOT
TO WANT TO BE HERE AND TO ABANDON WHATEVER HOUSE HE MAY HAVE BUILT, WHATEVER
BUSINESS HE MAY HAVE, OR WHATEVER OTHER
ASSETS HE MAY HAVE. HIS FREEDOM AND POTENTIALLY HIS LIFE IS NOW AT STAKE. IT’S A
WHOLLY DIFFERENT MATTER THAN PRIOR TO
THE TIME SHE WAS MURDERED OR IF SHE
WERE NOT MURDERED AT ALL.
THE FLIGHT RISK ANALYSIS, YOUR HONOR,
IS NOT LIMITED TO THE FACT THAT HE ONLY
FACES A FIVE-YEAR COUNT IN THIS CASE. IT’S
NOT LIMITED TO THE POSSIBILITY THAT HE
MAY BE FURTHER INDICTED IN THIS CASE AND
MAY BE LOOKING AT A 30-YEAR COUNT; FOR EXAMPLE, FOR BANK FRAUD. OR A 20-YEAR COUNT
FOR MONEY LAUNDERING.

App. 185
WHAT REALLY DRIVES THE BUS HERE,
YOUR HONOR, IS THE FACT THAT THIS DEFENDANT IS A PRIME SUSPECT IN A MURDER-FORHIRE SCHEME. AND THAT BASED UPON THIS
EVIDENCE CLEARLY SHOWS HE HAS EVERY
REASON TO FLEE. AND THE EVIDENCE SHOWS
HE HAS THE MEANS TO DO THAT.
AND THAT’S WHY I BELIEVE HE’S A FLIGHT
RISK, WHY WE WOULD BE ENTITLED TO THE
HEARING WHICH ALLOWS US NEXT TO MOVE
TO THE ADDITIONAL ANALYSIS OF DANGER.
THE FACT THAT HE HAS [61] GUNS THAT WERE
NOT SEIZED, THAT IF HE WERE RELEASED HE
LIKELY WOULD HAVE ACCESS TO DESPITE
WHATEVER CONDITION OR COMBINATION OF
CONDITIONS MIGHT BE IMPOSED WITH RESPECT TO A FIREARMS PROHIBITION. WE KNOW
WHERE HE LIVES IN THIS REMOTE AREA AS MR.
WERKSMAN DESCRIBED. WE KNOW HIS MOTIVE
AND OPPORTUNITY FOR THE KILLING.
AND THE OTHER INDIVIDUAL WHO WAS INVOLVED – AS I MENTIONED, THERE WERE
THREE PEOPLE – IN THE CAR CONVENIENTLY
IN A PLACE WHERE SHE WAS GOING TO BE ATTENDING THIS HEARING WHICH PROVIDED
THE DEFENDANT WITH A PERFECT ALIBI.
HE HAS THE MEANS, THE MOTIVE, THE OPPORTUNITY TO DO MORE. IF HE WAS WILLING
TO KILL OVER A DIVORCE CASE OR A WHITE
COLLAR CASE, HE’S WILLING TO KILL EVEN

App. 186
MORE OVER THE FACT THAT HE’S A PRIME SUSPECT IN A MURDER.
ACCORDINGLY, I THINK, YOUR HONOR,
WE’VE ESTABLISHED BOTH THE GROUNDS FOR
A DETENTION HEARING. WE’VE ESTABLISHED
HE’S A FLIGHT RISK. AND WE’VE ESTABLISHED
HE’S A DANGER TO THE COMMUNITY. AND NO
CONDITION OR COMBINATION OF CONDITIONS
CAN ASSURE THAT THIS DEFENDANT WILL NOT
GO OUT LOOKING FOR MORE PEOPLE THAT
CAUSED THAT SAME KIND OF HORRIBLE EVENT
THAT WE’VE ALREADY EXPERIENCED LAST
WEEK.
AND I BELIEVE THAT ON THIS RECORD THIS
DEFENDANT OUGHT TO BE DETAINED.
THE COURT: ALL RIGHT. IN THE
COURT’S VIEW THE GOVERNMENT HAS NOT
SUSTAINED ITS BURDEN OF ESTABLISHING
THAT [62] THE DEFENDANT IS NOT ENTITLED
TO BAIL UNDER THE BAIL REFORM ACT.
IT’S NOT TO GAINSAY THAT THERE IS SOME
RISK. THE FACT THAT THE DEFENDANT APPEARS TO BE A PRIME SUSPECT MAY, IN FACT,
BE A FACTOR. BUT IT’S NOT SUFFICIENT IN THE
COURT’S VIEW TO ESTABLISH THAT THE COURT
CANNOT FASHION CONDITIONS THAT WILL INDICATE THE DEFENDANT IS LIKELY TO APPEAR
AND RESTRICT HIS ABILITY TO PRESENT A DANGER TO THE COMMUNITY.

App. 187
NOR IS IT TO SAY THAT IF CIRCUMSTANCES
CHANGE, EITHER IN THE STATE SYSTEM OR IN
THE FEDERAL SYSTEM, THAT THE MATTER
CANNOT BE REVISITED. BUT ON THE RECORD
MADE BEFORE THIS COURT THE COURT WOULD
HAVE TO BUILD INFERENCES UPON VERY, VERY
LIMITED EVIDENCE IN ORDER TO ESTABLISH
THAT THE DEFENDANT IS SUCH A FLIGHT RISK
THAT BAIL CANNOT BE SET.
SO, I’M GOING TO SET BAIL.
DOES EITHER PARTY WISH TO BE HEARD AS
TO THE AMOUNT OF BAIL?
MR. WERKSMAN: YOUR HONOR, IF I
MAY. I THINK THE COURT IS ALREADY INTENDING TO HAVE HIM POST HIS PROPERTY. THAT’S
WHAT I WOULD PROFFER, YOUR HONOR, BECAUSE THERE’S A SUBSTANTIAL AMOUNT OF
EQUITY IN HIS HOMES. AND THAT WOULD APPEAR TO BE AN APPROPRIATE POSTING.
THE COURT: THE PROPERTIES CAN BE
POSTED, BUT THE PROPERTIES STAND AS COLLATERAL FOR AN AMOUNT OF BAIL. SO, MY
QUESTION WAS WHAT AMOUNT?
[63] AND YOU STOOD FIRST, MR. WERKSMAN,
SO I’LL HEAR YOU FIRST.
MR. WERKSMAN: YOUR HONOR, I
WOULD ASK THAT THE COURT SET BOND IN
THE AMOUNT OF $250,000, WHICH IS COMMENSURATE WITH THE NATURE OF THE CHARGE.

App. 188
AND IT’S AN AMOUNT THAT COULD BE FULLY
JUSTIFIED BY THE DEEDING OF ONE OR BOTH
OF THE PROPERTIES THAT MR. FAYED OWNS.
AND I THINK THAT WOULD BE SUBSTANTIAL
BAIL THAT WOULD INDICATE THE COURT’S AND
THE GOVERNMENT’S INTEREST IN INSURING
HIS APPEARANCE IN THESE PROCEEDINGS.
AND I THINK IT WOULD ALSO BE A HARDSHIP FOR HIM TO ABANDON PROPERTIES FOR
THAT AMOUNT OF MONEY.
THE COURT:
MR. AVEIS:

MR. AVEIS.
THANK YOU, YOUR HONOR.

I WOULD NOT WANT MY INPUT ON ANY
AMOUNT OF BAIL TO BE DEEMED – MY BELIEF
THAT –
THE COURT:
MR. AVEIS:
CONDITION –

IT’S NOT.
IT WOULD BE SOLID AS A

THE COURT: IT’S NOT. YOU DON’T
WAIVE ANYTHING. I’M SIMPLY ASKING IF YOU
HAVE INPUT. IF YOU DON’T HAVE INPUT, THAT’S
FINE TOO.
MR. AVEIS: ONLY FOR THE PURPOSES
OF THIS HEARING, YOUR HONOR, BASED UPON
WHAT APPEAR TO BE THE DEFENDANT’S OWN
STATEMENTS, BUT SUBJECT TO A REVIEW OF
AN APPRAISAL, IT WOULD SEEM TO ME THAT AT
THE VERY LEAST – WE HAVE $1.7 MILLION IN

App. 189
[64] EQUITY IN HIS PERSONAL RESIDENCE AND
ANOTHER APPROXIMATELY $500,000 IN THE
PROPERTY IN CAMARILLO. THE GOVERNMENT
WOULD ASK THAT BAIL BE SET IN NOT LESS
THAN $2 MILLION WITH AN AGGREGATE OF
COLLATERAL BASED UPON THOSE PIECES OF
REAL ESTATE.
AND I DON’T WANT TO FORGET TO ASK THAT
THE COURT – REQUEST THAT THE COURT STAY
ITS DECISION HERE TODAY FOR A REASONABLE
TIME TO ALLOW ME TO RESPECTFULLY APPEAL
THE COURT’S DECISION.
THE COURT: LET’S DEAL WITH BAIL
FIRST AND THEN WE’LL DEAL WITH THE STAY
QUESTION.
MR. AVEIS:

VERY WELL.

(PAUSE IN PROCEEDINGS.)
THE COURT:
BAIL AS FOLLOWS:

THE COURT WILL SET

THE DEFENDANT IS TO BE RELEASED UPON
THE POSTING OF AN APPEARANCE BOND IN
THE AMOUNT OF $500,000 BACKED BY A JUSTIFIED AFFIDAVIT OF SURETY WITH FULL DEEDING OF PROPERTY, WHICH CAN BE EITHER THE
PERSONAL RESIDENCE OR THE HOME IN
MOORPARK, OR BOTH.
THE DEFENDANT IS TO SUBMIT TO INTENSIVE PRETRIAL SUPERVISION.

App. 190
THE DEFENDANT IS TO SURRENDER ALL
PASSPORTS TO PRETRIAL SERVICES.
THE DEFENDANT’S TRAVEL IS RESTRICTED
TO THE CENTRAL – AND IS NOT TO APPLY FOR
THE ISSUANCE OF A PASSPORT DURING [65] THE
PENDENCY OF THIS CASE.
THE DEFENDANT’S TRAVEL IS RESTRICTED
TO THE CENTRAL DISTRICT OF CALIFORNIA.
THE DEFENDANT IS NOT TO ENTER THE PREMISES OF ANY AIRPORT, SEAPORT, RAILROAD OR
BUS TERMINAL WHICH ALLOWS EXIT FROM
THE CENTRAL DISTRICT OF CALIFORNIA.
THE DEFENDANT IS TO RESIDE IN A LOCATION APPROVED IN ADVANCE BY PRETRIAL
SERVICES AND NOT TO RELOCATE WITHOUT
PRIOR PERMISSION FROM PRETRIAL SERVICES.
THE DEFENDANT IS NOT TO POSSESS ANY
FIREARMS, AMMUNITION, DESTRUCTIVE DEVICES OR OTHER DANGEROUS WEAPONS AND,
IN ORDER TO DETERMINE COMPLIANCE WITH
THIS CONDITION, IS TO AGREE TO SUBMIT TO A
SEARCH OF HIS PERSON AND/OR HIS PROPERTY
BY PRETRIAL SERVICES ACTING IN CONJUNCTION WITH THE UNITED STATES MARSHAL.
THE DEFENDANT IS TO PARTICIPATE IN A
HOME DETENTION PROGRAM AND IS RESTRICTED TO HIS RESIDENCE – EXCUSE ME – IS
RESTRICTED TO THE RESIDENCE WHICH PRETRIAL SERVICES APPROVES AT ALL TIMES

App. 191
EXCEPT FOR EMPLOYMENT, RELIGIOUS SERVICES, MEDICAL APPOINTMENTS, ATTORNEYCLIENT VISITS, COURT OBLIGATIONS AND ANY
OTHER ACTIVITIES APPROVED BY PRETRIAL
SERVICES.
IN ORDER TO DETERMINE COMPLIANCE
WITH THIS, THE DEFENDANT IS TO BE SUBJECTED TO ELECTRONIC MONITORING AND
SHALL PAY FOR ALL OR PART OF THE COSTS OF
THE PROGRAM BASED UPON HIS ABILITY TO
PAY AS DETERMINED BY PRETRIAL SERVICES.
[66] THOSE ARE THE CONDITIONS THE
COURT WOULD SUGGEST.
BEFORE I PROCEED FURTHER, DOES EITHER
SIDE WISH TO SUGGEST ANY OTHER CONDITIONS?
THE DEFENDANT:
THE COURT:

YOUR HONOR –

JUST A MOMENT.

LET ME HEAR FROM THE ATTORNEYS.
THEN, I’LL HEAR FROM PRETRIAL ALSO.
MR. WERKSMAN.
MR. WERKSMAN: YOUR HONOR, I’D
LIKE TO REQUEST THAT THE COURT ALSO ORDER THAT HE BE RELEASED FORTHWITH AND
BE GIVEN APPROXIMATELY EIGHT TO TEN
COURT DAYS TO POST THE PROPERTY. IT TAKES
SOME TIME TO SET UP ALL THESE MECHANISMS THE COURT IS CONSIDERING IMPOSING.

App. 192
THE COURT:

MR. AVEIS.

MR. AVEIS: – WOULD OBJECT. IT PROVIDES THE GOVERNMENT WITH ABSOLUTELY
NO ASSURANCE OF HIS APPEARANCE – OR FUTURE APPEARANCES OR OTHERWISE THAT HE
WOULD FLEE.
AND, AGAIN, THIS WOULD NOT BE INCONSISTENT WITH MY REQUEST THAT THE COURT
STAY THE DECISION OF ITS RULING UNTIL I’M
ABLE TO RESPECTFULLY APPEAL THIS.
THE COURT: ALL RIGHT. ARE THERE
OTHER CONDITIONS WHICH IF THE COURT
DOES SET BAIL THAT THE GOVERNMENT
WOULD SUGGEST?
MR. AVEIS:

NO, THANK YOU.

THE COURT: ALL RIGHT. AND
HEAR FROM PRETRIAL [67] NOW.

I’LL

THE PRETRIAL SERVICES OFFICER: YOUR
HONOR, WE WOULD JUST REQUEST THAT WITH
REGARD TO THE ELECTRONIC MONITORING,
THAT HE BE RELEASED TO PSA ONLY –
THE COURT:

YES.

THE PRETRIAL SERVICES OFFICER: – TO
FACILITATE THE INSTALLATION OF THE EQUIPMENT.
THE COURT: YES. YES, THAT’S IN MY
MIND AUTOMATIC, BUT YES.

App. 193
ALL RIGHT. I WILL DENY THE REQUEST FOR
A FORTHWITH RELEASE.
MR. FAYED, THE CONDITIONS I’VE ANNOUNCED HERE IN OPEN COURT FOR YOUR RELEASE FROM CUSTODY ARE IN SOME
CIRCUMSTANCES IN ADDITION TO CONDITIONS
WHICH ARE PRINTED ON THE FORM OF THE
BOND.
IF YOU FAIL TO COMPLY WITH ANY OF THE
CONDITIONS FOR YOUR RELEASE, THEN, THE
BOND WILL BE FORFEITED TO THE GOVERNMENT. THE ORDER FOR YOUR RELEASE WILL BE
CANCELLED, AND YOU’LL BE REARRESTED IMMEDIATELY.
IN ADDITION, YOU CAN BE PROSECUTED
FOR CONTEMPT OF COURT, AND THAT CAN
BRING A FINE OR JAIL TIME OR BOTH.
AND IF YOU COMMIT AN OFFENSE WHILE
YOU’RE ON PRETRIAL RELEASE, THEN, YOU MAY
BE SUBJECT TO IMPRISONMENT AFTER A PROSECUTION FOR AS MUCH AS FIVE YEARS BEYOND WHAT YOU FACE ON THE CHARGES IN
THIS CASE.
[68] NOW, DO YOU UNDERSTAND, SIR, THERE
CAN BE VERY SERIOUS CONSEQUENCES IF YOU
DO NOT COMPLY WITH THE CONDITIONS I’VE
SET FOR YOUR RELEASE?
THE DEFENDANT:
DO.

YES, YOUR HONOR, I

App. 194
THE COURT: YOU AGREE TO COMPLY
WITH THOSE CONDITIONS?
THE DEFENDANT:
THE COURT:
REMIND ME.
MR. AVEIS:

YES, SIR.

WHEN DID WE SET PIA?

AUGUST 18TH.

THE COURT: ALL RIGHT. ONE OF YOUR
CONDITIONS, MR. FAYED, IS THAT YOU MAKE
ALL YOUR COURT APPEARANCES. SO, I’VE SET
ANOTHER COURT APPEARANCE IN THIS COURTROOM, COURTROOM 341, OF THE ROYBAL FEDERAL BUILDING FOR AUGUST 18TH AT 8:30 A.M.
DO YOU UNDERSTAND THAT?
THE DEFENDANT:

YES, YOUR HONOR, I

DO.
THE COURT:

YOU’RE REQUIRED TO BE

HERE.
THE DEFENDANT:
THE COURT:

YES, SIR.

DO YOU AGREE TO DO

THAT?
THE DEFENDANT:

YES, SIR.

THE COURT: ALL RIGHT. MR. AVEIS, I’LL
HEAR FROM YOU ON YOUR REQUEST FOR A
STAY.
MR. AVEIS:

YES. I WOULD REQUEST –

App. 195
THE COURT:
WITH RELEASE.

I DID DENY THE FORTH-

MR. AVEIS: YES. I WOULD REQUEST A
STAY TO ENABLE [69] THE GOVERNMENT JUST
SOME TIME TO RESPECTFULLY APPEAL THE
COURT’S RULING.
AND IN LIGHT OF MR. WERKSMAN’S STATEMENT THAT IT WILL TAKE EIGHT TO TEN DAYS
FOR HIM TO PREPARE THE PAPERWORK, AND
BASED UPON MY OWN EXPERIENCE, THAT
WOULD NOT BE UNREASONABLE GIVEN THE
PAPERWORK THAT DOES NEED TO GET DONE
FOR THIS PARTICULAR BOND.
I WOULD REQUEST THAT THE COURT JUST
STAY ITS RULING UNTIL THIS FRIDAY AT CLOSE
OF BUSINESS 5:00 P.M.
THE COURT:
FRIDAY THE 8TH.
MR. AVEIS:
THE COURT:

THAT’S FRIDAY, THE 8TH –
YES, SIR.
MR. WERKSMAN.

MR. WERKSMAN: YOUR HONOR, I
WOULD OBJECT TO A STAY OF THAT LENGTH.
IN ORDER TO RELEASE MY CLIENT SO THAT HE
COULD GET THE MEDICAL CARE THAT HE
NEEDS AND BE REUNITED WITH HIS FAMILY,
WHICH IS A NINE-YEAR-OLD DAUGHTER WHOSE
MOTHER HAS BEEN MURDERED, AND HE’S THE

App. 196
ONLY PARENT SHE HAS, WE NEED TO GET MOVING ON THIS AND GET HIM OUT.
I WOULD SUBMIT, YOUR HONOR, THAT THE
GOVERNMENT IS LIKELY TO BRING ANY KIND
OF ACTION IN THE NEXT 48 HOURS. BUT AFTER
THAT, YOUR HONOR, WE’RE JUST PERPETUATING AND ALLOWING HIM TO LINGER IN CUSTODY WHEN THIS COURT HAS ISSUED A
RELEASE ORDER.
SO, I WOULD RESPECTFULLY REQUEST
THAT HE BE ALLOWED [70] TO BE RELEASED –
THAT HE BEGIN – THAT THE GOVERNMENT’S
STAY BE NO LONGER THAN – THEY SHOULDN’T
HAVE A STAY, YOUR HONOR. HE SHOULD BE ALLOWED TO POST THE BOND.
THE COURT: WELL, IT’S ALL ACADEMIC
IF HE CAN’T POST THE PROPERTY ANY QUICKER
THAN WHAT YOU DESCRIBED ANYWAY.
BUT I WILL GRANT THE GOVERNMENT’S REQUEST FOR A STAY BUT NOT TILL FRIDAY. I’LL
GIVE YOU TILL WEDNESDAY AT 4:30, MR. AVEIS,
TO SEEK REVIEW BEFORE THE CRIMINAL DUTY
JUDGE OR OTHER DISTRICT COURT JUDGE.
MR. AVEIS:

ALL RIGHT.

THE COURT: ALL RIGHT. ANYTHING
FURTHER TO DO ON THIS CASE?
MR. AVEIS:

NO, THANK YOU.

App. 197
MR. WERKSMAN: YOUR HONOR, JUST A
HOUSEKEEPING MATTER.
THE COURT:

YES.

MR. WERKSMAN: BECAUSE OF HIS
MEDICAL CONDITION WOULD THE COURT ORDER THAT THE MARSHALS SUBJECT HIM TO A
MEDICAL EVALUATION UPON HIS BEING TAKEN
INTO CUSTODY AT MDC. HE NEEDS TO BE SEEN.
THE COURT: WELL, THE MARSHALS
WON’T DO IT, BUT THE PHYSICIANS AT THE DETENTION CENTER I’M SURE WILL SEE HIM. AND
IT WILL BE THE COURT’S RECOMMENDATION.
I’M SURE MR. AVEIS JOINS IN THAT AS WELL.
MR. WERKSMAN: THANK YOU, YOUR
HONOR.
[71] THE COURT:
THING FURTHER?
MR. AVEIS:

ALL

RIGHT. ANY-

NO, THANK YOU.

THE COURT: ALL RIGHT. THE DEFENDANT’S REMANDED TO THE CUSTODY OF THE
MARSHAL.
(PROCEEDINGS CONCLUDED 5:24 P.M.)

[Certificate Omitted]

App. 198
EXHIBIT C
UNITED STATES DISTRICT COURT
CENTRAL DISTRICT OF CALIFORNIA
–––
HONORABLE OTIS D. WRIGHT, II,
JUDGE PRESIDING
–––
UNITED STATES
OF AMERICA,
Plaintiff;
VS
JAMES MICHAEL FAYED,
Defendant.

)
)
)
) No. 08-224-UA
)
)
)
)

Reporter’s Transcript of Proceedings
Motion Hearing
Los Angeles, California
Wednesday, August 6, 2008
[2] APPEARANCES
ON BEHALF OF THE PLAINTIFF:
UNITED STATES ATTORNEY’S OFFICE
Mark Aveis
AUSA – Office of US Attorney
Criminal Division – US Courthouse
312 North Spring Street Suite 1200
Los Angeles, CA 90012-4700
213-894-2434
213-894-8601 (fax)
USACAC.Criminal@usdoj.gov

App. 199
ON BEHALF OF THE DEFENDANT:
Mark J Werksman
Law Offices of Mark J. Werksman
888 West Sixth Street Fourth Floor
Los Angeles, CA 90017
213-688-0460
mwerksman@werksmanlaw.com
[3] INDEX
WITNESS:

PAGE:

WITNESS, TIMOTHY L. SWEC, SWORN

24

*****
EXAMINATION:
DIRECT EXAMINATION BY MR. WERKSMAN: 24
*****
[4] WEDNESDAY, AUGUST 6, 2008;

3:30 P.M.

––––
PROCEEDINGS
––––
COURT CLERK: Calling Criminal Case 0824. United States of America versus James Michael M
Fayed.

App. 200
Counsel, please state your appearances for the
record.
MR. AVEIS: Good afternoon, Your Honor.
Mark Aveis for the United States.
THE COURT:

Good afternoon, Counsel.

MR. WERKSMAN: Good afternoon, Your
Honor. Mark Werksman appearing on behalf of James
Fayed, who’s present and in custody.
THE COURT:
good afternoon.

Mr. Werksman, Mr. Fayed,

I’ve read the government’s memorandum of points
and authorities in support of the application for a review of the magistrate judge’s bail order in which bail
had been set at $500,000 secured by a real property,
and the government had requested a stay of that Order
until today to permit briefing as to why Mr. Fayed
should not be released on bond but detained pending
trial.
And, Mr. Werksman, I have your Reply Memorandum, and I have read it. And I also understand, and I
[5] guess there is an FBI agent en route. I’m not certain
that’s necessary.
I’m inclined to accept the government’s position,
therefore, Mr. Werksman, I would imagine you wish to
be heard.
MR. WERKSMAN: I do, Your Honor. And
first I would like to take issue with one set of facts
that’s raised in the government’s papers which

App. 201
appears to be new and different from anything that
was raised before the magistrate because, Your Honor,
the government’s allegations in the memorandum in
support of review of the magistrate judge’s bail order,
basically contains – I’m sorry.
THE COURT: One second. Pardon me, but I
meant to raise this earlier, but it’s important I get it
out of the way now.
I know the indictment initially was issued under
seal. I guess it was unsealed. What is the status of this
case now? Does it remain under seal?
MR. AVEIS: No, it was unsealed by Judge
Rosenberg at about 11:30 Friday night August 1st.
THE COURT:

Okay.

MR. AVEIS: And the order for that has been
lodged with the clerk’s office and ought to be filed; but
the order of it, in and of itself, at that moment, the
indictment was unsealed.
[6] THE COURT:
MR. AVEIS:

Okay, good. Thank you.

You’re welcome.

THE COURT:
Go ahead.

I apologize, Mr. Werksman.

MR. WERKSMAN: Your Honoring, the government presents nothing new and different to this Court
that was presented to the magistrate during a rather
lengthy proceeding. It included the cross-examination

App. 202
of the affiant, the declaring FBI agent, who presented
facts to the Court which were pure hearsay.
A four-month rookie FBI agent testified about his
discussion with two LAPD detectives who were present but neither was called as a witness. One of the
LAPD detectives, the special agent was testifying, his
name was Swedd, I believe that’s Swedd, S-W-E-D-D
[SIC], knew the name. The other one, he didn’t even
bother to learn the name of.
Special Agent Swedd testified about various facts
which are now contained and resubmitted in the government’s papers; but there is one new and additional
fact which I think the government put forward to tip
the scale in favor of the Court finding that Mr. Fayed
was a danger to the community to such an extent that
it would warrant his detention in this otherwise unrelated one-count indictment, for which, I believe,
there is – traditionally, in a one-count indictment, alleging a failure to be licensed for a money exchange
house, which carries a five-year maximum for a [7] 45year-old United States citizen with no prior criminal
record, who’s been living in this community for 20
years, he probably would have been summoned then.
But it’s clear, Your Honor, that the government is
seeking to bootstrap into these proceedings and use
as a reason to detain him this separate murder investigation.
And today in the pleadings filed by the government – and I received them today, Your Honor, and
that’s why my Reply was just filed an hour ago, 20

App. 203
minutes ago, and I apologize for that, but that was as
much time as I had – the government makes an allegation that on June 24th of 2008, Pamela’s then defense counsel advised the government that Pamela
wanted to cooperate in its investigation.
Now, Your Honor, I’m not putting myself in the position of trying to read the Court’s mind, but I think
the addition of this fact is a serious and inflammatory
and prejudicial allegation that my client may have arranged the murder of Pamela Fayed to silence the witness against him or to punish her for cooperation
against him in a federal investigation. I must take issue with that if that is at all being considered by Your
Honor.
And I understand that if that were true that it
would be a fact that would support the government’s
motion for detention; although I don’t think it would
put it over the top, it would certainly be an incriminating fact.
[8] THE COURT: In order to give you a bit
more of the Court’s thinking to help you, I suppose, focus your argument, it wasn’t just that simple a statement. It was, so much of what was going on on the date
before the family law hearing. But I have to tell you –
and reasonable bench officers can differ – but I come to
a different conclusion that there is a thin connection
between Pamela’s murder and anything that your client may have orchestrated.
When the murder is captured on videotape and the
murderer’s vehicle license plate is recorded and that

App. 204
vehicle is traced to a particular car rental agency and
it is learned that that vehicle was rented using a credit
card found in your client’s wallet, given the acrimonious nature of the divorce and how much money your
client was standing to be ordered to pay, plus, plus the
assertion, and whether it’s true or not, that she might
have been willing to provide evidence against her husband in connection with this case, you put all that together, and that is not “thin” in my book.
MR. WERKSMAN: Your Honor, I think that
Judge Zarefsky, in concluding that it was thin was concluding that the basis for believing those facts was
thin. The government presented uncorroborated hearsay, a declaration –
THE COURT: Stop. Tell me which of the
facts that I recited is just made up of whole cloth, is
completely unsupported.
[9] MR. WERKSMAN: For one thing, Your
Honor, the murder wasn’t captured on videotape. I
don’t think that was ever asserted. I think what the
governmental is asserting through this hearsay declarant, this FBI agent talked to two LAPD detectives, and
they told him, and he told Judge Zarefsky that the vehicle that was suspected of use, of being used in a murder that carried the suspects who allegedly committed
the murder was captured on videotape. A license plate
was recorded, and that license plate came back to the
Avis office, and near – in Camarrillo, and it had been
rented by my client’s company.

App. 205
But the murder wasn’t captured on videotape.
There isn’t that quantum of evidence linking my client
to the murder, Your Honor.
And, furthermore, this allegation that my client
may have had a motive to murder Pamela Fayed because she was going to cooperate with the government
is also unsubstantiated.
And I can stand here today, Your Honor, and tell
the Court that having interviewed the defense attorney for Pamela who had a conversation with government counsel, this government counsel, on June 24,
2000, and I interviewed that attorney an hour and a
half ago, and he told me that he made no such request
or had no such discussion with Mr. Aveis in which he
offered Pamela’s cooperation. In fact, he did [10] not offer her cooperation. He simply had a discussion with
Mr. Aveis about his client being, quote, “cooperative,”
closed quote, in dealing with issues regarding an attorney-client privilege that was extended by the accountants to a subpoena received by the government in the
course of an investigation.
In other words, there is absolutely no evidence,
and I can represent to the Court, having interviewed
that attorney, and that there was no cooperation agreement, she was not cooperating, she never told my client
that she was cooperating, and my client had no idea or
expectation that she was cooperating.
So, it would be simply false for the government to
assert, and it’s unsubstantiated, that my client may
have been motivated to commit this murder because

App. 206
he thought Pam Fayed was going to become an informant against him or a witness against him. It simply –
that nexus is missing, Your Honor.
Now, I understand Your Honor’s concern, Your
Honor has expressed some concern over facts which, on
their face, may appear to be incriminating. They tell a
story, they paint a picture but not the whole picture,
Your Honor. And when we talk about thinness, we’re
not necessarily talking about what those facts would
prove if they all turned out to be true. What we’re talking about is the quantum of [11] evidence presented by
the government, the persuasiveness, the voracity, the
authenticity, the credibility of these representations
which is wholly lacking.
The record today, Your Honor, contains of a declaration that wasn’t even made by the declarant, himself.
It was proffered by the assistant U.S. Attorney who basically recited to Judge Zarefsky here is what Special
Agent Swedd would say; and then I cross-examined
Special Agent Swedd who revealed that he had a wafer
thin set of conversations that, over the previous two or
three hours, that very day, Monday, with two LAPD detectives, one of whose name he didn’t even know and a
couple of other FBI agents, and he parsed together this
verbal declaration that was proffered on his behalf by
Mr. Aveis. That’s thin, Your Honor.
On that basis, for this Court to find that there is a
preponderance of the evidence that my client is a danger to the community; and rather, I think, the standard
would.be for clear and convincing evidence that he’s a

App. 207
danger to the community such that he should be detained on an unrelated indictment that was filed five
and a half months before the murder alleging a singlecount, which carries five years in prison for not having
a license to run a money exchange, I think that would
be heavy-handy, Your Honor.
And I think what the government is trying to do
is, to overwhelm this Court with hearsay and [12] unsubstantiated allegations of a very prejudicial nature
that attempt to portray my client as a murderer without proving he’s a murderer, without offering one single fact but rather offering hearsay declarations of FBI
agents who talked to detectives and learned those facts
that very day.
On that basis, Your Honor, I believe that this Court
cannot find that this my client is a danger to the community such that he would be detained on this. Otherwise relatively a minor case based upon a technicality
which is a failure to be licensed – for which I don’t
think detention would be appropriate.
THE COURT: All right, now, you know our
focus is not on this case and the licensing; and any concern that the Court may have as to whether or not your
client will make his court appearances is not based
upon any potential future punishment he may receive
from operating this unlicensed business. I think we’re
all in agreement on that, right?
MR. WERKSMAN: We are, Your Honor.

App. 208
THE COURT: All right. Now, you talked
about all of this hearsay evidence. Tell me, in your view,
what quality of evidence is necessary for the Court to
make a determination in this kind of a hearing?
MR. WERKSMAN: Well, Your Honor –
THE COURT: Do we have to prove that your
client committed murder?
[13] MR. WERKSMAN: Well, Your Honor, in
a case involving allegation of running a money exchange house without a license, it would be nice to
have something more than just a hearsay allegation
that he is a prime suspect in an LAPD murder case.
THE COURT: It may be nice. I’m asking
you, what quantum or quality of evidence is necessary?
MR. WERKSMAN: Well, Your Honor, I
would think at a minimum they would actually prove
up some of these allegations. For example –
THE COURT:
question. That’s fine.

You’re not going to answer my

MR. WERKSMAN: No, I’m trying to, Your
Honor.
THE COURT: Okay. That’s fine. I just want
to give you a warning. When I ask a question, it is for
a reason. If you don’t want to answer the question or
you can’t answer the question, say so, because, I’ve got
to tell – you, I turn off. I’m not listening to what you’re
saying.

App. 209
There are things I need to know, and if you don’t
want to give me what I need to know, trust me, I’m not
interested in what you’ve got to say. But if you want to
speak for another five or ten minutes about whatever
it is you want to say, go ahead.
MR. WERKSMAN: Well, Your Honor, I believe that in order for the government to use an unrelated case as a [14] grounds for detention because he’s
a danger to the community in that other regard, I believe, Your Honor, the evidence should be something
more than a hearsay declaration. For example, Your
Honor, the government should be required to prove to
this Court that in fact the vehicle rented by my client’s
company was actually involved in the murder to create
some concrete link between this murder and my client.
Your Honor, there ought to be some quantum of
proof which apparently the LAPD has not found sufficient to file a complaint against my client.
THE COURT: Can the government rely on
hearsay testimony at this point?
MR. WERKSMAN: To a certain extent, they
can, Your Honor, yes.
THE COURT: Okay. So I’m not sure why
that seems to be the focal point of your argument that
the government is relying on hearsay, and that clearly
is something that the Court can consider at this stage.
MR. WERKSMAN: Well, yes. But, Your
Honor, in a case with this gravity –

App. 210
THE COURT:
the gravity.

Yes, yes. And I am focusing on

MR. WERKSMAN: Yes, Your Honor.
THE COURT: I’m not focusing on the license. I could care less about the fact that he was operating a [15] business without a license. He’d be home
by now, and I think you’re aware of that.
MR. WERKSMAN: Yes, Your Honor. And my
argument to Your Honor is, I would ask Your Honor to
consider whether the vast disparity between the indictment for which he stands here today and this other
case for which he’s being detained, this vast disparity
is a perversion, Your Honor, because if the government
had evidence that he committed a murder to silence a
witness or for any other purpose, they should bring
that case and detain him on that case.
But for government to arrest a man on a five-anda-half-month old indictment and then detain him because of an ongoing murder investigation I believe creates such a disparity between what he was arrested for,
what he was charged with and the basis for the detention that it distorts the fairness and the due process of
this consideration.
THE COURT: I’m not sure why you’re linking, you know, this indictment, which is, what, February, with the murder that took place a couple of weeks
ago.
MR. WERKSMAN: Well, I link it, Your
Honor, because they indicted him five and a half

App. 211
months ago and didn’t believe he was a flight risk or a
danger then.
THE COURT:

The murder had not occurred

then.
MR. WERKSMAN:

Yes, Your Honor, it

hadn’t.
[16] THE COURT: I’m not following the logic
of your argument. The government wasn’t concerned
five and a half months ago, and suddenly now the government is now concerned, Well, his wife has been murdered. He is suspected of being complicit in that
murder. The stakes have now gone up from the statutory maximum of five years for operating a business
without a license to murder for hire.
MR. WERKSMAN: And yet, Your Honor,
he’s not charged with murder for hire.
THE COURT:

Well, not today.

MR. WERKSMAN: Well, is he going to be
charged?
THE COURT: Well, I shouldn’t even say
that. I shouldn’t say that. I don’t know. I don’t know
what’s going on.
MR. WERKSMAN: That’s precisely my
point, Your Honor. I feel – and this is the argument that
I’m making to Your Honor – that if the government has
no realistic or immediate expectation to file certain
charges, if they can’t presently evidence enough to support those charges, then the defendant shouldn’t be

App. 212
held detained on those charges. Rather, his detention
hearing should center on the charge that he’s facing at
the present, which is this one-count indictment.
THE COURT: Well, he certainly isn’t being
detained on charges that haven’t been brought.
[17] MR. WERKSMAN: Well, Your Honor,
and yet the Court has indicated, as we all know, that if
the bail issue turned only on what he’s charged with,
he’d be home by now.
THE COURT:

Yes.

MR. WERKSMAN: So, in fact, effectively, he
is being detained based upon a separate LAPD homicide investigation in which he’s been named as a suspect. That seems to be the basis of his detention, Your
Honor. And it’s inescapable.
THE COURT: There’s only a couple of
things that the Court concerns itself with at this particular stage of the proceedings, and that is whether or
not there is some assurance that he will make his court
appearances and whether or not him remaining in the
community may present some danger to the community. That’s all we’re concerned about here.
And my understanding, and I believe yours as
well, is that the quality of evidence that the Court may
consider at this particular point is not necessarily that
quality of evidence that would be admissible at trial.
MR. WERKSMAN: Yes, Your Honor. But
may I ask this?

App. 213
THE COURT: I’ve got to tell you, when the
threats are grave, then I think it’s prudent for the
Court to exercise some degree of caution.
MR. WERKSMAN:

May I submit, Your

Honor –
[18] THE COURT:

Certainly.

MR. WERKSMAN: – that there are terms
and conditions of pretrial release that could satisfy the
Court’s problems, and that’s what Judge Zarefsky
found.
THE COURT: All right, why don’t you take
a run at it, because I’m aware of all sorts of terms and
conditions of release, and I have reviewed those in my
mind, and I have no comfort in any of them.
And let me give you some guidance as to my thinking. What was it, I read somewhere where a couple of
days ago a search of your client’s business disclosed –
was it a couple of millions of dollars in gold? I understand that a search of his residence disclosed about $3
million in gold and $60,000 in cash and 31 firearms –
I’m not sure what that’s all about. But he’s got $2.2
million in real estate equity and over $7 million in assets, and what we’re looking at here is a bond of
$500,000 secured by real estate. That gives me no comfort whatsoever.
MR. WERKSMAN: Well, Your Honor, in fact,
the government has now seized all the gold in Mr.
Fayed’s possession at his home and at his business, and
he’s in the gold business. The codefendant in the

App. 214
indictment is Goldfinger, Inc. He ran a business that
involved the use of precious metals as an asset to back
deposits by customers. It’s a fairly complicated situation. The government claims [19] it’s an unlicensed
money exchanged. He has a defense to that based upon
the way the business was actually run. He will plead
not guilty to this indictment.
But the fact that gold would be in his home and at
his office should not be surprising to the Court or the
government in a case in which my client is in the gold
business.
THE COURT: Well, I’m not surprised. That
isn’t the point. That isn’t the point. The point is, that
he has assets at his disposal, which means he can probably, oh, at least make it as far as Glendale.
MR. WERKSMAN: Well, he had assets, Your
Honor. Those have all been seized by the government.
THE COURT: No, no, no. And you know
that, why? You stand here and make that presentation
to the Court based on what?
MR. WERKSMAN: Well, because –
THE COURT: You can make the representation that assets of a certain kind and quantity were
seized from certain locations. Now, can you state here
unequivocally to the Court that all of his assets had
been seized by the government?
MR. WERKSMAN: No, Your Honor.

App. 215
THE COURT:
conversation?

Then why are we having this

[20] MR. WERKSMAN: Because the assets
that were presented by the government in their argument to the Court as to why he should be detained suggests that he has this massive wealth that liquid, that
he could carry with him as a fugitive, that’s all been
taken by the government. Everything the government
is aware of they’ve taken –
THE COURT:

No, no. Tell me how you know

that.
MR. WERKSMAN: Because I’ve been in constant contact with the government agents and the government –
THE COURT:
know that?

How would the government

MR. WERKSMAN: Well, Your Honor, the
government – when we discussed this at the bail hearing on Monday –
THE COURT: We don’t know how much this
gentleman has got in his wallet. Now, how do you know
what this man’s assets are and where they are?
MR. WERKSMAN: What I’m speaking of,
Your Honor, is that the gold that the government –
THE COURT:
say: I don’t know.

Why don’t you just simply

MR. WERKSMAN: Well, I don’t know.

App. 216
THE COURT:

Well, that’s my point.

MR. WERKSMAN: Okay.
THE COURT: That is my point. That is my
point. So let’s stop wasting time.
MR. WERKSMAN: The gold that the Court
is familiar [21] with is – the Court is familiar with it
because the government seized it and told the Court
that we found all this gold. That’s taken by the government.
THE COURT:

Yes.

MR. WERKSMAN: All right. They’ve taken
his passport.
THE COURT:

Yes.

MR. WERKSMAN: He has a home that he’s
lived in for years in Camarrillo and Moorpark, where
he’s been residing for the past year and a half, mainly
since he became estranged from his wife.
He’s been in this community for 20 years. He has
serious health problems including rheumatoid arthritis and anti-immune disorder that require him to take
a cocktail of very potent pain medicine on a daily basis
to avoid excruciating pain. He sees doctors regularly
for that.
If he were released by this Court on a property
bond that required-him to post his properties, one or
the other or both, if he were subject to intensive pretrial supervision as Judge Zarefsky ordered, if he’s

App. 217
required to wear an ankle bracelet and be subject to
electronic monitoring as Judge Zarefsky ordered, and
if he was subject to intensive pretrial supervision, Your
Honor, then I think that the Court’s concerns about being a flight risk and certainly a danger to community
would be abated.
[22] He could be cut off from his business; he could
be cut off from leaving his property; he could be cut off
from moving freely about the community.
The crime that he’s charged with, which is the allegation that he’s a danger, the murder of Pamela
Fayed, is a singular instance of violence that’s attributed to him, but he has no prior record of any kind
of other criminal acts, and it’s not alleged that he is
otherwise a dangerous or a violent person, with the exception of this other one case in which he’s suspected.
So, I would submit to Your Honor that a certain set
of conditions of pretrial release could satisfy the
Court’s concern that he not be a danger and of course
to abate him as a flight risk.
THE COURT:

Okay. Thank you.

MR. WERKSMAN: Submitted, Your Honor.
THE COURT:

Thank you, sir.

All right, is there anything from the government?
MR. AVEIS: Your Honor, I have the agent.
He’s here. I have not yet had a chance to talk with him
today prior to his taking the stand.

App. 218
And if the Court rather – I guess it’s more a point
of whether or not the counsel would accept the government’s proffer to satisfy the evidentiary requirements
[23] of 3142(f ), I would have the agent available for
that. It’s more – I know where the Court is going. I appreciate that. I don’t want to belabor any of those
points.
THE COURT: Give me an offer of proof.
What is the agent here to testify regarding?
MR. AVEIS: The agent will support the facts
that are contained in the government’s brief.
THE COURT: Specifically with respect to
whatever LAPD is doing?
MR. AVEIS: With respect to what specifically was laid out in the brief and not everything LAPD
is doing. If the Court would like to learn what LAPD
may be doing, if I could have a moment, I can perhaps
answer that.
THE COURT: Let me do it this way. Mr.
Werksman, do you wish to have an opportunity to examine the agent?
MR. WERKSMAN: Not at this time, Your
Honor.
THE COURT:
pense with it.

All right, then we can dis-

Is there anything else you’d like to add?

App. 219
MR. AVEIS: All right, just to make sure the
record would be clear –
MR. WERKSMAN: I’m sorry, you mean the
FBI agent?
THE COURT:

Yes.

MR. WERKSMAN: I would like to cross-examine the FBI about his representation that on June
24th, 2008 –
[24] THE COURT: No, no. If the answer is
yes, then I’ll permit you to do that.
MR. WERKSMAN: Yes, Your Honor. That I
would. I misheard who he was offering to crossexamine.
THE COURT:
MR. AVEIS:

Let’s put him on the stand.
Very good.

(Witness sworn.)
COURT CLERK: Please state your full
name and spell your last name for the record.
WITNESS, TIMOTHY L. SWEC, SWORN
THE WITNESS:
name is S-W-E-C.

Timothy L. Swec, last

MR. WERKSMAN: May I, Your Honor?
THE COURT:

Yes, go ahead, please.

App. 220
DIRECT EXAMINATION
BY MR. WERKSMAN:
Q. Special Agent Swec, you were the agent who
testified at the Monday hearing before Judge Zarefsky,
correct?
A.

I was.

Q. Okay. And just to establish your background,
you’re a special agent with the Federal Bureau of Investigation, correct?
A.

That’s correct.

Q. And you’ve been an agent for approximately
four months, correct?
[25] A.

That’s correct.

Q. And on Monday you were the agent who
transported Mr. Fayed from the Ventura County Jail
early Monday morning to the federal courthouse for his
initial appearance, correct?
A.

That’s correct.

Q. And after you arrived to the federal courthouse on Monday, you were – after you arrived at the
courthouse on Monday, sometime during that day, you
were asked by Assistant United States Attorney Mark
Aveis to bear witness to certain facts that would be
presented to the Court in support of the government’s
motion to detain Mr. Fayed, correct?
A.

That’s correct.

App. 221
Q. All right. Now, we covered the other areas on
Monday, but there is a fact that is contained in a filing
that was presented yesterday by the United States Attorney regarding a conversation that Pamela Fayed’s
defense attorney allegedly had with the government
about Pamela’s interest in cooperating. Are you the
source of that information?
A.

I’m sorry, the source in what way?

Q. Did you provide information to Mr. Aveis
about an allegation that on June 24th, 2008, Pamela
Fayed’s then defense counsel had advised the government that Pamela wanted to cooperate in its investigation?
A. I was not the one who provided that information to [26] him, no,
Q. All right. Do you have any knowledge about
any conversation between Pamela Fayed’s defense
counsel and any government lawyer about Pamela cooperating?
A. I have knowledge that was given – that was
told to me by agents who worked on the case.
Q. And were you the special agent who reported
that information to Mr. Avis, or did someone else report
that to Mr. Avis?
A.

Someone else reported to Mr. Avis.

Q. All right, who were the FBI agents that you
interviewed who advised you about the facts regarding
a June 24th conversation?

App. 222
A. I spoke to Special Agent Eric Jensen, and he
provided me with those facts.
Q. All right, and did you ask Special Agent Jensen what his source of information was for the things
he told you about the June 24th conversation?
A.

I did.

Q.

You did?

A.

Yes.

Q.

And what was his source?

A.

His source was Special Agent More Kelly.

Q. Mora Kelly, okay. And did you subsequently
interview Special Agent Mora Kelly about that subject?
[27] A.

No, I did not.

Q. And do you have any independent knowledge
as to Special Agent Mora Kelly’s basis or foundation
for knowing about a conversation on June 24th between Pamela Fayed’s defense counsel and a government lawyer?
A.

I don’t.

Q.

Thank you.

MR. WERKSMAN: I have no further questions, Your Honor.
THE COURT:

All right. Mr. Aveis, is there –

App. 223
MR. AVEIS:
Thank you.

No, I have nothing further.

THE COURT:
You may step down.

Thank you, Special Agent.

All right, anything further from either counsel?
MR. AVEIS:
Your Honor.
THE COURT:

If I could just make one point,
Please.

MR. AVEIS: As the Court could tell from my
filing, my position is that the totality of the circumstances, the whole being greater than some of the parts
would indicate that no condition or a combination of
conditions can assure the appearance of this defendant
or protect the community or others in the event he’s
released.
[28] Accordingly, if that analysis holds water, if you
will, then eliminating this fact that Mr. Werksman has
discussed with this witness would not, in my view,
change the equation.
I think he could probably back out any number of
the factors contained in the government’s proffer
which has otherwise been accepted by counsel for this
hearing, and the Court can reach the same conclusion.
The summary, therefore, would be, that while one
fact might be stronger in terms of the quantum of proof
than any other, when the entire pattern and all of the
factors are considered, starting from years before the
indictment in this case and of course leading up to the

App. 224
present and the searches that occurred and are ongoing as we speak, I believe the Court’s analysis is absolutely correct, and it’s the government’s position that
no combination of conditions or condition can satisfy
the necessary standard.
I also want to point out for the record, of course,
that a 3142(f ) clearly holds that the rules concerning
admissibility of evidence in criminal trials do not apply
to the presentation and consideration of what’s called
Information at the hearing. So, we’re really not dealing
with evidence. We’re dealing with Information.
I think it’s in the best interest of the Court, the
parties and certainly the community, if not the [29] defendant, himself, that the Court avail itself of all the
available information. And if the Court were to do so,
based upon the government’s filing and in fact the defendant’s own filing, the Court would reach the conclusion provided, if you will, in the Court’s tentative.
And I appreciate the Court’s time. Thank you.
THE COURT:
concise argument.

All right. I appreciate your

MR. WERKSMAN: Your Honor, may I?
THE COURT: Yes, absolutely. I was just
about to ask if there is any one last comment you wish
to make in light of the government’s remarks.
MR. WERKSMAN: Your Honor, I simply
want to add that I understand the government’s argument about the totality of the circumstances.

App. 225
Unfortunately, the totality of the circumstances
warranting detention in the government’s view are all
unrelated to and separate from the crimes that he’s
charged with.
And I believe, Your Honor, that pretrial detention
should be an extreme measure that should be a measure of last resort, and I think it sets a dangerous precedent to allow the government to detain a man for
uncharged crimes, especially when there is such a vast
[30] disparity between what he was arrested for and
the alleged crimes for which he’s being detained.
The government has the means to bring the
charges if they believe those charges are warranted.
They haven’t. The State of California has the means to
bring murder charges across the street if they believed
that there are facts that warrant it. And now we’ll have
to sit and wait, Your Honor, to see if they ever plan to
charge him with this murder.
But as of now, Your Honor, all he’s charged with is
one single-count of this money exchange house, and I
would submit that it would be unfair and it would be
heavy-handed for him to be detained based on a totality of circumstances that stem from a completely uncharged, unrelated crime.
Submitted, Your Honor.
THE COURT:
Appreciate it.

All right, thank you, Counsel.

My tentative stands based upon the totality of the
circumstances, and I excised the reference at page 5 of

App. 226
the government’s motion regarding the government
being contacted on June 24 by Pamela’s then defense
counsel advising the government that Pamela wanted
to cooperate in the investigation.
I think had defense counsel made a direct [31] contact with the government, I don’t think there would be
much difficulty in ascertaining precisely who that individual with the government was.
In any event, charged crime or not, I think the risk
is too grave, and I think the possibility of flight is too
grave.’
If indeed there has been, and indeed there has
been, a murder of Mr. Fayed’s wife, it is not going to go
away. There is no statute of limitations with respect to
murder; and if the facts are as I earlier stated them to
be with the exception of the fact that the murder itself
was not captured on videotape, only that the perpetrator was seen leaving in a vehicle that was rented with
a credit card found in Mr. Fayed’s wallet, sooner or
later the other shoe is going to drop.
He is going to remain in custody pending trial.
MR. AVEIS: Your Honor, if I may, as required by the statute, I’ll submit the proposed findings
if that’s acceptable to the Court.
THE COURT:
MR. AVEIS:

Thank you, Mr. Aveis.
You’re welcome.

MR. WERKSMAN: Your Honor, would the
Court make this ruling without prejudice so that we

App. 227
can raise it again before the District Court when
the case is assigned to a [32] judge after the postindictment arraignment?
THE COURT:

Absolutely.

MR. WERKSMAN: Thank you, Your Honor.
THE COURT:

Absolutely.
–––

(Proceedings concluded.)
–––

[Certificate Omitted]

